<html>
<title> - NOAA FISCAL YEAR 2011 BUDGET REQUEST AND FISHERIES ENFORCEMENT PROGRAMS AND OPERATIONS</title>
<body><pre>[Senate Hearing 111-995]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-995
 
                  NOAA FISCAL YEAR 2011 BUDGET REQUEST
                   AND FISHERIES ENFORCEMENT PROGRAMS
                             AND OPERATIONS

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
57-891                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             GEORGE S. LeMIEUX, Florida
JOHN F. KERRY, Massachusetts         JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 3, 2010....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Begich......................................    18
Statement of Senator LeMieux.....................................    19
Statement of Senator Nelson......................................    30

                               Witnesses

Lubchenco, Ph.D., Hon. Jane, Under Secretary for Oceans and 
  Atmosphere and NOAA Administrator, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........     5
    Prepared statement...........................................     7
Hon. Todd J. Zinser, Inspector General, U.S. Department of 
  Commerce.......................................................    33
    Prepared statement...........................................    35

                                Appendix

Response to written questions submitted to Dr. Jane Lubchenco by:
    Hon. John D. Rockefeller IV..................................    47
    Hon. Maria Cantwell..........................................    48
    Hon. John Kerry..............................................    75
    Hon. Mark Begich.............................................    77
    Hon. Olympia J. Snowe........................................    82
    Hon. David Vitter............................................    90


NOAA FISCAL YEAR 2011 BUDGET REQUEST AND FISHERIES ENFORCEMENT PROGRAMS 
                             AND OPERATIONS

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building. Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Subcommittee on Oceans, Fisheries, 
and Coast Guard will come to order.
    Good morning, Dr. Lubchenco, thank you for being here, and 
pleased that you could join us this morning.
    Before we start, I want to commend NOAA's employees for 
their work this past weekend to monitor the tsunami in the 
Pacific Ocean.
    On Saturday, we woke to learn about the devastating 8.8 
earthquake that rocked Chile and our thoughts are with the 
people of Chile as they work to recover from this horrible 
incident.
    We also learned that morning that the earthquake generated 
a tsunami. And we were lucky that this time--because the 
tsunamis were minimal. But more importantly, we know that we 
were prepared, thanks to the Pacific Tsunami Warning System 
that NOAA operates. Coastal areas were evacuated and people 
were moved out of harm's way. And this is a clear example of 
the vital service that NOAA provides to the Nation.
    This morning's hearing is divided into two parts. On the 
first panel, we will hear from Dr. Lubchenco on the 
Administration's Fiscal Year 2011 budget request for the 
National Oceanic and Atmospheric Administration. And on the 
second panel, Mr. Todd Zinser, the Inspector General for the 
Department of Commerce, will join Dr. Lubchenco to discuss his 
recent report on NOAA's Fisheries Enforcement Program and 
Operations.
    Our oceans provide many things in our daily lives, and our 
ocean and coastal economies provide over 50,000 jobs for 
Americans and contribute nearly 60 percent of our GDP.
    What many people don't realize is that our oceans and 
coasts are in peril. Climate change, ocean acidification, sea 
level rise, pollution, and overfishing threaten the health of 
our oceans and coastal communities, and with them, our economy.
    The Fiscal Year 2011 budget request for NOAA, while a step 
in the right direction, falls far short of the funding 
necessary. For example, NOAA has rebuilt 12 commercial 
fisheries stocks since 2001, however, 46 stocks are overfished 
and 38 are subject to overfishing.
    Improved data collection and stock assessments continue to 
be sorely needed for effective management. Yet the budget cuts 
funding for fisheries research and management programs as a 
whole, and it proposes nearly level funding for expanded annual 
stock assessments and improved data collection.
    Oceans play an essential role in regulating the climate and 
levels of carbon dioxide in our atmosphere. And since the 
beginning of the industrial revolution, the oceans have 
absorbed about one-third of the carbon dioxide produced by 
human activities. Over 25 million tons of CO<INF>2</INF> is 
dissolved into seawater every day. But, the oceans do not 
escape unscathed. We are slowly acidifying the water.
    The effects of ocean acidification are poorly understood. 
More research and monitoring is necessary, especially 
adaptation strategies for industries and ecosystems. Yet NOAA's 
budget only provides $11 million for this crucial mission.
    Most of the $806 million increase that the Administration 
is proposing for NOAA is dedicated to restructuring the 
acquisition of our Nation's polar-orbiting climate and weather 
satellites. If we do not include the increased funding for 
satellites, then NOAA overall budget grew by only 2.6 percent. 
Polar-orbiting satellites are vital to the Nation and we need 
to make sure that the system is operational. However, we can no 
longer continue to fund satellites at the expense of the NOAA 
programs and services.
    Finally, I want to address an issue of particular interest 
to my State, but also I think to the Nation at large, and that 
is the NOAA's proposed relocation of the Marine Operations 
Center, also known as MOC-P.
    As you know, as of December 2 of last year, the GAO upheld 
a protest challenging NOAA's decision after the GAO found that 
the award of the MOC-P lease to Newport, Oregon violated the 
lease competition's Solicitation for Offers.
    GAO's conclusions prompted me to request additional 
information from both the Department of Commerce and from NOAA. 
Unfortunately, the information provided to this subcommittee 
has raised far more questions than it has answered.
    Among my concerns on this acquisition are the lack of any 
business case analysis, the avoidance of oversight by 
appropriate review boards, NOAA's exemption of MOC-P facility 
from its acquisition policies and procedures, the failure to 
formally evaluate and the potential use of existing Federal 
dollars to ensure the wise use of taxpayer dollars, and the 
lack of a termination clause in the lease. That's why today I 
am asking for an Inspector General investigation of NOAA and 
this acquisition process.
    When tens of millions of dollars are at stake, taxpayers 
should never have to hear that the Federal Government didn't do 
its homework or its due diligence. Taxpayers deserve better, 
and I intend to make sure that NOAA, the Department of 
Commerce, and the Federal Government are held to this high 
standard. The burden is on NOAA and the Department of Commerce 
to demonstrate their choices are the right choices and I have 
yet to be convinced.
    NOAA is an integral part of creating and sustaining 
American jobs, educating our youth and teachers, and 
researching and developing innovative technologies that America 
needs to keep competitive. If the Administration continues to 
propose inadequate funding for NOAA, we are at risk of losing 
much as a nation, so I hope that this hearing this morning will 
illuminate some of those challenges as we hear from Dr. 
Lubchenco, and we can discuss in the question and answer period 
how we can continue to make progress on our oceans.
    Now I'd like to turn it over to Senator Snowe for her 
opening statement.

               STATEMENT OF HON. OLYMPIA SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madame Chair, for convening this 
hearing this morning regarding NOAA's budget and the 
President's request for Fiscal Year 2011 and also, an extremely 
troubling report completed by the Department of Commerce's 
Inspector General last month, exposing major problems within 
NOAA's Law Enforcement Divisions. Just this week we have seen 
how both of these issues directly affect Americans on a daily 
basis. On Saturday, NOAA--as the Chairwoman indicated--produced 
remarkably accurate and timely predictions of the tsunami 
generated by the devastating 8.8-magnitude earthquake off the 
Chilean Coast. I too want to commend NOAA for extraordinary 
work.
    And yesterday, a trial began in Massachusetts pitting NOAA 
against the Gloucester Seafood Display Auction, in a case that 
many fishing industry members believe is a textbook example of 
the abuses of power detailed by the Inspector General in his 
report.
    I'm grateful to you, Dr. Lubchenco, for appearing before 
the Subcommittee today. I look forward to continuing our 
ongoing conversations about how to improve NOAA's efforts to 
manage our Nation's oceans, coasts, and Great Lakes, and to 
provide accurate and timely weather forecasts and climate 
projections.
    I also want to thank Mr. Todd Zinser, the Department of 
Commerce's Inspector General, for his independent investigative 
insight and leadership. And particularly for the striking work 
he and his staff contributed to a staggering and stunning 
review of NOAA's fishery enforcement programs and operation.
    I'm sure Dr. Lubchenco will agree that his findings in that 
report will lead to drastic changes to these systems and level 
the playing field for our Nation's hardworking fishermen and 
women. I look forward to an in-depth discussion of that 
document and NOAA's response in our second panel.
    In many ways this year's budget request of $5.5 billion 
represents a major step forward for NOAA, fully a billion 
dollars above the 2010 request. Still, I am troubled that this 
budget's entire $800 million increase this request represents, 
above the 2010 enacted level, is consumed by NOAA's satellite 
program. In fact, despite President Obama's step to strengthen 
our ocean policy initiatives by convening a National Ocean 
Policy Task Force, this budget represents a combined $44 
million reduction in funding for ocean, coastal, and fisheries 
programs. I find this counterintuitive at best.
    More than half of the U.S. population lives in coastal 
communities and our oceans and coasts are the lifeblood of our 
economy. We have had an ongoing dialogue about fishery 
management issues, and particularly as they relate to the 
Northeast region. I greatly appreciate your efforts, Dr. 
Lubchenco to follow through on your commitment to rebuilding 
the climate of trust among fishermen and women, scientists, and 
regulators, particularly in New England. This commitment is 
demonstrated in the financial investment NOAA has made in 
sector management of the ground fishery, over $42 million since 
2009, including the $10 million of new funding for permit 
banking and to defray monitoring costs that were announced 
earlier this week. This funding will be key to giving sector 
management every chance to put this fishery back on a long 
sought path to sustainability.
    Yet this budget, with its $54.4 million commitment to Catch 
Share management, also raises red flags. Catch Shares, as one 
Maine fishermen put it in a letter to me recently, are a 
resource hungry management system. So I am troubled, too, that 
this budget would allocate more than 10 percent of its fishery 
management funding to systems that will require more data, when 
our scientists already admit that we do not have enough.
    Lack of data has had a very real effect on our coastal 
economy. On February 17, Bumblebee Foods announced that it 
would be closing the last sardine cannery in this country, 
located in Prospect Harbor, Maine, because NMFS, the National 
Marine Fishery Services, has reduced the catch limit for 
herring by 38 percent for 2010. Scientists didn't recommend 
this reduction because herring is overfished--it is not--but 
rather because they did not have the statistics to provide 
sufficient confidence in the stock assessment.
    In addition to the impact on the herring and the lobster 
fisheries, this lack of data has directly resulted in a 
century-old fish processing plant closing its doors, costing an 
economically depressed community 130 jobs and spelling the end 
of an entire industry in the United States. Frankly, I fail to 
see how investing such a large percentage of your fisheries 
budget on Catch Share programs will provide the results you 
seek in rebuilding our Nation's fisheries.
    By contrast, there is more than $2.2 billion in this 
request for a drastic overall of NOAA's environmental 
monitoring satellites, more than the amount for fisheries, 
oceans, and coastal programs, and fundamental research 
combined. Paramount among the programs supported by this 
request is a retooling of NOAA's National Polar Orbiting 
Operational Environmental Satellite System. I think we all 
agree that the Tri-Agency NPOESS has failed. This budget would 
begin the process of breaking this system into two separate 
components, one lead the Department of Defense, and one lead by 
NOAA and NASA.
    I am particularly concerned about the potential costs of 
termination of this existing contract and transition to a new 
management system. These are projected to run as high as $600 
million in Fiscal Year 2010 and 2011, and given this program's 
track record, costs have grown 87 percent since its inception 
in 2004, and in those 6 years, the program has fallen 5 years 
behind schedule; I would not be surprised to see them balloon 
past that ample figure. We must find ways to ensure this 
proposed solution does not simple create additional problems.
    Of course, the data provided by NOAA satellite systems is 
critical, particularly in our efforts to predict and monitor 
global climate change. I want to express my appreciation again 
for your recent decision to establish a NOAA Climate Service. 
As we discussed prior to your announcement, I have long 
supported the concept of consolidating climate research in one 
body to more effectively and efficiently direct our resources.
    Coordinating NOAA's programs is an excellent first step, 
and I hope to continue to work with you to further consolidate 
Federal climate research across the 13 Federal agencies 
currently contributing pieces to help solve the climate puzzle.
    I'm also hopeful that this office will help achieve the 
goal of providing clear, concise guidance to the American 
people to give them confidence in the predictions and 
projections, and help them understand and adapt to a changing 
climate.
    Once again, I thank you Madam Chair and Dr. Lubchenco and 
Mr. Zinser for being here today before this subcommittee. Thank 
you.
    Senator Cantwell. Thank you, Senator Snowe, and thank you 
for being here at this hearing and bringing up these important 
issues. And I, too, look forward to the second panel and better 
understanding the Inspector General's investigation.
    Dr. Lubchenco, welcome, thank you for being here this 
morning. We look forward to your comments, and obviously to the 
question and answer period, as well. So, you may begin.

        STATEMENT OF HON. JANE LUBCHENCO, Ph.D., UNDER 
         SECRETARY FOR OCEANS AND ATMOSPHERE AND NOAA 
        ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Thank you, Madame Chair.
    Senator Cantwell. I think you need to--have you got your 
microphone on?
    Dr. Lubchenco. Is it on now?
    Senator Cantwell. Yes, thank you.
    Dr. Lubchenco. Thank you both very much for your continued 
support of NOAA, for recognizing how important the services and 
products we deliver are to the Nation, as we continue to get 
better and better. I greatly appreciate your also recognizing 
the good work that the NOAA team did in issuing its advisories 
and warnings having to do with the tsunami on Saturday. And I 
acknowledge that these warnings and advisories were possible 
because of the support that this and other committees provided 
for detection, modeling, warning systems, coupled with training 
for communities to be tsunami ready. So we--this is--the 
success is indeed our partnership, and I appreciate your help 
in that regard.
    The President's Fiscal Year 2011 budget request provides a 
solid foundation to continue to advance NOAA's mission and for 
meeting our most pressing needs. The request of $5.6 billion, 
represents an $806 million increase over Fiscal Year 2010 
enacted level and addresses a set of priorities that will guide 
our actions in the coming year.
    I would like to highlight a couple of significant areas of 
progress over the last Fiscal Year. In the area of climate, we 
have continued to provide climate observations and analysis 
while engaging with our partners on how to strengthen our 
climate services. We've made important progress in rebuilding 
our fisheries, recovering protected species and sustaining the 
livelihoods of people and communities they enable. We 
introduced a draft Catch Share policy, and are committed to 
improving fisheries enforcement and our relationships with 
fishing communities and industries. We made good progress in 
meeting the mandates of the Magnuson-Stevens Act, and we 
commissioned the NOAA ship Pisces, which will support fisheries 
research in the Gulf of Mexico and the Southeast U.S.
    NOAA, as you know, is fully engaged in the President's 
Inter-agency Ocean Policy Task Force. The Draft National Ocean 
Policy and framework for coastal and marine spatial planning, 
reflect the growing recognition that healthy oceans matter, and 
that protecting and restoring critical habitat is essential.
    In Fiscal Year 2009, NOAA's Coastal and Estuarine Land 
Conservation Program acquired or put under easement over 4,000 
coastal acres. The Fiscal Year 2011 budget includes new 
investments to strengthen our science and foster innovation, 
rebuild and improve fisheries, and sustain and enhance 
satellite observations.
    NOAA has become a global leader, reporting on the state of 
essential climate variables, and proposes to establish a new 
line office called the NOAA Climate Service. I thank the 
Committee for all the support you have given us to establish 
this NOAA Climate Service. This office will enable NOAA to 
better address the growing needs for climate services.
    Our 2011 request includes $435 million in support of the 
U.S. Global Change Research Program, with $77 million in new 
increases for core climate services and observations.
    NOAA's satellites provide the data and information that are 
vital for every citizen in our Nation. A funding increase of 
$678.6 million, for a total of $1.1 billion, is requested to 
support the Administration's decision to restructure the NPOESS 
program and create, within NOAA, the Joint Polar Satellite 
System. NOAA is requesting an increase of $62.5 million, for a 
total of $730 million, to continue development of the GOES-R 
Program to be prepared for launch near the end of 2015.
    The 2011 budget also supports NOAA's responsibilities in 
transforming fisheries and protecting species. This project--
this budget includes an increase of $36.6 million to establish 
the National Catch Share Program. This program will provide a 
national framework to develop, manage, and improve Catch Share 
programs in fisheries across the Nation. It will also continue 
the transition of Northeast Ground Fish Fishery to sector 
management, as well as support new voluntary Catch Share 
programs in the mid-Atlantic, Gulf of Mexico, and Pacific Coast 
regions.
    The 2011 budget request also includes an increase of $10.4 
million in the community-based restoration program. NOAA plans 
to increase fish passage and spawning in ring habitat by 
implementing larger scaled ecological restoration in targeted 
areas. We will continue supporting the Species Recovery Grants 
Program with a requested increase of $9.6 million. This will 
allow NOAA to provide grants to conduct priority recovery 
actions for threatened and endangered species, including 
restoring habitat, monitoring population trends, developing 
conservation plans, and educating the public. With a total 
request of $65 million, the Pacific Coast Salmon Recovery 
Grants Program will continue to leverage Federal, State, and 
tribal resources in the Pacific Coast region to implement 
projects that restore and protect salmon populations and their 
habitats.
    NOAA's fleet plays an essential role in accomplishing 
NOAA's mission. The Fiscal Year 2011 budget continues the 
recapitalization of NOAA's fleet, critical for data collection 
to meet fishery management mandates. A $6.2 million increase is 
requested to address vessel maintenance backlog, and to 
increase preventative maintenance rates for the fleet. $4.4 
million is requested toward the design and construction of two 
fishery survey vessels that will replace aging vessels and 
continue critical fishery and habitat surveys in the Gulf of 
Mexico and the West Coast.
    Overall, NOAA's Fiscal Year 2011 budget request reflects 
the commitment of the President and the Secretary to public 
safety, healthy environment, sound science underpinning 
decisionmaking, and job creation. These resources are critical 
to the future success of meeting our needs in climate, 
fisheries, coasts, and oceans, and I look forward to working 
with you, and am happy to respond to any questions the 
Committee may have.
    [The prepared statement of Dr. Lubchenco follows:]

 Prepared Statement of Hon. Jane Lubchenco, Ph.D., Under Secretary for 
  Oceans and Atmosphere and NOAA Administrator, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Madam Chairwoman and members of the Committee, before I begin my 
testimony I would like to thank you for your leadership and the 
generous support you have shown the National Oceanic and Atmospheric 
Administration. Your continued support for our programs is appreciated 
as we work to improve our products and services for the American 
people.
    NOAA's mission and priorities support Secretary of Commerce Gary 
Locke's priorities through innovation in science and technology, 
services benefiting the economy and ecosystems, and green and blue 
businesses underscored by a solid foundation of environmental 
information and stewardship. A healthy environment and a strong economy 
go hand in hand. Recreational and commercial activities, representing 
billions of dollars in economic impact, depend on healthy coastal, 
ocean and fresh water environments and the services they provide. NOAA 
is assisting communities with the data, tools, technology, training, 
and essential services and knowledge needed to make decisions in 
diverse disciplines and sectors--from the innovative management of our 
natural resources to the investments we make in public infrastructure.
    I am honored to be here as the Under Secretary for Oceans and 
Atmosphere at the National Oceanic and Atmospheric Administration 
(NOAA), one of the Nation's premiere environmental science and 
stewardship agencies. I am pleased to speak with you today regarding 
the President's Fiscal Year (FY) 2011 Budget Request for NOAA.
    The FY 2011 President's Budget provides a solid foundation to 
continue to advance NOAA's mission. This is a critical budget for the 
Administration and NOAA, and provides support for meeting our most 
pressing needs. The FY 2011 request is $5.6 billion, representing an 
$806 million increase over the FY 2010 enacted level. After careful 
consideration of the key issues facing the Nation in which NOAA is 
mandated to and able to respond, we developed a set of priorities that 
helped to shape this budget and will guide our actions in the coming 
years. These priorities include ensuring the continuity of climate, 
weather, and ocean observations; eliminating overfishing and ensuring 
the sustainability of marine fisheries; strengthening climate science 
and services; promoting healthy and resilient coastal communities and 
ecosystems; improving weather forecasts and disaster warnings; and 
strengthening Arctic science and stewardship. Before discussing the 
details of this budget request, it is important to document some 
significant areas of progress over the last Fiscal Year.

FY 2009 Accomplishments
Climate
    In the area of climate, we have continued to provide climate 
observations and analysis while engaging other Federal agencies, the 
private sector, the science community, and many others on how to 
strengthen our climates services. In FY 2009, NOAA calculated sea-level 
trends for an additional 70 global stations. We also deployed ten 
additional Historical Climate Monitoring sites to provide high 
resolution regional climate data. Climate studies by NOAA scientists 
showed that changes in surface temperature, rainfall, and sea level are 
largely irreversible for more than 1,000 years after carbon dioxide 
emissions are completely stopped, and Arctic summers may be ice-free in 
as few as 30 years.

Satellites
    We are working to resolve many of the management challenges that 
will allow us to get our future polar satellite program ``back on 
track.'' These management challenges go back many years and resulted in 
significant delays and cost overruns. We still have a great deal of 
work to do, but this attention is critical to the continuity of the 
Nation's weather and climate information. In FY 2009, our other 
satellite programs saw major milestones accomplished with the launch of 
NOAA-19, a polar-orbiting satellite, and GOES-14, a geostationary 
satellite. These satellites are critical for NOAA's weather-
forecasting, storm-tracking, and space- and climate-monitoring 
missions. NOAA satellites also provided key support in the rescue of 
184 people throughout and near the United States during FY 2009, 
providing their location to emergency responders.

Weather
    Concern for public safety drives NOAA to continue to improve the 
timeliness and accuracy of warnings for all weather-related hazards. 
NOAA is committed to enhancing timely and accurate weather and climate 
forecasts through better observations, improved data assimilation, and 
collaboration with the research community. To this end, NOAA alerted 
the communities in Upper Mid-West in early February of record flooding 
they would experience in late March and April in the Red River Valley. 
NOAA also provided a Winter Outlook in early October which has been 
spot-on in advising the American public of the conditions expected 
through February, including the El Nino-driven storms which have swept 
through the southern tier of the Nation, bringing heavy rains, snow and 
flooding from California to the Mid-Atlantic since December.

Fisheries
    We have made important progress in rebuilding our fisheries, 
recovering protected species and sustaining the livelihoods and 
communities dependent upon them. We introduced a draft catch share 
policy and are committed to improving relationships with the 
recreational and commercial fishing communities. We are exploring ways 
to improve fisheries enforcement efforts, as well as the science used 
to inform fisheries management decisions. We are also considering ways 
to expedite Endangered Species Act consultations to allow projects to 
move forward more quickly while ensuring needed species protections. In 
FY 2009, NOAA continued to make progress in meeting the mandates of the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act. NOAA also commissioned the NOAA Ship Pisces, which will support 
fisheries research in the Gulf of Mexico and the Southeast United 
States.

Oceans and Coasts
    NOAA was fully engaged in the President's Interagency Ocean Policy 
Task Force, participating in and supporting every public hearing and 
attending every working group and Task Force meeting. The result of the 
Task Force's effort was the release of a draft national ocean policy 
and interim framework for coastal and marine spatial planning, the 
first time any Administration has so clearly committed to the ideal 
that ``healthy oceans matter.'' Protecting and restoring critical 
habitat is essential for healthy oceans. In FY 2009, NOAA's Coastal 
Estuarine and Land Conservation Program acquired or put under easement 
over 4,000 coastal acres.

ARRA Stimulus Funding
    The distribution and management of funding made available through 
the American Recovery and Reinvestment Act of 2009 (ARRA) is a success 
story for NOAA, as are the results of our projects. NOAA has obligated 
approximately 70 percent of the $830 million received. We have met all 
of our planned milestones and expect to obligate the remaining funds in 
the coming months. With this funding, we have infused new resources 
into the economy and also invested in critical infrastructure to meet 
NOAA's mission needs. I am particularly proud of our efforts to restore 
habitat, creating jobs as we restore ecosystems. We awarded 50 grants 
for marine and coastal habitat restoration in 22 states and 
territories, obligating $155.4 million. Many of these projects were 
located in areas of high unemployment and have provided jobs to 
Americans during a critical phase of our economic recovery. For 
example, NOAA grant recipients reported creating or saving 372 jobs for 
the period of October 1 through December 31, 2009.
    The progress we have made toward our strategic priorities and the 
improvements made to NOAA's core functions and infrastructure set the 
stage for even more success in the years to come.

FY 2011 Budget Request Highlights
    The FY 2011 Budget reflects NOAA's efforts to focus on program 
needs leading to measurable outcomes, identify efficiencies, and ensure 
accountability. The budget includes new research and development 
investments to strengthen our science (including climate) mission and 
foster innovation; provides investments to rebuild and improve 
fisheries and the economies and communities they support; and proposes 
targeted investments to sustain and enhance satellite observations, 
including a major realignment of our NPOESS program.

Meeting the Rising Demand for Climate Services
    President Obama has made it clear that addressing climate change is 
a high priority, and that good government depends on and should be 
informed by strong scientific knowledge. NOAA has become a global 
leader in reporting on the state of essential climate variables. NOAA 
proposes to establish a new line office called NOAA Climate Service. 
This office would bring together NOAA's longstanding and outstanding 
capabilities--Nobel Peace Prize award-winning researchers and 
assessments, observations, predictions, training and vital on-the-
ground climate services delivery to users in climate-sensitive sectors 
and economies. A single climate office, rather than the current 
dispersed structure, will enable NOAA to better address the growing 
need for climate services. NOAA's FY 2011 request includes $435 million 
in support of the U.S. Global Change Research Program, with $77 million 
in new increases for core climate services and observations (excluding 
increases for geostationary and polar-orbiting satellites) needed to 
enable the Nation to more effectively address the impacts of climate 
change. Climate science encompasses an immense breadth of topics 
ranging from those that are well understood and documented, such as 
greenhouse gases, to those on the cutting edge of knowledge, such as 
ocean acidification and melting sea ice.
    For example, the increasing acidity of the world's oceans has the 
potential for devastating effects on marine life and ocean ecosystems, 
but the degree to which various organisms may be capable of adapting to 
a more acidic environment is uncertain. More investments in ocean 
acidification are required to reduce this uncertainty and consider 
means to respond and/or adapt. In FY 2011, NOAA requests an increase of 
$6.1 million, for a total of $11.6 million, to support new technologies 
and ecosystem monitoring systems to better assess the physiological and 
ecosystem level effects of ocean acidification on productivity and the 
distribution of commercial and recreational marine fish stocks.
    The impacts of climate change are evident on both a global and 
local scale. The Arctic, in particular, is an emerging area of 
international concern, as it continues to experience profound 
atmospheric, terrestrial, and oceanic changes related to climate 
variability and change. With an increase of $3 million, for a total of 
$6.3 million requested in FY 2011, NOAA will improve and amplify 
representation of Arctic climate processes in global climate models, 
strengthen our network of observations, and provide user-focused 
research assessments for the region.
    Scientific assessments are integral for enhancing our understanding 
of climate--both to determine how and why climate is changing, but also 
what the changing conditions mean to our lives and livelihoods. NOAA 
will provide climate assessments on both the regional and national 
levels to meet society's increasing demand for climate data and 
information. A requested increase of $10 million will establish 
regional and national assessments that will synthesize, evaluate, and 
report on climate change research findings, evaluate the effects of 
climate variability and change for different regions, and identify 
climate risks and vulnerabilities.
    Strong scientific assessments incorporate information provided by 
NOAA's climate models and carbon observing systems. Climate models are 
the only means of estimating the effects of increasing greenhouse gases 
on future global climate. In FY 2011, NOAA requests an increase of $7.0 
million, for a total of $9.6 million, to continue development of Earth 
system models to address urgent climate issues such as sea level rise, 
feedbacks in the global carbon cycle, and decadal predictability of 
extreme events. An increase of $8.0 million, for a total of $20.9 
million, will allow NOAA to continue implementation of the Carbon 
Tracker Observing and Analysis System, which is an observational and 
analysis network that measures carbon dioxide and other greenhouse 
gases. This system will serve as the backbone for verifying greenhouse 
gas emission reduction and mitigation efforts in North America.
Improve Satellite Observations and Management
    NOAA's satellites provide the data and information that are vital 
to every citizen in our Nation--from weather forecasts, to safe air, 
land, and marine transportation and emergency rescue missions, we all 
use satellite products in our everyday life. One of the greatest 
challenges that NOAA faces today is ensuring continuity of satellite 
data and operations to provide state-of-the-art, unbroken coverage that 
supports weather and marine forecasting; climate assessments and change 
predictions; and space weather forecasts. With the FY 2011 budget 
request, we will invest in multiple satellite acquisition programs for 
the continuity of critical weather, climate, and oceanographic data.
    A funding increase of $678.6 million, for a total of $1.1 billion, 
is requested to support the Administration decision to restructure the 
NPOESS program and create within NOAA the Joint Polar Satellite System. 
This large increase reflects the Administration's determination that 
beginning in FY 2011, NOAA will fully support within its own budget the 
procurement and development of the assets for the afternoon orbit. 
Restructuring the NPOESS program will allow NOAA to continue the 
development of critical earth observing instruments for the afternoon 
orbit, which are required for improving weather forecasts, climate 
monitoring, and warning lead times of severe storms. The restructured 
program separates civilian and military satellite procurements, but 
retains sharing of common assets such as the ground system and data. 
The National Aeronautics and Space Administration (NASA) will serve as 
the lead acquisition agent for NOAA, continuing the long and effective 
partnership on all of our polar-orbiting and geostationary satellite 
programs to date. There is still much work that remains, but NOAA is 
committed to working with our partners to ensure a smooth transition to 
assure the continuity of Earth observations from space.
    NOAA is requesting an increase of $62.5 million, for a total of 
$730 million, to continue the development of the Geostationary 
Operational Environmental Satellite--Series R (GOES-R) program. This 
increase will provide for the continued development of six GOES-R 
satellite instruments, the spacecraft, and ground systems to be 
prepared for launch near the end of 2015. The acquisition of NOAA's 
GOES-R series, in partnership with NASA, is progressing on track. The 
new satellites will carry improved environmental sensors to enable 
NOAA's forecasters to enhance the timeliness and accuracy of their 
severe weather warnings. Also, this next generation of GOES satellites 
will provide advances in NOAA's observation capabilities, including 
improvements to coastal ecosystems, space weather, and lightning 
observations through continued funding of instruments such as the 
Advanced Baseline Imager, Solar Ultra Violet Imager, Extreme Ultra 
Violet Sensor/X-Ray Sensor Irradiance Sensor, Space Environmental In-
Situ, and Geostationary Lightning Mapper.
    Global sea level rise directly threatens coastal communities and 
ecosystems through increased exposure and erosion, more frequent storm-
surge and tidal flooding, and loss of natural habitat due to drowned 
wetlands. NOAA's budget requests an additional $30.0 million for a 
total of $50 million to continue development of the Jason-3 satellite 
that will provide continuity of sea surface height measurements, thus 
ensuring an uninterrupted climate record of over 20 years. The Jason-3 
mission is a joint U.S.-European partnership with U.S. and European 
funding.
    NOAA requests a $3.7 million increase to partner with the Taiwan 
National Space Organization for the launch of 12 satellites to 
replenish and upgrade the Constellation Observing System for 
Meteorology, Ionosphere, and Climate (COSMIC) satellite constellation. 
This program is a cost effective means of obtaining information about 
the temperature and moisture in the atmosphere around the globe that 
will improve forecasting accuracy.
    Finally, a requested increase of $9.5 million will support, in 
cooperation with NASA, the refurbishment of the existing NASA Deep 
Space Climate Observatory (DSCOVR) satellite, its solar wind sensors, 
and the development of a Coronal Mass Ejection (CME) Imager. The data 
and information provided by DSCOVR will support the operations of the 
National Weather Service Space Weather Prediction Center, which 
generates accurate and timely 1-4 day forecasts and warnings of 
geomagnetic storms that could adversely affect power grids, 
telecommunications, the health and safety of astronauts, and the 
viability of satellite systems.

Transform Fisheries and Recover Protected Species
    Ending overfishing, improving fisheries management and putting 
fisheries on a path to sustainability and profitability are still 
challenges for NOAA. I would like to highlight areas in the FY 2011 
budget that support targeted investments to continue fulfilling NOAA's 
responsibilities under the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act, and that will help to sustain local 
communities while restoring a number of vital fisheries stocks and 
habitats.
    NOAA recently released a draft catch share policy to encourage the 
consideration and adoption of catch shares wherever appropriate in 
fishery management and ecosystem plans and amendments, and will support 
the design, implementation, and monitoring of catch share programs. 
Catch share programs give fishermen a stake in the benefits of well-
managed fisheries, and therefore greater incentive to ensure effective 
management. To support NOAA's policy, this budget includes an increase 
of $36.6 million, for a total request of $54 million, to establish a 
National Catch Share Program. This program will provide a national 
framework to develop, manage, and improve catch share programs in 
fisheries across the Nation. This increase will also continue the 
transition of the Northeast ground fish (multispecies) fishery to 
sector management as well as support new voluntary catch share programs 
in the Mid-Atlantic, Gulf of Mexico, and Pacific Coast regions.
    Managing fisheries to their full potential requires additional 
efforts focused on habitat condition and ecosystem functioning, which 
provide the foundation for species recruitment and survival. The FY 
2011 budget request includes investments in this area through three 
vital NOAA programs that are focused on threatened and endangered 
species, but will have a resonating impact across broad goals for 
enhancing ecosystem integrity and health. First, through the Community 
Based Restoration Program, NOAA plans to increase fish passage and 
spawning and rearing habitat by implementing larger-scale ecological 
restoration in targeted areas such as wetlands. NOAA is requesting an 
increase of $10.4 million for a total of $23.8 million for this effort 
in FY 2011. Second, we will continue supporting the Species Recovery 
Grants Program in FY 2011 with a requested increase of $9.6 million, 
for a total of $20.8 million. This will allow NOAA to provide grants to 
conduct priority recovery actions for threatened and endangered 
species, including restoring habitat, monitoring population trends, 
developing conservation plans, and educating the public. Third, with a 
total request of $65 million, the Pacific Coastal Salmon Recovery 
Grants Program will continue to leverage Federal, state, and tribal 
resources in the Pacific Coast region to implement projects that 
restore and protect salmonid populations and their habitats.
    Another highlight of the FY 2011 request includes support for the 
restoration and protection of the Nation's largest estuary, the 
Chesapeake Bay. NOAA supports the President's Executive Order to 
restore the Chesapeake Bay by providing enhanced understanding of the 
relationships between the Bay's living resources and habitat, 
coordinating protection and restoration of key species and habitats 
across jurisdictional lines, and supporting a coordinated system of 
monitoring platforms distributed across the Bay. We are requesting an 
increase of $5 million, for a total of $7.1 million, for regional 
studies in the Bay. This investment will ensure NOAA has state-of-the-
art field and laboratory equipment in place in FY 2011, which will be 
used to address the mandates of the President's Executive Order in FY 
2011 and beyond.
    In addition to expanding scientific understanding in the Chesapeake 
Bay, NOAA scientists are developing integrated ecosystem assessments 
(IEA), a critical tool for understanding the interactions between 
multiple species and for helping to manage and sustain critical stocks 
and habitats. IEAs allow managers to weigh trade-offs between sectoral 
uses and evaluate the socioeconomic implications of management actions. 
Most importantly, IEAs provide guidance to ensure the most cost-
effective and informed resource management decisions. In FY 2011, NOAA 
is requesting an increase of $5.4 million, for a total $7.5 million 
investment, to focus primarily on the California Current Ecosystem, but 
to also engage work on the Gulf of Mexico and Northeast Shelf IEAs.

Vibrant Coastal Communities and Economies
    It was estimated that in 2003, approximately 153 million people--or 
53 percent of the Nation's population--lived in the 673 U.S. coastal 
counties, an increase of 33 million people since 1980. It is estimated 
that this number will increase by 12 million people by 2015. In 
addition, over half of the U.S. Gross Domestic Product is generated in 
coastal counties, highlighting their critical importance to the 
Nation's economy. This population increase is straining the limited 
land area of coastal counties. Coupled with the important economies of 
coastal areas and the demands for ecosystem services, it is becoming 
increasingly difficult to manage coastal resources in the context of 
competing uses. NOAA's FY 2011 budget provides key investments to 
promote sustainable, safe use of coastal areas and to support the 
economies of these coastal areas.
    As stated in the interim report of the Interagency Ocean Policy 
Task Force, current and future uses of ocean, coastal, and Great Lakes 
ecosystems and resources should be managed and effectively balanced. I 
would like to highlight areas in our request that support this goal and 
other Administration priorities.
    Human uses of ocean resources are accelerating faster than our 
ability to manage them. Increasing conflicts are unavoidable as demands 
increase for ocean-based energy, marine aquaculture, commercial and 
recreational fishery products, shipping and navigation services, and 
other activities. The Administration's Interagency Ocean Policy Task 
Force released the Interim Framework for Effective Coastal and Marine 
Spatial Planning in December 2009, which is aimed at enhancing and 
streamlining ocean management decisions to ensure the health of vital 
ocean ecosystems as human uses increase. Current management approaches 
are ad hoc and fragmented at the Federal, state, and local levels. NOAA 
is a leader in providing tools and services that support coastal and 
marine spatial planning efforts. Our existing programs have established 
a foundation for coastal and marine spatial planning that could be used 
government-wide across jurisdictions and sectors. In FY 2011, NOAA 
requests an increase of $6.8 million to support coastal and marine 
spatial planning, which will enhance existing efforts for sustainable 
fisheries, safe navigation, improved water quality, living marine 
resources and critical habitat protection.
    NOAA's request further supports coastal and marine spatial planning 
efforts with a $2 million increase to support the Gulf of Mexico 
Coastal and Marine Elevation Pilot to a develop robust geospatial 
framework, including high-resolution topographic and bathymetric 
datasets. These datasets will provide a better understanding of 
baseline variables needed to enhance coastal community resilience, 
wetland loss and erosion, and the potential for degradation of key 
ecosystem services. This pilot will begin in the Gulf of Mexico and be 
extended to other regions and applications over time.
    The Nation's coastal communities and economies depend on healthy 
coastal resources, which are threatened by fragmented planning and 
management of societal use of coastal lands and waters. Regional ocean 
governance mechanisms facilitate the effective management of ocean and 
coastal resources across jurisdictional boundaries by improving 
communications, aligning priorities, and enhancing resource sharing 
between local, state, and Federal agencies. Our request of a $20 
million increase will establish a competitive grants program to advance 
effective ocean management (including coastal and marine spatial 
planning) through regional ocean governance. The program will help 
support priority actions, in association with states, identified in 
plans of the existing regional ocean partnerships. Support for these 
partnerships will also encourage development of comprehensive, coastal 
and marine spatial plans, which are consistent with the President's 
Ocean Policy Task Force Interim Framework for Effective Coastal and 
Marine Spatial Planning.
    To better protect the public health of our coastal citizens and 
tourists, NOAA requests an increase of $9.5 million, for a total of 
$12.5 million, to support research into technologies that better 
detect, identify, characterize, and quantify disease-causing microbes, 
toxins, and contaminants in marine waters. These funds will be used to 
target sensor development, which will support ocean and coastal related 
Health Early Warning Systems, identify risks, and promote public 
health.
    In addition to public health hazards, coastal communities are 
vulnerable to hardship and costs associated with episodic and chronic 
natural hazards, such as hurricanes, sea-level rise, and coastal 
erosion. Our request of a $4 million increase will support the 
development of tools, such as web portals, Geographic Information 
System (GIS) products, and forecast models, to help coastal communities 
mitigate the impacts of climate and weather hazards.

Ensure Timely Weather Forecasts
    Weather impacts our lives and the economy. The United States 
experiences a broader variety of severe weather than any other Nation 
on Earth, from hurricanes in the south, east, and west, to arctic 
storms in the north. Each year, NOAA provides 76 billion observations, 
1.5 million forecasts, and 50,000 warnings to mitigate the impact of 
weather events and protect life and property. The FY 2011 Budget 
Request proposes important increases in both weather operations and 
weather research.
    Weather is a factor in over 70 percent of air-traffic delays, 
costing approximately $29 billion annually.\1\ Two thirds of all 
weather delays are preventable with more accurate and timely weather 
information. To meet the rising demands of air transportation, NOAA is 
involved in a collaborative partnership with the Federal Aviation 
Administration to create the Next Generation Air Transportation System. 
NOAA requests an increase of $15.1 million, for a total of $26.7 
million, to modernize our aviation weather forecasts and warnings. This 
funding will provide much needed improvements to processing systems and 
models, as well as new products for pilots.
---------------------------------------------------------------------------
    \1\ See the Federal Aviation Administration's Research, Engineering 
and Development Advisory Committee's Report of the Weather--ATM 
Integration Working Group, 3 Oct, 2007; available at http://
www.jpdo.gov/library/FAA_REDAC_Report.pdf.
---------------------------------------------------------------------------
    NOAA is dedicated to continually upgrading existing weather tools 
to keep up with growing needs and improved technologies, as well as 
investing in research to develop new products. NOAA requests an 
increase of $3.2 million, for a total of $11.1 million, to install 
additional components to the Nation's fleet of NEXRAD Doppler weather 
radars to improve their accuracy in determining the quantity and type 
of precipitation. Doppler weather radar is the primary tool used to 
issue local storm warnings for flash floods, tornadoes, and severe 
thunderstorms. Looking to the future, NOAA also requests an additional 
$6 million, for a total of $10 million, to continue developing Multi-
Function Phased Array Radar technology, which shows great promise as 
the next major improvement in weather detection. These funds will 
examine the benefits and efficiencies associated with this next-
generation radar technology. Multi-Function Phased Array Radar's 
ability to rapidly scan large areas could provide an enormous advantage 
to radar meteorologists over current capabilities, and in turn enhance 
weather and climate warnings for the public.
    Water resource and precipitation monitoring and forecasting have 
become a particular challenge with increases in population, drought, 
and frequent changes in commercial shipping needs. On an annual basis, 
the majority of federally declared disasters are due to flooding. In FY 
2011, NOAA requests an increase of $7.7 million for a total of $12.9 
million, to research, develop, and deliver water forecasting services 
for river, estuary, and coastal areas that do not currently have these 
capabilities.
    In addition, the FY 2011 Budget includes $2 million, for a total of 
$13 million, for the national Space Weather Prediction Center (SWPC). 
Millions of precision Global Positioning System users, satellite 
operators, commercial and military space and aviation activities, and 
power grid operations will be vulnerable to a new round of solar storms 
during the predicted upcoming solar maximum. This investment will 
improve information technology systems at the SWPC and enhance space 
weather alerts and warnings to avoid potential disruptions to the 
Nation's shared infrastructure on which the public relies.
    Finally, NOAA requests an additional $2.2 million, for a total of 
$14.5 million, to provide a necessary technology refresh and frequency 
conversion for our network of wind profilers. This 20-year-old system 
provides high-frequency wind data for severe weather warnings and 
watches of tornadoes, flash floods, and winter storms, short-term 
forecasts, and detection of volcanic ash plumes.

Program Support
    In order to deliver sound science and services, NOAA must continue 
to invest in its information technology (IT) infrastructure, the 
quality and construction of NOAA facilities, and recapitalization. NOAA 
experiences thousands of cyber attacks every month. A requested 
increase of $8.7 million will enhance security monitoring and response 
capabilities, and consolidate our IT infrastructure into a single 
enterprise network. In addition, NOAA needs to continue to replace key 
facilities to ensure employee safety and maintain mission continuity. 
This budget includes an increase of $14 million for the Pacific 
Regional Center which brings together NOAA programs on Oahu, Hawaii. 
While the ARRA funds we received in FY 2009 helped fund basic 
construction of the facility, additional funding is needed in FY 2011 
to procure and install the information technology infrastructure for 
the new facility. The budget also includes an increase of $5 million to 
support the replacement of the bulkhead at NOAA's Atlantic Marine 
Operations Center.
    NOAA's fleet plays an essential role in accomplishing NOAA's 
environmental and scientific missions. The FY 2011 budget continues the 
recapitalization of NOAA's fleet, critical for data collection to meet 
fisheries management mandates. A $6.2 million increase is requested to 
address vessel maintenance backlog, and to increase preventative 
maintenance rates for the fleet. An additional $7.4 million is 
requested to accelerate a planned FY 2013 Major Repair Period to 
address structural, mechanical, and electrical breakdowns of the Miller 
Freeman. Lack of repair to this valuable ship would result in lost days 
at sea and impact NOAA research. Finally, we request $3 million toward 
the design of a fishery survey vessel to replace the Oregon II, an 
aging fishery survey vessel operating in the Gulf of Mexico. Another 
$1.4 million is requested for project management of a new fishery 
survey vessel that is being built using ARRA funding.

Conclusion
    Overall, NOAA's FY 2011 Budget Request reflects the commitment of 
the President and the Secretary to public safety, a healthy 
environment, sound science underpinning decisionmaking, and job 
creation. These resources are critical to the future success of meeting 
our needs in climate, fisheries, coasts, and oceans. I look forward to 
working with you, the Members of this Committee, and our constituents 
to achieve the goals I've laid out here through the implementation of 
the FY 2011 budget.
    Thank you for the opportunity to present NOAA's FY 2011 Budget 
Request. I am happy to respond to any questions the Committee may have.

    Senator Cantwell. Thank you, Madame Secretary.
    Senator Begich, do you want to make any kind of opening 
statement before we go to questions?
    Senator Begich. No, I'll just go--wait for questions, 
Madame Chair.
    Senator Cantwell. We've also been joined by Senator 
LeMieux, no?
    Senator LeMieux. No, I'll wait for questions.
    Senator Cantwell. All right, thank you very much.
    Dr. Lubchenco, obviously I'm very concerned about the MOC-P 
project, and obviously in the--I'm just having trouble 
understanding how NOAA exempted itself from the normal 
processes that must be followed in doing this kind of a 
project. And, we have tens of millions of dollars at stake from 
the taxpayer, and OMB has a definition of what capital 
investments are, and what procedures must be followed, and you 
also have a capital facility planning and management manual and 
procedures that have to be followed. And so, why did NOAA 
exempt this particular facility acquisition process from those 
definitions and those standards?
    Dr. Lubchenco. Madame Chair, it's my understanding that the 
process that we followed included an initial market analysis on 
potential lease costs for the new facility, and that this 
market analysis--which was conducted by a third-party brokerage 
service--indicated that the annual lease cost was below the GSA 
prospectus level of $2.66 million.
    And so, based on that market analysis, NOAA applied for--
and GSA approved--delegated authority for NOAA to conduct the 
lease award.
    With respect to the NOAA and DOC reviews, the lease was 
approved by NOAA's Facility Oversight Board and NOAA 
leadership. The DOC Real Property Board did not review the 
proposal since it was a lease reward and the Board focuses 
primarily on review of capital construction projects.
    The MOC-P decision was, however, reviewed and approved by 
the Department of Commerce leadership. So, I believe the bottom 
line is that NOAA conducted a transparent and fair solicitation 
and lease award process, and that it worked as it was intended.
    Senator Cantwell. I think you're missing the point, Dr. 
Lubchenco, and that is that to basically not comply, NOAA 
decided that it was not a capital investment, as required under 
OMB's definition. The whole process of making those decisions 
was to avoid the proper regulation and oversight that was 
required to make this decision. And so, the Agency has 
basically twisted the definition of capital investment, 
basically to evade oversight. And, why would NOAA do this? I 
mean, do you have something to hide in the decision? That's 
what I'm trying to understand in why you would not follow what 
is the NOAA Facility Investment Management Board of Commerce 
and their process?
    Dr. Lubchenco. Madame Chair, it was my understanding that 
we followed the process that was appropriate. I'm not quite 
sure how to respond to your answer, I mean, your question. I 
would be happy to consult with my staff who are here, or to 
provide you with additional information. It's my understanding 
that there was no intention to undermine or avoid the 
appropriate steps and that we followed the process, as we 
understood it, to be appropriate.
    Senator Cantwell. Well, it's very clear from this circular 
here about what are capital assets, and this project meets the 
definition which would have triggered requirements and 
oversight that NOAA has evaded. And, obviously, we're going to 
be concerned, as I said, and asking for an Inspector General 
investigation of this process.
    So, I'm going to turn questioning over at that point in 
time to my colleague, Senator Snowe, and probably come back to 
this issue.
    Senator Snowe. Thank you very much.
    And Dr. Lubchenco, I'm going to raise one of the issues 
that I raised in my opening statement concerning the sardine 
cannery in Maine, because I think it illustrates the problem 
that we're facing as an industry with respect to what's 
happening in the Northeast where we have to deal with some very 
tough regulations and reductions.
    Stock assessments are critical to determining the catch 
levels of a fishery. And here, with respect to this sardine 
cannery, they reduced the herring catch by almost 40 percent 
despite the fact that herring is not over-fished. But they 
didn't have confidence in the stock assessment itself, which is 
just so devastating because it means the loss of jobs.
    And the fact of the matter gets back to the investments 
we're prepared to make, to ensure that we have the scientific 
research necessary to make those decisions upon which these 
catch-levels are based. And it seems somehow like we're saying, 
``Geez, we don't really know, we can't get it right, until we 
do, we're just going to have to drastically cut the amount of 
fish that can be caught. And it actually had a direct effect on 
the closure of this facility that's going to occur in April and 
which was announced just a couple of weeks ago.
    So, I find that devastating. And, it's a direct connection. 
We need to make the investments necessary to get accurate stock 
assessments and not just, sort of providing hypotheticals or 
guesswork and therefore devastating lives and community as a 
result of these decisions.
    I just don't think that there's a realistic understanding 
of the impact. So, when we're making these drastic reductions 
because we're not really certain in terms of what level the 
stock is, that is a problem.
    So I'm concerned because I look at the budget, I don't see 
the kind of investments in this budget that will produce 
sufficient stock assessment so that we can have accuracy and 
there can be confidence in the decisions that are made at the 
Federal level.
    Dr. Lubchenco. Senator, I am not familiar with the 
particulars of the herring fishery, but I share your concern 
about the consequences of the closure to the communities and 
the individuals involved.
    I also agree completely with the importance of having 
accurate fishery information data on which to base decisions. 
As you know, we invest a considerable amount of energy and time 
in doing that, but it is insufficient and would be--there is a 
lot greater need for many of our fisheries to have a lot more 
data than we do have. So, I share your concern about that.
    Senator Snowe. Well, I would appreciate your input on this 
and I would like to have you analyze it, because I truly am 
disturbed about the lack of certainty with respect to this type 
of decision, on which we should have the very best and most 
accurate information to make a decision on the total allowable 
catch.
    And I noticed it, even in this current budget, some stocks 
may experience up to a 5 to 7-year delay in assessments. And, 
the Atlantic herring is an example of what has now occurred 
that's devastating lives. There are not exactly many options 
for alternative employment.
    Clearly there was a problem, back last fall when the 
decision was made to cut the catch from 225,000 metric tons 
down to 90,000 metric tons. Ultimately it became 20 percent 
higher, up to 109,000, but it devastated this particular 
factory, the only one, as I said, remaining in the United 
States.
    So, I'd like to have your input, I'd like to have you at 
least examine this issue, I think there has to be a dose of 
reality in Washington, among Federal regulators about what 
they're doing. Right now, there isn't, and it's having real 
life implications on the ground. And I truly feel that there's 
this disconnect saying, ``Oh, well, we just didn't get it 
right, we're not sure, so we're going to just devastate the 
catch-levels,'' and ultimately close this factory.
    This gets to the Catch Share Program, as well because when 
you're making enormous investments in this Catch Share program, 
and yet we haven't done enough to gather enough data even for 
sector management.
    Again, it's getting back to the good quantifiable, 
scientific research upon which to base these decisions that 
really are fundamentally affecting the confidence and decisions 
that are made here, at the Federal level. So, I guess I'm 
surprised how much the budget is being devoted to Catch Shares 
I quoted to you, a Maine fisherman saying that it's ``resource 
hungry,'' which is true. So, it's going to devour a lot of the 
dollars and the resources necessary that we should be using for 
other parts of the program to get that right so that we have 
accurate data upon which these decisions are made.
    Dr. Lubchenco. Senator, the issue of accurate and timely 
information about the stocks--the number of fish that are out 
there, if you will, the stock assessments--my new Assistant 
Administrator for NOAA Fisheries, Eric Schwaab, who has just 
recently come on board, and I have talked about the need to do 
a comprehensive review of the priorities for doing stock 
assessments and if there aren't ways that we can obtain more 
timely information and be making decisions based on more 
current data. And we will be implementing a project to do just 
that.
    Relative to your question on Catch Shares--the significant 
increase in the budget for Catch Shares does reflect an intent 
to transition to fishery management that, we believe on 
balance, will be much better for fisherman and for fish. There 
is an up-front investment required in making that transition 
and in obtaining the information, setting up the monitoring 
systems, et cetera.
    The evidence shows that once that's in place, those 
fisheries are fished in a much more sustainable fashion and 
are--bring many other benefits to the fishery that are 
important to fishermen. So, we see this as an important step in 
the right direction to get us out of what has been a downward 
spiral in fewer and fewer fish, and fewer and fewer fishing 
jobs. And, getting out of that, I think, is our primary focus. 
And Catch Shares have an important role to play in that for the 
commercial fisheries. They're not the panacea, they're not an 
answer to everything.
    Senator Snowe. Well, I know my time is up and I just think 
it's not so much that you're doing it in Catch Shares, as where 
you're taking it from, and that's the cooperative research 
program, which is the foundation of trust and confidence. And 
that program has taken a 60 percent reduction. So, it's where 
you're taking funding from that is so puzzling to me, at a very 
difficult time for our fisheries. It's that shift that is most 
bothersome, and in fact, the Inspector General indicated that 
when funding levels for cooperative research were higher in the 
Northeast ground-fish industry, relationships between NOAA and 
the industry were noticeably better than they are now.
    So, it's the shift. I'm not arguing so much for or against 
the Catch Share as I am arguing about where you're drawing the 
money from that is really undercutting a fundamental aspect of 
any kind of trust we can build in terms of our stock 
assessments. Cooperative research is the avenue for achieving 
that.
    Dr. Lubchenco. Senator, I would note that of the money 
that's in the budget for the Catch Shares, that $6 million of 
that is for cooperative research. And so, it's not quite the 
case that the drop in the cooperative--that the category that's 
labeled Cooperative Fishery Research--it's not as much of a 
drop as it looks like because there are $6 million in the Catch 
Share budget for that.
    Senator Snowe. But it's a $4 million reduction.
    Dr. Lubchenco. That's correct. And I believe that----
    Senator Snowe. At a time----
    Dr. Lubchenco.--those programs are very important and very 
essential, and I would like to see them be higher.
    Senator Snowe. But our fisheries are being devastated, as 
you well know. I mean, absolutely devastated--barely hanging on 
because of the Federal regulations that are coming down. And--
as you well know, and it's having a profound impact. So, that's 
what's so mystifying and stunning to me, is taking money away 
at the very time we need it, desperately, to determine the 
accuracy of these stocks.
    Senator Cantwell. Thank you.
    Senator Begich, did you have questions for the Secretary?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. I do, I have a few and I'll try to get 
through them very quickly. But I want to just echo the concern 
that Senator Snowe had in regard to the research. As a State 
that has 85 percent of our stock through a Catch Share program, 
the information is critical in order to determine that. So 
you're--we've been probably--we're probably the model of Catch 
Share, and it still has its controversy to this day, and I 
still get people coming to my office--when I was Mayor, they 
came for some reason, now I'm a Senator, they definitely are 
coming.
    So, I understand the pain and agony right now in your 
fisheries, and we have a lot of lessons that we have learned in 
Alaska waters on how to deal with it, but also the research is 
critical. Without it, you have no concept of what you're 
divvying up, in essence--I'm using my simplistic terms, here.
    So, you're--I was enjoying your conversation from afar. So, 
I hear what you're saying.
    If I can ask you, Dr. Lubchenco, a couple of things in 
regards to the Ocean Policy Task Force, and you and I have had 
some conversation on this, and I know in the budget there are 
some dollars now being put to the planning effort, the regional 
partnerships to the tune of about $20 million and another $6.8 
million--which is good, because I think the last time we 
talked, there was no money, but there was a lot of discussion 
about it.
    My point was, ``Well, great plan, no money.'' Now, a couple 
of issues that--that I'd like you to kind of respond to. And my 
question relates to, back in September, comments that NOAA made 
to MMS on the proposed outer continental shelf oil and gas 
leasing program of 2010 to 2015. Your response stated, at a 
minimum, NOAA believes that the lease area should not be 
further considered--and that was in the draft proposal until 
the CEQ-led Ocean Policy Task Force has released its 
recommendations and directives.
    Can you--if you can--describe these CEQ directives might 
be--when they might be available, so we can see them and have 
that discussion? And how the new requested funding to support 
the Ocean Policy Task Force initiatives relate to moving 
forward on OCS development in Alaska?
    Dr. Lubchenco. Senator, the comments that NOAA submitted to 
the Department of Interior Minerals Management Service were the 
initial part of an ongoing dialogue between NOAA and MMS. And 
we have had some meetings to discuss with them what some of the 
concerns are.
    It's not a correct interpretation of the NOAA comments that 
we oppose all leasing until the completion of a multi-year 
coastal and marine spatial planning process is in place. 
Rather, we are suggesting that MMS take the recommendations of 
the Ocean Policy Task Force under consideration as they are 
making their decisions.
    The funding that will be--the $20 million funding--that is 
in our budget request for a competitive grants program for 
regions would be that--a competitive program for different 
regions of the country to apply for resources to implement the 
priority activities for that region. And there is not yet a 
mechanism for doing that.
    The President's Interagency Ocean Policy Task Force 
recommendations are going to the President soon, and following 
that, we will await word from the President about how he wants 
to act on those recommendations. And it's at that point we 
would have a mechanism for working with the regions as 
recommended in our task force recommendations.
    Senator Begich. And when you say the regions, for example, 
in Alaska waters the regions will be defined--or the areas of 
priority may be, for example, in our area, oil and gas may be a 
part of that equation?
    Dr. Lubchenco. Yes, Senator. The intention is for the 
grants to reflect the regional priorities.
    Senator Begich. Who determines those regional priorities, 
then?
    Dr. Lubchenco. Well, for most other regions, there is an 
agreement among Governors. So, for example, the three West 
Coast States--Washington, Oregon and California, along the--so 
those States have a regional agreement and they have laid out 
their priorities.
    The Gulf Coast States have a regional agreement where they 
have laid out their priorities. Alaska is unique in having--
obviously because it's so large--it isn't a partnership with 
other Governors for priorities. And so there needs to be some 
mechanism for someone identifying those priorities that would 
be analogous to the other regions. I'm not sure exactly what 
that would look like.
    Senator Begich. If I could ask, just quick--my time is up 
on this round--and that is, when you say ``mechanism'' who 
will--can the State of Alaska say, we're going to propose what 
the priorities are? Or will it come from the Federal Government 
saying, ``This is how we want you to do it.''?
    Dr. Lubchenco. We haven't completely worked out the details 
of how that will play out. The intent is to have the funds 
available to implement the priorities of the region. Now, there 
may be some categories that might be defined, or some 
priorities, but we haven't made those decisions, yet.
    Senator Begich. OK. I'll end there. I have plenty of other 
questions, but we have plenty of time, I think. So, I'll leave 
it at that.
    Senator Cantwell. Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Madame Chairman.
    I want to echo the comments of my colleague from Maine. Dr. 
Lubchenco, you and I have spoken several times about this 
fisheries issue and the dramatic impact it's having on 
fishermen across the country and specifically for my concern 
about fishermen in Florida.
    We had a rally last week where fishermen came up from 
Florida and came from all over the country to talk about the 
dire situation that they're in. As you and I have spoken about, 
fishermen care about the fish stock, because it's their 
livelihood. They are very concerned about making sure that the 
fish stock is healthy, and they are for regulations that are 
reasonable in order to preserve the fish stock, because it's 
their way of life.
    But what I'm hearing from the fishermen in Florida, folks 
like Bob Zales who was here helping to organize the event, is 
that in the red snapper fishery that they're seeing more red 
snapper than they have seen in three generations. Yet, there 
are these moratoriums on fishing that are preventing them from 
operating their charter boats, which is putting them out of 
business. These people are really hanging by a thread.
    So, I want to echo the comments of Senator Snowe on how the 
money is being spent. I haven't come down one way or the other 
yet on the catch shares program, but certainly, I think we can 
all agree that we need the money to be spent on getting the 
proper scientific analysis and getting independent analysis, so 
that we know that the decisions that are being made are 
appropriate.
    Because the word from the fishermen is that there is a huge 
disparity as to what the statistical information is saying 
versus their experiential information; what they're finding 
when they're actually going out and fishing.
    So, in terms of these dollars that are going to be spent 
and cooperative research, do I understand that to mean that 
that's going to be research with independent folks to find out 
whether or not the information we're obtaining on the quality 
of the fishery is accurate?
    Dr. Lubchenco. The cooperative research programs are 
typically programs that involve NOAA scientists and fishermen 
themselves, and oftentimes academic scientists who are working 
collaboratively together to get information about the size of a 
fish population, for example. And I think those programs have 
shown to be extraordinarily effective in having everybody have 
confidence in the data, and you clear recognize the importance 
of those programs.
    Senator LeMieux. Is there enough money in here to do that 
on an expedited basis for, say, the Gulf fisheries so that we 
can know that the data that we're using to evaluate whether we 
want to close a fishery is appropriate?
    Dr. Lubchenco. There's not enough money in the budget to do 
all of the cooperative research program that probably need to 
be done. And, as you are well aware, constructing a budget 
involves tradeoffs and this was as much as was possible, given 
other considerations But it would be--I think this an area 
where I think there is a much greater need than is reflected in 
the budget.
    Senator LeMieux. Well, I just wanted to make the point that 
we need to be sounding the alarm. This is not a situation 
that's a problem 6 months from now, this is not a situation 
that's a problem a year from now, this is a situation where 
right now, families who have been fishing for generations are 
going out of business. They are losing their livelihood. When 
they lose their livelihood, not only does that way of life go 
away, not only do they lose their jobs, but the diner down the 
street where the people who came in to charter the fishing boat 
used to eat goes out of business, and the hotel where they used 
to stay goes out of business.
    We're in a time when we're talking about a jobs bill and 
we're putting in regulations based upon science that people 
don't believe in that is also putting people out of work in 
historic industries. The fishing industry in this country is as 
old as this country is, and it is a huge way of life for people 
in Florida.
    You know, we've got more recreational fishermen than any 
place in America. These folks who have been out there 
generation after generation, they are some of our oldest 
families in Florida.
    So, I'm very concerned that we work on this right now, that 
we have an action plan right now to figure out whether we can 
get some better science. Because it's the old expression, you 
know, garbage in, garbage out. If the science is bad and we're 
making Draconian decisions based upon bad science, or science 
we can't believe in that's affecting people's lives, that's 
wrong.
    Senator Schumer has a bill, as you may know, to amend the 
Magnuson-Stevens Act to allow for some more flexibility when 
fisheries improve, to look at the economic impact and to not 
necessarily be on this 10-year timeframe. Do you have an 
opinion about that legislation?
    Dr. Lubchenco. Senator, I'm happy to work with Members of 
Congress to try to figure out how we can get through the very 
real challenges that you just highlighted. I haven't examined 
the bill in detail, and so I'm not prepared to comment on it, 
but I do share the concern about the very dire situation that 
exists in many coastlines and for many fishing communities--
both commercial and recreational. And given the very serious 
sort of context of a bad economy, it's even worse.
    With respect to the red snapper fishery, I understand that 
fishermen may not have confidence in the data, but this is not 
a situation where we don't have good information. I think the 
challenge with something like red snapper is that the 
calculations about what is a sustainable level of fishing take 
into account how--what size the fish are and what many of the 
fishermen are seeing are lots and lots of younger fish and are 
assuming that that means that they are recovered and there are 
plenty out there.
    And, in fact, it's important for those younger fish to get 
larger and reproduce for the future health of the fishery. And 
the complication with red snapper is very much that there is a 
directed fishery, they are also bi-catch in other fisheries, 
for example, grouper. And so they get hammered both directly 
and indirectly and we have been working hard to try to find the 
right balance in allowing some fishing to happen, but not 
preventing the recovery of those stocks.
    Let me just conclude by saying that I very much want to 
work with you, I appreciate the urgency of this, and I think 
that we could put together some ideas about how we can not 
preclude the future health of the fishery and not lose a lot of 
important jobs right now.
    Senator LeMieux. Well, I appreciate that. I want to renew, 
in closing, my offer to you to come down to Florida, and let's 
go on a fishing boat and see these red snapper, because what my 
fishermen are telling me is not only are there many red 
snapper, but there are big red snapper, not just the juvenile 
fish.
    In fact, people who have been fishing for 45 years say 
they've never seen as many in quantity or as in size.
    They're not allowed to catch red snapper, so they go out on 
their fishing boat with a group trying to catch something else, 
and all they're catching is red snapper. So, they have to throw 
the fish back, because they're not supposed to be catching red 
snapper. Which means they're feeding dolphins, which they're 
not supposed to be doing, either, but the dolphins follow the 
boat out.
    The practical effect is that they're trying to catch around 
the red snapper, and there are so many of them it's difficult 
to do. So, practically, I'm not sure we're even achieving the 
effect that we want to anyway, assuming the science was good.
    I believe your sincerity on this issue. My point is that we 
can't wait until May or August or January to figure this out, 
we've got to figure it out right now.
    Dr. Lubchenco. I look forward to taking you up on your 
offer.
    Senator LeMieux. OK.
    Dr. Lubchenco. And also, it's pretty obvious that there is 
a need for having better exchange of information between the 
scientists who are working on this and the fisherman, so that 
everybody can see the same information and have a real open 
exchange of information and perspectives. I think that would be 
very helpful.
    Senator LeMieux. OK, thank you, Administrator.
    Madame Chair, I don't have any more questions. Thank you 
very much.
    Senator Cantwell. Thank you, Senator LeMieux.
    I think in consulting with my colleagues, we want to do 
another round with you, Dr. Lubchenco, and then we'll go to the 
second panel.
    And if I could go back to this issue with the marine 
facility that we were talking about, I want to ask you about 
why NOAA didn't consider long-term costs as part of, you know, 
the indirect and long-term cost of such a facility?
    Dr. Lubchenco. I mean, Madame Chair, it's my understanding 
that we did consider the long-term costs.
    Senator Cantwell. So, I don't think you did consider the 
long-term cost, indirect cost of locating a facility. It's very 
clear that, when you look at the requirements for the facility, 
that you are talking about proximity to research, in fact it 
says, ``Proximity to the NOAA Western Regional Center in 
drivable miles,'' and it actually gives the exact location of 
7600 Sand Point Way, Northeast Seattle. So, that's the 
proximity of the site and we are talking about, now, a facility 
that's hundreds of miles away, you're talking about access to 
an airport and proximity to an airport. That is also a major 
regional airport, hundreds of miles away, you talk about access 
to proximity to shipyard and dry dock--I'm assuming that's for 
repairs and I'm assuming that also is hundreds of miles away, 
and so what this really means is because NOAA didn't follow the 
rules and came up with a way to skirt the rules, basically 
saying, NOAA, you know, ``We're exempt from the normal process 
that people go through, we don't have to account for these 
things,'' and the issue is, is its long-term expense to the 
taxpayer.
    You clearly outlined in your requirements that you wanted 
to be close to the NOAA Center in Seattle, you outlined that 
you wanted to be close to an airport, you wanted to be able to 
get ship repairs easily, but you skirted the responsibility by 
coming up with a way to say that it's not a capital asset, so 
that you didn't have to meet the requirements that both your 
agency and OMB specify for these actual acquisitions.
    The issue is, then, that the taxpayer is going to have to 
pay extra costs on top of this because of a decision that NOAA 
just decided to evade answering the questions.
    Dr. Lubchenco. Madame Chair, my staff looked at the 
operational cost impacts of the Newport lease award. The long-
term costs do include the lease costs and I think some costs at 
Newport are anticipated to be higher, such as ship maintenance 
and transportation of goods to the facility, but the cost of 
Federal salaries, housing allowances, utilities and most 
importantly, the lease costs, are less expensive at the Newport 
site.
    Senator Cantwell. That's exactly my point, Dr. Lubchenco, 
and I'd hoped that you would drill down on this with your 
staff, because they're handing you notes that make no sense. Of 
course, they're trying to say that it's cheaper to operate in 
Oregon, ignoring the long-term costs that you have clearly 
stated in the RFP as it relates to proximity.
    And so, you're going to have long-term costs because you're 
going to be further away from Seattle, and you're going to have 
to travel back and forth to consult with the scientists that 
are there and that's going to be expense, you're further away 
from dry dock and that's going to be an expense, and it's going 
to be a long-term expense for us as a country.
    So, I think, you know, we're going to have to have the 
Inspector General review this issue, but I would--if I were 
you--drill down on the fact that the internal process that NOAA 
operated under was broke. It evaded the real responsibilities 
it had in this analysis.
    So, let me ask you----
    Dr. Lubchenco. Madame Chair, could I respond to that, 
please?
    Senator Cantwell. Yes, please.
    Dr. Lubchenco. I do believe that we took into account the 
travel costs and associated costs that you are mentioning. And 
I think it's useful to know that approximately 22 percent of 
all of the scientists on the three vessels that are home-ported 
in Seattle--I'm sorry--of the scientists that are--let me say 
that differently.
    Of all of the scientists that go on those 3 vessels, 22 
percent of them are from the Seattle NOAA facility. So, I think 
that important information to understand. The other piece of 
information is that most of the scientists that go on these 
vessels don't board the vessel where it's home-ported, they fly 
to the port that is nearest to where they will be doing their 
research. And of the scientists on those three vessels, 67 
percent of the scientists travel to go to the closest home port 
where they are.
    So, for example, in the--different ships that operate 
different places, let's say there's a hake survey that's 
happening all along the West Coast of the U.S. The scientists 
both from Seattle, as well as from other--either NOAA 
laboratories or academic institutions--would typically fly to 
San Diego or San Francisco to board the ship.
    So, it's not--the travel costs to which you are referring 
assume that people are boarding the ship right in Seattle, and 
in fact that's not what typically happens.
    Senator Cantwell. Again, I think that NOAA is playing with 
the information at a hearing, which is just astounding to me. 
Your own documents say that 80 percent of the programs using 
the ship are in Seattle. The factors of site location, factor 
A, which are the primary reasons why you're looking for this 
site and what it should do, doesn't say anything about the 
scientists on the ship. That is the people behind you handing 
you a note telling you that's the reason why they made the 
decision.
    But when you look at an acquisition process, it actually 
has to follow what the acquisition requirements are. And so, 
number three on the list is proximity to the NOAA Western 
Regional Center. It doesn't say how convenient it is for a 
few--a handful of scientists--to fly in and off of that site. 
It basically says, 80 percent of the programs are in Seattle 
and that's what you're interacting with. And so if you move 
that 300 miles away, you're now taking them away.
    That would be like saying, ``We're going to take, you know, 
this committee and operate it in, you know, someplace in 
Virginia,'' and ignore the cost of everybody having to travel 
back and forth to the Capitol to get access to everybody else 
who's here on Capitol Hill.
    So, we will, I want to ask you one more question----
    Dr. Lubchenco. Madame Chair, could I just clarify one 
thing, please?
    Senator Cantwell. Yes, but if you could also answer this 
question for me, if, in fact, NOAA has reached a final decision 
on this?
    Dr. Lubchenco. We have not reached a final decision on this 
issue. We are proceeding with the recommendations of the GAO to 
look at the flood plain issues and whether there is a 
practicable alternative to Newport and we are in the middle of 
that process.
    Senator Cantwell. And that's why----
    Dr. Lubchenco. And could I----
    Senator Cantwell. Yes.
    Dr. Lubchenco.--clarify the----
    Senator Cantwell. I wanted to ask you about that, because 
in the same day that you say that there hasn't been a decision, 
in the newspaper a NOAA official said that other sites were not 
practical alternatives.
    So, it sounds as if you've reached a conclusion and it 
sounds like you are moving ahead. So, if your own officials are 
being quoted as saying other sites aren't an alternative, I 
don't know how you can go--continue to go through the process.
    So, we're looking for a real analysis of this, not a 
continuation of NOAA's policy to think that they can go down 
this path.
    Dr. Lubchenco. I understand.
    I'd like to just clarify the 80 percent figure. That refers 
to the number of projects that are sponsored by NOAA on those 
vessels. And for any particular project, there are many 
scientists--some of whom are from our Northwest Fisheries 
Science Center lab, many are from other NOAA facilities, others 
might be academic individuals. And so the numbers that I quoted 
you--about 67 percent of the scientists having to travel to 
meet the ships, and only 22 percent of the scientists on the 
ship being from NOAA are not contrary to the 80 percent figure. 
They are--they're different numbers. The 80 percent are the 
projects that are sponsored by NOAA, but those projects might 
include individuals from a number of different places. Just to 
explain what those different numbers mean.
    Senator Cantwell. And I'm asking you to review factor A, 
requirements for location of the site. It doesn't say anything 
about scientists flying in and off the ships and what location. 
It says, ``The proximity to NOAA Western Regional Center.'' 
That is what you've outlined as the number three priority of a 
list of 12 factors that are the primary A factors for 
considering this location.
    So, it doesn't--it doesn't say anything about scientists or 
the number of scientists that can fly in and off of the vessel, 
it says ``Proximity to the Western Regional Center,'' and 
actually gives the exact address.
    So, that's pretty specific. And so, I think that we're 
going to have to get more insight because we're not going to 
leave the taxpayers on the hook for long-term expenses of this 
facility.
    I know my colleagues have other questions, I'm going to 
turn it over to Senator Snowe.
    Senator Snowe. Thank you, Madame Chair.
    I have a question regarding blue-fin tuna. I understand 
there was an announcement this morning by the U.S. Fish and 
Wildlife Service's Assistant Secretary Tom Strickland saying we 
will support the international petition for listing the blue-
fin tuna as endangered under the Convention on International 
Trade in Endangered Species.
    As you know, I and 14 of my colleagues sent a letter to you 
and to Fish and Wildlife stating our opposition to listing the 
tuna. After all, we know that our fishermen have been engaged 
under ICCAT, taking conservation measures, over the years, and 
ICCAT has agreed to a limit that would help to rebuild the 
stock by 2023, at least creating a 60 percent probability that 
would happen. They're paying a price, now, a penalty via this 
listing, because they will not have a market to sell blue-fin 
tuna, especially in the summer months.
    This is devastating. Other countries, like Japan, have 
indicated they may opt out of this listing. So, I don't know 
where that places our fishermen, and exactly what you and Fish 
and Wildlife will do to assist these fishermen during this very 
difficult time.
    And, what's troubling is the fact that they have operated 
under ICCAT; they have taken conservation measures. Even the 
press release that was issued today by the Department of 
Interior regarding the decision to support the listing of blue-
fin tuna states, ``We understand the frustration of our U.S. 
fishermen who have followed the scientific recommendations and 
regulatory provisions of ICCAT for many years while their 
counterparts in the Eastern Atlantic and Mediterranean have 
often over fished and engaged in ineffective management,'' Mr. 
Strickland said. ``The U.S. Government is committed to working 
with many of our international partners to continue to rebuild 
Atlantic Bluefin tuna and ensure its sustained conservation and 
management of the species into the future.'' It doesn't say 
exactly how it's going to help our fishermen that have been 
compliant and responsible, and conservative in their approach, 
and now they're going to be devastated by this listing, once 
again. Wasn't there another way of addressing this issue, short 
of doing this?
    Dr. Lubchenco. Senator, I believe that there is serious 
concern about the possible impact that a CITES listing would 
have on our fishermen. They have followed the rules. I would 
note that last year--or in 2008--the U.S. fishing fleet 
exported approximately 50 percent of the Bluefin catch and so 
that the majority of that product goes to Japan. And so I think 
it is likely that there would be an impact. Although the extent 
of that impact is hard to predict. There is still the domestic 
market and fishermen would be able to sell their product 
domestically.
    It's not clear, on balance, exactly what the impact would 
be, I think it is likely there will be an impact. That was 
taken into account in the decisions that were made.
    Senator Snowe. Well, there will be a seasonal impact. They 
have too much in the Summer and they will have no place to sell 
it. So, it's an unevenness, to say the least, not to mention 
losing the markets, paying a penalty for adopting conservative 
measures.
    So, I don't see what the incentive is here for our country 
and others who have been taking a conservative approach and 
have adopted standards, and now they're paying the price.
    So, I just wonder, will there be a connection to making any 
decisions that will help those engaged in this fishery? I mean, 
that's the point. By making these decisions, you're saying ``Oh 
yes, we understand.'' But we really don't because basically it 
ends there. There's a regulation, a decision that's made, in 
this case, with a listing on an international basis and our 
fisherman are going to pay the price, even though they had 
adhered to certain standards of conservation, knowing full well 
that other countries did not. And now they're paying the price.
    And so, I'm just wondering if the government's going to 
step up and help them because that's going to be a problem. I 
just think that there's always a disconnect. It's one thing to 
make a decision in Washington, but what about the men and women 
on the ground trying to eke out a living? I mean, that's the 
problem, here. I see a big gulf in reality, frankly. It's just, 
I don't think people understand. So, we make these decisions on 
high, go on and, ``Oh yes, we understand, we know it's a 
problem, but we're not going to do anything about it.'' I mean, 
I don't think it's fair, and I think that's why you're seeing 
the reactions in the fisheries about some of these decisions, 
because I don't think that there is a dose of reality.
    And with this decision, I was looking for help in this 
press release, that somehow they'd say, ``We're going to help 
out, here,'' but it doesn't say that.
    Dr. Lubchenco. We would look forward to working with----
    Senator Snowe. It doesn't even acknowledge what our 
fishermen have been doing: following for many years the 
scientific and regulatory of ICCAT and their recommendations, 
and now they're going to pay the ultimate price.
    Dr. Lubchenco. We would look forward to working with you 
and try to find what--identify what that help would look like.
    Senator Snowe. Maybe there should be a requirement in that 
regard. Any regulation that's going to devastate a fishery, 
there has to be an associated solution, a mitigation effort. 
Because I just think that there is truly a disconnect in 
somehow saying, ``Oh yes, well, it's going to help some, it's 
going to hurt others.'' In this case it's just taking an 
international position without regard to what's happening here, 
especially because the fishermen in this industry have been 
very responsive to conservation methods and recommendations.
    So, I think there should be a responsibility in that regard 
to say, ``This is what we're going to do to help.''
    Dr. Lubchenco. I agree.
    Senator Snowe. Thank you.
    Senator Cantwell. Senator Begich?
    Senator Begich. Thank you, Madame Chair.
    And let me do a quick follow up on the conversation we just 
had on the Ocean Policy Task Force. One of the things we talked 
about was in the past, about making sure, as that policy task 
force moves forward, we've talked about it, I think, the direct 
route of the White House, we've talked about it, and that is 
what are the--was there any additional work when this final 
report comes out--because I haven't seen it, obviously--that 
the economics were also measured in the fisheries, as well as 
the impact--and it kind of follows a little bit to what Senator 
Snowe is talking about, because as you make these policies 
you're going to have economic impact. And we talked briefly 
about that some months ago. Do you know if they augmented their 
report and research in regards to the economic impact of this 
study?
    Dr. Lubchenco. Senator, I'm not sure to what you're 
referring. The Ocean Policy Task Force recommendations that 
will go to the President----
    Senator Begich. Right.
    Dr. Lubchenco.--lay out a potential national ocean policy.
    Senator Begich. Right.
    Dr. Lubchenco. And a mechanism for the agencies to work 
together.
    Senator Begich. Yes, let me hold you there--that's exactly 
right. But, what I'm saying is I remember this conversation 
very well because I compared it to zoning law changes, as a 
former Mayor, when you come up with a comprehensive--this is 
what this really is--it's water zoning. And on land, we did 
land zoning, and when you do that and you change the lay of the 
land, what you end up with is winners and losers--no matter how 
you do it, because you're kind of re-zoning the place.
    And so, I know when we had to do this for the city I was 
Mayor of, we also did an economic analysis of the impact of 
those decisions, because they're going to have an economic 
impact on the effect--in this case--it would be the affected 
fisheries, in our case, oil and gas, and in some cases, in some 
communities, there might be future energy opportunities--wind, 
tidal, ocean, whatever else there might be. Is that part of 
this at all?
    Dr. Lubchenco. I now know what you're asking----
    Senator Begich. Now you remember, it all clicked.
    Dr. Lubchenco. Thank you for clarifying.
    Senator Begich. I knew it would.
    Dr. Lubchenco. So, this is with respect to the Coastal and 
Marine Spatial Planning Framework----
    Senator Begich. Yes.
    Dr. Lubchenco.--that will be part of the task force's 
recommendation.
    Senator Begich. Correct.
    Dr. Lubchenco. And that framework simply lays out the 
concept of doing what you're calling zoning. It simply says, we 
need to have a mechanism for considering the combination of 
activities that can coexist in an area to minimize conflicts 
among users and to minimize impact on the environment. It does 
not propose any particular changes in uses, it simply says, 
``We need a better mechanism than considering this activity in 
a vacuum, and this activity in a vacuum.''
    Senator Begich. I hear you. But will they make--will they, 
in that recommendation, also say, in the process of doing that, 
that will also measure, in this equation, the economic impacts 
of whatever those future decisions--if they are future 
decisions? I mean, that's the piece that I'm very nervous that 
we'll do a lot of stuff on the environment which I'm, you know, 
I'm very happy to work and do that, but then they will never 
measure the economic impact. I think that's, in some cases, 
what you're starting to hear in this discussion.
    Dr. Lubchenco. Right.
    Senator Begich. And we would never do land zoning without 
understanding the economic impact of those government 
decisions.
    Dr. Lubchenco. Yes.
    Senator Begich. So, do you--I guess let me end there and 
just say, I'm saying--from my perspective--I think it's 
important if that final report comes out and doesn't have any 
of that, honestly I will say it's a flawed report. Just so you 
know. Without that--even if it doesn't say, ``Here's the zoning 
changes, but here is the mechanisms we're going to use, part of 
that mechanism is understanding the economic impact.
    Dr. Lubchenco. I think that's an excellent suggestion----
    Senator Begich. OK, I'll----
    Dr. Lubchenco.--and let me just clarify further that the 
intent is to set--one of the recommendations will be to work 
with regions of the country----
    Senator Begich. Yes.
    Dr. Lubchenco.--and they would be actually doing the plans, 
and it should be part of those plans to do an economic 
analysis, I agree with you.
    Senator Begich. And I would make sure that's consistent, 
because we do in Alaska waters will affect the waters of 
Washington, for example.
    Dr. Lubchenco. Yes.
    Senator Begich. And if they're doing--if they don't do an 
economic model, and we do, there's a disconnect. So, there 
should be a broader----
    Now let me move to two quick other things. One, NOAA has a 
lot of investment in oil spill research. Is this--in your 
budget, do you have additional resources or additional dollars 
going into oil spill research? Because as you talk about issues 
within the Arctic and other areas of offshore, research is part 
of the equation. So, do you have any increase in that? And if 
so, how significant is it?
    Dr. Lubchenco. Senator, I frankly don't remember those 
numbers. Let me just check.
    Senator Begich. If you don't have them, why don't you get 
them for the record?
    Dr. Lubchenco. I do not believe there is an increase, but I 
can get the numbers to you.
    [The information referred to follows:]

    NOAA does not have a request for oil spill research funds in the 
President's FY 2011 Budget Request. NOAA's most recent effort in oil 
spill research was through a partnership with the Coastal Response 
Research Center (CRRC) at the University of New Hampshire. The last 
year of that funding was FY 2007.

    Senator Begich. OK, that would be great. And if there's no 
increase, that's of concern when you're making policy about 
what's going to happen in OCS, but you're the lead in some of 
the oil spill research, and you're not increasing that.
    The last thing I'll mention is on ocean acidification. This 
is probably our biggest threat--warming waters, ocean 
acidification for Alaska's waters, which control 62 percent of 
the fish stock of the country. And, so my concern is your 
budget only represents about 10 percent of the research and the 
issues around ocean acidification, but yet we control 62 
percent of the freshwater-caught product. So, I think there's a 
slight imbalance. Plus, the permanent ocean acidification 
sensor's collecting data--as of today, and I know you may have 
plans, and that's what I want to know--there's none in Alaska 
waters.
    Dr. Lubchenco. Yes.
    Senator Begich. But yet it's 62 percent of the fisheries 
stock.
    Dr. Lubchenco. Yes.
    Senator Begich. So help me understand what you're doing to 
improve that. Because without that knowledge--that's what's 
threatening us. It's not over fishing, it is now acidification 
and warming of the waters.
    Dr. Lubchenco. I'm glad you appreciate the potential 
importance of ocean acidification to our fisheries and to the 
health of the oceans. The proposed increases in this year's 
budget focus on doing research to understand the consequences 
of ocean acidification to different species. There are 
additional needs--not reflected in the budget--for more 
monitoring and more sensors in a larger array of areas than we 
currently have them. That's not in this current budget. But if 
we look at the long-term plans that our ocean acidification 
scientists have put together, they've identified a number of 
additional sites that would be very important to have, and 
Alaska is among those.
    Senator Begich. Thank you very much.
    Thank you, Madame Chair.
    Senator Cantwell. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Madame Chairman.
    Dr. Lubchenco, thank you for your public service and the 
good job that you're doing. And you, no doubt, are aware by 
some of the comments that have been made, here, that we are 
concerned about NOAA and the National Marine Fisheries pushing 
the Catch Share Program for fishing. And at the same time, 
cutting back on research, because to determine an appropriate 
Catch Share, you have to have intensive data. Has that concern 
come through to you?
    Dr. Lubchenco. It has, indeed, Senator, and I share it.
    Senator Nelson. Needless to say, our fishermen are quite 
concerned, and it's not just the commercial fishermen--they 
have now banded together with the charter boat captains and the 
recreational fishermen--on the closure of the fisheries, for 
example, on red snapper in the Gulf of Mexico as well as the 
South Atlantic. What we are asking you all to do in National 
Marine Fisheries it to make sure that your data is correct. 
They disagree with the data.
    If we could all get an agreement that the data is correct, 
then the fishermen are clearly willing to accept it, because 
they don't want to over fish the population, because that 
doesn't do anybody any good. But it comes back to the 
question--they think you have faulty data in cutting off the 
fishing. And it's not only the Atlantic, it's the Gulf, and 
that has been going on for quite a while. It's not as intense 
in the Gulf, now, because the closure is not nearly as long, 
now, as what you're proposing for in the South Atlantic.
    And therefore, coming back to the budget, it seems at 
cross-purposes that you cut your research dollars to determine 
the correct data in order to come up with a Catch Share. It's 
at cross-purposes. So, we've got to get this thing solved.
    Dr. Lubchenco. Senator, I share the importance of 
cooperative research programs and getting, I mean, those 
cooperative research programs are very important. They are not 
the only way that we get data on the size of the catches.
    I think that the Gulf of Mexico red snapper program that is 
now a Catch Share program is doing much, much better because it 
is now a Catch Share program and it's an example of why that 
approach is, in fact, is a very useful one.
    My suggestion for the South Atlantic is that we consider 
having some meetings with the recreational fishermen in that 
region and simply walking through the information that is 
available and having an opportunity to hear from them what 
their concerns are and share with them the information we have. 
Because I think a lot of what is playing out are assertions and 
without an opportunity to simply look at the information and 
challenge it, understand it and come to a better exchange and 
better understanding.
    Senator Nelson. Well, whatever the venue is, we've got to 
get to the bottom of this. And at the end of the day, it's 
going to affect Senator Snowe, it's going to affect Senator 
Begich on their fisheries. But right now, it's intense because 
it's the Gulf of Mexico and the South Atlantic. And people are 
being driven from their livelihoods.
    Now, if the fishery is being over fished, we need to stop 
it, so the stock can replenish itself. But we need to give a 
greater satisfaction to the fishermen that they--that you are 
dealing with correct data.
    Now, I've made a request to the Chairman and our Commerce 
Committee Chairman, Senator Rockefeller, that we have a hearing 
on this to try to bring some focus on the correct data. So, if 
you want to have preliminary meetings like this, I think that's 
a good idea, prior to having this. But we need to go on, 
because these people are being run out of business as we speak.
    It's obviously compounded by the fact that we're in the 
middle of a recession. But they deserve to have some 
satisfaction that your data is correct. So, I've already made 
that request in writing to the chairman that we have a hearing.
    Senator Cantwell. Are you finished, Senator Nelson?
    Senator Nelson. I had a couple of other questions, here, 
but that's the main thrust of what I wanted to talk about. I 
think you've got a science center that does it for regions, and 
most of your regional science centers only work for two 
regional councils. In the case of the Southern one, it works 
for three regional councils and so what's the appropriate 
funding for that regional science center, since it's doing 
three times the work instead of two times the work?
    Senator Cantwell. Well, Senator Nelson, thank you for your 
line of questioning, and I can assure you we are going to pay 
more attention to this issue and I appreciate the attendance of 
members and their regional interests, but this really is a 
national issue, as well. People underestimate what our ocean's 
economy really does mean to our U.S. economy. And we are going 
to--on this committee--continue to bring light to that, and so 
that we can have the best policies, moving forward, as a 
nation.
    Senator Nelson. And Madame Chairman, the Magnuson Act 
worked, on a fishery--particularly up in New England that was 
being over fished. And it brought back that stock. So, if it 
works--when it's got accurate data. And that's what we want to 
make sure of, and I need your help to get to the bottom of it, 
to make sure they've got accurate data.
    Senator Cantwell. Well, I think you've brought up an 
important point that the research and the data have to be 
there, as well.
    So, let's go to our next panel, because I think we're going 
to just continue this discussion. Ask the Inspector General of 
the Department of Commerce, Todd Zinser, to join us and to--I 
know the Under Secretary wants to make a statement on this 
panel, as well, so we'll ask both of you to make remarks. If 
you can keep them to 5 minutes, and then we'll go to another 
round of questioning.
    And I guess we're going to start with you, again, Dr. 
Lubchenco. Go ahead, Dr. Lubchenco.
    Dr. Lubchenco. I appreciate the opportunity to testify 
before you today on the recent Inspector General report.
    Congress has acknowledged the value of our marine and 
coastal environment through several laws, including the 
Magnuson-Stevens Fishery Conservation and Management Act. Under 
this law, NOAA has regulatory obligations to ensure the 
sustainability of marine resources and their habitat. NOAA, 
fishermen, and the public share a common goal of preserving and 
protecting the marine environment and our fisheries for the 
long-term health of both our fishery resources and fishing-
dependent communities.
    Proper regulation and enforcement are vital to this effort, 
and to the economic vitality of our coastal communities. For 
all of this to work, commercial and recreational fishermen must 
know the rules and believe that, if they follow the rules, 
others will, too. But these rules must be consistently and 
fairly enforced.
    NOAA is committed to improving its enforcement program to 
assure that it is both effective and fair. A lot of hardworking 
investigators, agents, and lawyers work every day to protect 
our Nation's ocean and fishery resources, but there must be a 
level playing field, and fishermen have to have confidence in 
the system.
    I spent a few hours just yesterday morning with fishermen 
in Gloucester. Doing so is part of my commitment to have an 
open, productive dialogue with fishermen, and understand their 
perspectives, hear their ideas for solutions, and work with 
them as partners.
    And, in fact, I met with fishermen on my first full day on 
the job last March, almost a year ago, and heard--among other 
things--their frustration with NOAA's law enforcement. A couple 
of months later, I heard concerns from Members of Congress 
about NOAA's enforcement programs, and in response I requested 
the Department of Commerce Inspector General to conduct a 
review of these programs.
    I requested this review because I believe in the importance 
of NOAA's law enforcement efforts, and felt it was time to take 
a fresh look at how well NOAA's enforcement efforts are 
supporting our mission to rebuild fisheries and the associated 
economic opportunity within our coastal and fishing 
communities.
    The IG report--released January 21--identifies a number of 
very serious issues with NOAA's enforcement program, and it 
recommends several steps we should take to address the 
deficiencies. I take this report very seriously, and I am 
committed to responding in a comprehensive, thoughtful, and 
timely fashion.
    In response to the IG report, I have instructed my new NOAA 
General Counsel, Lois Shiffer, and the new National Marine 
Fisheries Service Assistant Administrator, Eric Schwaab, to 
address the IG recommendations and to continue to work to 
improve our outreach and engagement with the fishing community 
at large.
    While we develop a comprehensive plan to address the Report 
recommendations in the allotted 60-day time-frame, we have 
already taken a number of actions in response to the IG report. 
My written testimony is more thorough, but let me briefly 
outline some of the changes that have already taken place, and 
then talk about some of the longer-term actions we are 
planning.
    First, I have instituted a freeze on the hiring of criminal 
investigators until an internal workforce analysis is done to 
address the appropriate mix of criminal investigators and 
regulatory inspectors in the Enforcement Office. This action 
will better position the Agency to address the Report's 
observation that the Office of Law Enforcement may not have the 
appropriate workforce balance.
    Second, I have shifted oversight of the Asset Forfeiture 
Fund from NOAA's National Marine Fisheries Service to NOAA's 
Comptroller. This immediate step will begin to address the IG's 
criticism that internal controls over this fund are lacking. We 
are actively working with the IG to conduct a forensic audit on 
this fund, and will further review this issue once we have the 
results of that audit.
    Third, I have asked the General Counsel--and she has 
committed--to institute higher level reviews for penalties, 
permit sanctions and settlements to ensure consistency and 
predictability. This addresses the Report's observation that 
NOAA lacks formal procedures for sufficiently documenting 
penalty decisions resulting in the appearance of arbitrary 
decisionmaking.
    Other actions that I would like to highlight fall into the 
category of improved communication and enhanced oversight, 
which are major themes of the IG Report. We are planning a 
number of actions to improve communication and increase 
transparency with the regulated community. A top-level 
management team is developing detailed plans for a summit on 
law enforcement practices, to be held no later than June 30 of 
this year. The summit will help us formulate long-range 
policies for properly and fairly executing the Agency's 
enforcement actions, and develop forward-thinking approaches to 
enforcement efforts.
    We're also well on our way to implementing much-needed 
improvements to our management information systems. This 
information is intended to address current system 
inefficiencies and data integrity issues. The IG's Report 
identified a lack of oversight in several aspects of our 
enforcement programs. To address this, we are working on 
several initiatives, including developing standardized 
procedures for setting enforcement priorities. We are also 
strengthening the operating procedures for our enforcement 
attorneys.
    These steps are intended to being to respond to the issues 
identified by the IG. NOAA will build upon these steps and 
respond to all of the IG's recommendations and to improve our 
enforcement program.
    Our marine and coastal resources are of immense value to 
the Nation--effective, fair, and transparent enforcement is 
critical to ensuring the long-term sustainability of these 
resources. I echo the urgency for change, and I commit to 
serious, measurable reforms to address the IG's recommendations 
and enhance our work with the fishing industry.
    Thank you, Madame Chair.
    Senator Snowe. Mr. Zinser?

    STATEMENT OF HON. TODD ZINSER, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Zinser. Chair Cantwell, Senator Snowe, members of the 
Committee, we appreciate the invitation to testify on our 
recent report concerning the fisheries enforcement programs and 
operations at NOAA. My testimony today will briefly summarize 
our report.
    We undertook our review at the request of Under Secretary 
Lubchenco, the Under Secretary's request was in response to 
congressional inquiries asking for a review of the policies and 
practices of Office for Law Enforcement within NOAA's National 
Marine Fisheries Service, and NOAA's Office of General Counsel 
for Enforcement and Litigation.
    The Under Secretary could have chosen to undertake this 
review using an internal NOAA team, but instead she chose to 
ask for our independent review. It was my view then, and it is 
still my view, that the Under Secretary wants to know what the 
problems are with her enforcement operations and wants to try 
to fix them.
    Our review included speaking with over 225 individuals in 
various parts of the country, including fishermen, boat 
captains, industry association representatives, conservation 
officials, Fishery Management Council members, and current and 
former NOAA personnel. We reviewed enforcement records and 
examined NOAA's management information systems. We reviewed 
Department of Justice policy and guidelines and analyzed 
comparable Federal regulatory enforcement agencies.
    Our report details our three principle findings. First, 
NOAA senior leadership and headquarters elements need to 
exercise substantially greater management and oversight of the 
agency's regional enforcement operations, to include setting 
enforcement priorities.
    Second, NOAA needs to strengthen policy guidance, 
procedures, and internal controls in its enforcement operations 
to address a common industry perception that its civil penalty 
assessment process is arbitrary and unfair. We found the 
process use for determining civil penalty assessments includes 
significant discretion on the part of individual enforcement 
attorneys, with minimal guidance on how to exercise that 
discretion. As such, we found it difficult to argue with the 
view that the process is arbitrary and in need of reform.
    Third, NOAA needs to reassess its OLE workforce composition 
which is presently 90 percent criminal investigators, to 
determine if this criminal enforcement-oriented structure is 
the most effective for accomplishing its primarily regulatory 
mission. Based on NOAA's own data, its enforcement results for 
the past two and a half years was about 98 percent non-
criminal.
    While we recognize NOAA's need to maintain a criminal 
investigative capability, its caseload reflects that its 
current staffing is disproportionate to Agency function and 
operational need, particularly compared with other agencies 
with similar mission profiles and enforcement responsibilities.
    For instance, agencies such as EPA and Interior's Fish and 
Wildlife Service separate their regulatory and criminal 
enforcement functions with inspectors who handle regulatory 
enforcement, and criminal investigators who handle criminal 
investigations.
    Our Report presents specific recommendations for NOAA to 
strengthen its enforcement programs and operations. These 
include, one, NOAA leadership's regularly addressing and 
providing input to enforcement priorities and strategies with 
regional management.
    Two, instituting a robust ombudsman program, specifically 
for fisheries enforcement issues, to provide an effective 
interface with the commercial fishing industry.
    Three, determining whether NOAA has an appropriate balance 
and alignment of uniformed enforcement officers and criminal 
investigators, based on mission need.
    Four, ensuring that there is an operating procedures manual 
for enforcement attorneys, and that the operations manual for 
its special agents is current and provides sufficient policy 
guidance for both regulatory and criminal investigations.
    Five, ensuring follow-through on the process improvement 
initiatives outlined by the General Counsel for Enforcement and 
Litigation in December.
    Six, instituting a mechanism for higher-level review of 
civil penalty assessment determinations, and;
    Seven, developing and implementing effective, integrated 
case management information systems for its enforcement 
mission.
    We note that the Under Secretary has directed a series of 
actions--some immediate, some in the near future--and we look 
forward to working with the Under Secretary and monitoring 
their implementation of those actions.
    This concludes my summary, Madame Chair, and I will be 
happy to answer any questions.
    [The prepared statement of Mr. Zinser follows:]

     Prepared Statement of Hon. Todd J. Zinser, Inspector General, 
                      U.S. Department of Commerce
The National Oceanic and Atmospheric Administration's Fisheries 
        Enforcement Programs and Operations

    Chairman Rockefeller, Ranking Member Hutchison, Subcommittee 
Chairman Cantwell, Subcommittee Ranking Member Snowe, and members of 
the Committee:
    We appreciate the invitation to be here today to discuss our recent 
report on the fisheries enforcement programs and operations of the 
National Oceanic and Atmospheric Administration (NOAA).\1\ My testimony 
today will briefly summarize our report, and we request that our entire 
report be made part of the record.
---------------------------------------------------------------------------
    \1\ National Oceanic and Atmospheric Administration: Review of NOAA 
Fisheries Enforcement Programs and Operations, Final Report No. OIG-
19887, January 21, 2010. OIG reports are available at our website: 
www.oig.doc.gov.
---------------------------------------------------------------------------
    We undertook our review at the request of Dr. Jane Lubchenco, the 
Under Secretary of Commerce for Oceans and Atmosphere, who also serves 
as the Administrator of NOAA. She had been contacted by the 
Massachusetts congressional delegation and state elected officials, as 
well as by both U.S. Senators and multiple Representatives from North 
Carolina, recounting complaints of excessive penalties and retaliatory 
actions by NOAA fisheries enforcement officials. Our review, then, 
evaluated the policies and practices of the Office for Law Enforcement 
(OLE) within NOAA's National Marine Fisheries Service (NMFS) and NOAA's 
Office of General Counsel for Enforcement and Litigation (GCEL). We 
examined their overall conduct of enforcement actions; how they 
prioritize actions and set penalty assessments; and their use of 
resources, including funds obtained through imposed penalties.
    We faced two conditions that limited our ability to fully meet our 
objectives. First, inadequate management information systems were a 
significant detriment. For instance, while NOAA's data shows regional 
disparity in aggregate civil penalty assessments, fostering a 
perception that such assessments in the Northeast have been arbitrary, 
NOAA's lack of effective case management systems and useful data made 
more in-depth analysis impossible. As we further explain below, if NOAA 
is to succeed in bringing a greater level of management attention to 
its enforcement programs, it will need substantially improved data 
systems.
    Second, we were constrained in our ability to meet our objective to 
examine the use and management of what NOAA calls the asset forfeiture 
fund. We found that despite a balance of $8.4 million as of December 
31, 2009, OLE officials were not aware of the fund's having ever been 
audited, and internal controls over the fund had not been tested. As a 
result, we have commissioned a forensic review of the fund as a follow-
up action, and that review is underway.
    Our review included speaking with over 225 individuals in various 
parts of the country, including the Northeast--fishermen, boat 
captains, industry association representatives, conservation officials, 
Fishery Management Council members, and current and former NOAA 
personnel. We also established a dedicated e-mail address for 
interested parties to use to provide potentially relevant information. 
Further, we reviewed numerous OLE and GCEL enforcement records and 
related documents, and examined OLE's and GCEL's case management 
information systems. Finally, we reviewed Department of Justice policy 
and guidelines regarding enforcement techniques, and analyzed 
comparable Federal regulatory enforcement agencies, including the 
Environmental Protection Agency (EPA) and the Department of the 
Interior's Fish and Wildlife Service.

Summary of Results
    Our report details our three principal findings:

        1. NOAA senior leadership and headquarters elements need to 
        exercise substantially greater management and oversight of the 
        agency's regional enforcement operations, to include setting 
        enforcement priorities based on integration and coordination 
        with headquarters fisheries management and science center 
        elements; implementing effective management information 
        systems; and utilizing data to inform its management decisions 
        and enforcement activities.

        2. NOAA needs to strengthen policy guidance, procedures, and 
        internal controls in its enforcement operations to address a 
        common industry perception that its civil penalty assessment 
        process is arbitrary and unfair.

        3. NOAA needs to reassess its OLE workforce composition 
        (presently 90 percent criminal investigators), to determine if 
        this criminal enforcement-oriented structure is the most 
        effective for accomplishing its primarily regulatory mission.

    An important backdrop framing the issues we examined and the 
results we further discuss below, is recognizing that regulation of the 
fishing industry is highly complex and dynamic--presenting NOAA with a 
particularly difficult mission. This backdrop underscores a continual 
need for NOAA to understand industry perspectives and changing 
conditions within its fisheries and the industry; establish and follow 
enforcement priorities that are well-grounded and involve integration 
with the agency's science elements; ensure well-managed programs and 
operations carried out by a workforce structured solely according to 
operational needs; and maintain effective communication with the 
industry. Essential to NOAA's overall program effectiveness is ample 
involvement and oversight by NOAA leadership, to include ensuring that 
there are adequate checks and balances for enforcement operations.
    Our report presents specific recommendations for NOAA to strengthen 
its enforcement programs and operations, in the interest of promoting 
greater transparency, consistency, and oversight. These include:

  <bullet> NOAA leadership's regularly addressing and providing input 
        to enforcement priorities and strategies with regional 
        management, to include integration and coordination with 
        headquarters fisheries management and science center elements.

  <bullet> Instituting a robust ombudsman program to provide an 
        effective interface with the commercial fishing industry.

  <bullet> Considering reestablishment of an ombudsman position to 
        serve as an interface with the industry.

  <bullet> Determining whether NOAA should continue to approach 
        enforcement from a criminal-investigative standpoint, and 
        determining whether the agency has an appropriate balance and 
        alignment of uniformed enforcement officers and criminal 
        investigators, based on mission need.

  <bullet> Ensuring that GCEL implements and follows an operating 
        procedures manual that includes processes, methods, and 
        justification for determining civil penalty assessments and 
        fine settlement amounts; and that OLE's enforcement operations 
        manual is current and provides sufficient policy guidance on 
        its authorities and procedures for civil and criminal 
        enforcement activities.

  <bullet> Ensuring follow-through on GCEL process improvement 
        initiatives outlined in its memorandum of December 1, 2009.

  <bullet> Instituting a mechanism for higher-level review of civil 
        penalty assessment determinations by GCEL attorneys in advance 
        (e.g., by a panel established within NOAA headquarters).

  <bullet> Ensuring that GCEL and OLE develop, implement, and 
        effectively utilize reliable, integrated case management 
        information systems.

    We note that the Under Secretary has directed a series of actions, 
some immediate and others in the near future, that are responsive to 
our findings and recommendations. We have asked for a specific response 
to our recommendations and will assess NOAA's progress by reviewing and 
reporting on the status of these and other agency actions.

Findings
    NOAA is entrusted with broad statutory enforcement powers to 
promote compliance and deter violations within the commercial fishing 
industry. This calls for the highest degree of oversight by NOAA 
leadership to ensure fairness and consistency in enforcement activities 
and sanctions, promote program integrity and accountability, and avoid 
even the appearance of abuse of authority. The agency's enforcement 
operations have not garnered a great deal of attention from senior 
management within the large, science-based organization. Yet these 
offices have great potential to affect the fishing industry, the 
livelihood of individual fishermen, and the public's confidence in NOAA 
and the Department of Commerce. Our three primary findings are as 
follows:

        1. NOAA senior leadership and headquarters elements need to 
        exercise substantially greater management and oversight of the 
        agency's regional enforcement operations.

    Given the complexities of NOAA's mission and organization, the 
industry, and the current enforcement climate, its establishment of 
enforcement priorities is essential. This should involve integration 
and coordination with its headquarters fisheries management and science 
center elements, including the Assistant Administrator for NMFS, to 
whom OLE reports. Such linkage, with corresponding use of both science 
and enforcement-related data, would better enable NOAA to establish 
priorities and target its enforcement operations to those areas 
warranting such focused attention.
    We concluded that a lack of management attention, direction, and 
oversight led to regional enforcement elements operating autonomously; 
in the Northeast Region, this contributed to aggregate fine assessments 
that are inconsistent with those in the other regions. Specifically, as 
shown in the following table, GCEL data for closed cases for the 5-year 
period from July 1, 2004 through June 30, 2009, illustrate that the 
Northeast Region's initial fine assessments totaled nearly $5.5 
million--an amount two-and-a-half times greater than the second highest 
region, and about five times or more greater than the other four 
regions. Of further significance, the data show the Northeast as the 
region with the greatest percentage reduction from assessed to settled 
fine amounts (approximately $5.5 million assessed to approximately $1.6 
million settled--a nearly 70-percent reduction). This substantial 
difference between initially assessed and settled fines in the 
Northeast fosters the appearance that fine assessments in that region 
are arbitrary.

            Table. Total Fines and Penalties, by NOAA Region
                     (July 1, 2004-June 30, 2009) a
------------------------------------------------------------------------
                              ``Notice of Violation''
           Region               (Initially Assessed)    Settled Amountb
                                       Amount
------------------------------------------------------------------------
Alaska                                     $1,549,311         $1,835,597
Northeast                                   5,471,550          1,572,275
Northwest                                     599,751            334,642
Pacific Islands                             1,190,500            994,555
Southeast                                   2,245,387          1,152,445
Southwest                                   1,293,120            594,522
------------------------------------------------------------------------
    Total                                  12,349,619          6,484,036
------------------------------------------------------------------------
a Figures have been rounded to the nearest dollar.
b The settled amount represents the agreed upon, reduced penalty amount
  between GCEL and the respondent. According to GCEL, reductions result
  from a variety of reasons, most notably ability to pay. Further, most
  of the Pacific Islands figures relate to a single large case.
Source: NOAA.

    GCEL's explanation for this inconsistency is that initial 
assessment amounts involve complex factors, which are considered on a 
case-by-case basis, using NOAA's Civil Administrative Penalty Schedule 
and accompanying internal guidelines. However, no formal process exists 
for sufficiently documenting decisions regarding fine assessments and 
settlement amounts, making GCEL's explanations for regional differences 
unauditable and thus unverifiable. Further, information contained in 
the table required substantial data manipulation, time, and effort for 
OLE to produce. NOAA also collects funds from asset forfeitures (e.g., 
fish seizures); such information is not included in the table. 
Inclusion of those figures would require a similarly labor-intensive 
manual effort.
    We also found that NOAA leadership has had minimal involvement in 
setting enforcement priorities, linking enforcement to its fishery 
management goals, or evaluating enforcement program effectiveness. 
Similarly, regionally-established enforcement priorities, even if 
documented, have not typically been disseminated to headquarters.

        2. NOAA needs to strengthen policy guidance, procedures, and 
        internal controls in its enforcement operations to address a 
        common industry perception that its civil penalty assessment 
        process is arbitrary and unfair.

    GCEL's process for determining civil penalty assessments includes 
significant discretion on the part of individual enforcement attorneys, 
with minimal guidance on how to exercise that discretion. As such, it 
is difficult to argue with the view that the process is arbitrary and 
in need of reform. One reform that NOAA should consider is instituting 
a process that includes higher-level review of civil penalty assessment 
determinations by GCEL attorneys in advance. NOAA should also revise 
applicable procedural regulations and penalty schedules in order to 
provide greater consistency and clarity, and reduce confusion among 
affected industry parties.
    Additionally, NOAA's data for fines are inherently unreliable 
because of weaknesses in GCEL's and OLE's current case management 
information systems--in particular, data that are missing, entered into 
the systems inconsistently, or vague. For example, based on our 
comparison of ``closed'' case data between OLE and GCEL data systems, 
out of 2,726 unique case numbers in OLE's system, only about 5 percent 
match GCEL's system for cases closed from July 2007 through June 2009.
    To its credit, in response to the results of our review, GCEL has 
recently initiated several steps to promote transparency, help ensure 
fairness, and open lines of communication with the fishing industry. 
They include initiatives to: (1) revise procedural regulations and 
penalty schedules; (2) develop an internal operating procedures manual; 
and (3) implement a new case-tracking data base, linking to OLE's case 
management system.\2\
---------------------------------------------------------------------------
    \2\ These efforts are detailed in a December 1, 2009, memorandum 
from the Assistant General Counsel for GCEL to NOAA's Deputy General 
Counsel.

        3. NOAA must reassess its OLE workforce composition, which is 
        now 90 percent criminal investigators, to determine if such an 
        emphasis on criminal enforcement is the most effective for 
---------------------------------------------------------------------------
        accomplishing a primarily regulatory mission.

    Based on OLE's own data, its caseload from January 1, 2007 through 
June 30, 2009, was about 98 percent noncriminal. Ten years ago, NOAA 
increased its already predominantly criminal investigator workforce 
(then 75 percent) to today's 90 percent. There are indications in the 
record that this workforce composition was driven by considerations of 
the better pay and benefits that apply to Federal criminal 
investigators, rather than by strict mission requirements.
    OLE's fundamental mission is to assist in the protection of 
fisheries by enforcing resource protection and fisheries management 
laws. OLE caseload data for January 1, 2007 through June 30, 2009, 
illustrate that its mission has principally involved enforcement of the 
Magnuson-Stevens Fishery Conservation and Management Act \3\ (65 
percent of cases). The criminal provisions of the Act are narrowly-
focused and nearly all are misdemeanors. Yet because the office is 
staffed largely with criminal investigators, OLE's orientation is to 
conduct criminal investigations. This despite the fact that the only 
felony provisions involve the use of a dangerous weapon during the 
commission of an act prohibited by Magnuson-Stevens and the assault of 
observers and officers authorized to enforce the Act.\4\ According to 
OLE, violations of the Act typically do not result in criminal charges; 
most violations (such as exceeding catch limits) result in 
administrative penalties alone.
---------------------------------------------------------------------------
    \3\ The Act is codified, as amended, at 16 U.S.C.  1801 et seq. 
For more information on the Act, see our January 21, 2010, report.
    \4\ See 16 U.S.C.  1859.
---------------------------------------------------------------------------
    While we recognize OLE's need to maintain a criminal investigative 
capacity, its caseload reflects that its current staffing is 
disproportionate to agency function and operational need, particularly 
compared with other agencies with similar mission profiles and 
enforcement responsibilities. For instance, agencies such as EPA and 
Interior's Fish and Wildlife Service separate their regulatory and 
criminal enforcement functions, with inspectors who handle regulatory 
enforcement and criminal investigators who handle criminal 
investigations.

NOAA Actions in Response to OIG Findings and Recommendations
    In a memorandum dated February 3, 2010, Under Secretary Lubchenco 
announced a two-pronged approach to addressing our findings and 
implementing our recommendations. This approach, which the Under 
Secretary characterized as initial steps, entails a series of immediate 
actions and other actions to be completed by March 21, 2010, summarized 
as follows:
    A. Immediate actions:

        1. Subject to compliance with applicable labor relations 
        requirements, NOAA General Counsel shall immediately institute 
        higher level reviews of proposed charging decisions, including 
        proposed penalties and permit sanctions, and proposed 
        settlements to ensure consistency and predictability.

        2. An immediate freeze on the hiring of criminal investigators 
        until NMFS completes an internal workforce analysis to address 
        the appropriate mix of enforcement personnel and it is approved 
        by the Under Secretary.

        3. An immediate shift in oversight of the NMFS Civil Monetary 
        Penalties Fund (also known as the Asset Forfeiture Fund) from 
        NMFS to NOAA's Comptroller.

        4. NMFS, in consultation with NOAA's Office of Communications, 
        will direct resources to improve communications on enforcement 
        issues, particularly in the Northeast.

        5. NOAA's General Counsel, NMFS, and NOAA's Director of 
        External Affairs will develop specific objectives and detailed 
        plans for a summit on law enforcement practices to be held no 
        later than June 30, 2010.

    B. Actions to be completed by March 21, 2010:

        1. NMFS's Office of Law Enforcement and NOAA's General Counsel, 
        in cooperation with NOAA's Chief Information Officer, will 
        develop a strategy and schedule to improve management 
        information systems, including recommendations on actions to 
        take advantage of the Internet to increase transparency.

        2. The Assistant Administrator for Fisheries, with input from 
        NOAA's leadership, will develop a plan and schedule to 
        implement standardized procedures for setting enforcement 
        priorities.

        3. NOAA's General Counsel for Enforcement and Litigation will 
        develop a plan and schedule to strengthen its operating 
        procedures, prosecution of charged cases, and settlement 
        actions.

        4. The Assistant Administrator for Fisheries, in collaboration 
        with the NOAA Communications Office and General Counsel for 
        Enforcement and Litigation, will develop an outreach strategy 
        to improve engagement with the local fisheries community and 
        the public.

        5. The Assistant Administrator for Fisheries, in consultation 
        with the Director of the Workforce Management Office, will 
        formulate a plan to review the NMFS Office of Law Enforcement's 
        staffing and procedures. This plan will explicitly address both 
        civil and criminal requirements, with specific focus on 
        ensuring that criminal procedures are not applied to civil 
        offenses. Development of the plan should include appropriate 
        independent review.

Office of Inspector General Follow-up
    We have identified three areas for additional review:

        1. Individual Complaints. In order to carry out this review in 
        a timely manner, it was necessary to closely define our scope 
        and focus on the management of the programs and operations 
        related to fisheries enforcement. At the same time, 
        expectations rose that we would investigate individual cases, 
        brought to our attention or reported in the media, in which 
        fishermen believe they were treated unfairly or were subject to 
        overzealous enforcement. We could not accomplish both at the 
        same time. Therefore, our initial focus is on the management 
        issues we identified. As noted below, we will follow up and 
        examine individual cases about which we received complaints and 
        will determine whether additional action by our office or NOAA 
        is necessary or recommended. Based on our review to date, 
        allegations of abusive treatment are not widespread; however, I 
        feel that it is important that we do all we can to get to the 
        bottom of these concerns and the facts surrounding these cases.

        2. NOAA's Retention of Civil Penalties and its Asset Forfeiture 
        Fund. Fishermen and other industry sources expressed concern to 
        us that NOAA's fines are excessive, constituting a form of 
        bounty, because the agency is able to retain the proceeds from 
        its enforcement cases. This is not an uncommon charge against 
        law enforcement agencies granted authority to seize assets. The 
        most effective way to counter such charges is for the agency to 
        demonstrate in a transparent way how the proceeds of its 
        enforcement actions are used. NOAA has the statutory authority 
        to retain proceeds from the civil penalties it imposes and 
        collects, and pursuant to asset forfeitures (such as the sale 
        of seized fish, vessels, etc.) for Magnuson-Stevens Act 
        violations to pay for expenses directly related to 
        investigations and civil or criminal enforcement 
        proceedings.\5\
---------------------------------------------------------------------------
    \5\ 16 U.S.C.  1861(e)(1)(C).

        We determined that NOAA has an asset forfeiture fund comprising 
        such proceeds, the balance of which the agency reported as $8.4 
        million as of December 31, 2009. However, the account under 
        which these proceeds are maintained has weak internal controls, 
        and we could not readily determine how NOAA has utilized these 
        funds. This is because while the fund's balance is included in 
        the Department's overall financial statements, internal 
        controls over the fund are not tested as part of the 
        Department's annual financial statement audit, due to the 
        relatively small size of the fund; neither are they tested as 
        part of the annual Department-wide financial audit. As 
        mentioned, we are commissioning a forensic review of the fund, 
---------------------------------------------------------------------------
        and will issue our findings upon its completion.

        3. GCEL Progress. While GCEL has reported development and 
        planned implementation of a number of specific actions and 
        measures for programmatic enhancement that are responsive to 
        our findings and recommendations, we will carry out follow-up 
        reviews to assess their progress.

    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other members of the 
Subcommittee may have.

    Senator Snowe. Thank you, Mr. Zinser.
    You know, I find the report stunning, actually.
    And it really was enlightening, and revealing, and say 
extremely disappointing in terms of the magnitude of the 
problem within the Law Enforcement Division. And I just am 
deeply troubled by what has happened, and the impact on law 
enforcement--on the fishing community. I mean, I think it's 
staggering, to be honest with you.
    And I'm just surprised it didn't come to light sooner, in 
terms of the disproportionality of fines, and particularly in 
the Northeast. And it just is reflected in, obviously, the 
fines and in the weight of some of the decisions, but just in 
looking at the penalty and fine chart, obviously the Northeast 
had the highest amounts, but 2.5 times higher than the second-
highest region, and 5.5 times greater than the other four 
regions? I think that's illustrative of the weight of the 
impact of these decisions.
    Mr. Zinser, I thank you for your work. There's no question 
that it has underscored the lack of consistency and 
accountability for fisheries enforcement, and I think it 
certainly is revealing with respect to the critical flaws and 
weaknesses that exist with the law enforcement programs.
    It's also telling from the standpoint that not much has 
changed from, oh, more than 10 years ago when we had a similar 
report, based on similar issues.
    So, the key now is that Dr. Lubchenco has concurred with 
your findings, has submitted a response, and has begun to 
address some of these issues. And what I would like to know, 
Mr. Zinser, first of all, do you think NOAA's response is 
appropriate with respect to your findings?
    Mr. Zinser. Thank you, Senator Snowe.
    Yes, I--my experience with Under Secretary Lubchenco and 
the staff that is at the leadership at NOAA now, I do think 
they are committed. I think the steps that they have outlined--
that the Under Secretary outlined here, this morning, are 
consistent with our recommendations and I think that the key is 
going to be putting people in charge who are committed to 
implementing the recommendations.
    Senator Snowe. In this respect, Dr. Lubchenco, how are you 
going to create the balance in each of the issues that Mr. 
Zinser raised here this morning? And I know, I saw your 
response to the new General Counsel, Ms. Shiffer? Is that 
correct?
    Dr. Lubchenco. That's correct.
    Senator Snowe. Is it going to encapsulate all of the issues 
that Mr. Zinser has raised, and also the fact that you have 90 
percent criminal lawyers within the Enforcement Division? Is 
that going to change, that allocation?
    Looking at the complaint examples within Mr. Zinser's 
report--I was horrified to see some of these examples. I can't 
imagine in any one of those scenarios, to bear the brunt, and 
the weight, and the full force of the Federal Government and a 
regulatory agency, and lawyer coming down on me, in some of 
these horrifying situations.
    It just is so disproportionate, and to think of these 
individuals who have no ability to come back and to fight it. 
When I see these complaint examples, I think, I hope this is 
going to change almost immediately and is going to garner 
higher attention within your Agency and within the Enforcement 
Division to make sure these types of examples do not repeat 
themselves. It's just simply horrible to think that they had to 
face these devastating and arbitrary consequences.
    That's the thing, it's the arbitrary nature of it, and 
thinking about $10,000 for each count and there were 18 counts? 
I mean, it's just--the whole thing.
    So, are we going to have assurances that this is going to 
change almost immediately, in this regard?
    Dr. Lubchenco. Yes, Senator. We have already implemented a 
number of immediate changes that address some of the 
recommendations in the IG report and have set in motion the 
kinds of analyses we need to do, for example, the composition 
of the workforce to address the additional items that were 
mentioned in his report. And I have charged both my General 
Counsel, Lois Shiffer, and my Assistant Administrator for NOAA 
Fisheries, Eric Schwaab, with being responsible for make sure 
that the changes are implemented.
    As you know, we have 60 days to respond to the IG Report, 
we're in the process of finalizing those recommendations and we 
are grateful for those recommendations and look forward to 
working with the Inspector General as well as with you and I 
fully expect everyone to hold our feet to the fire and to make 
sure that the changes that we are committing to, in fact, are 
done.
    Senator Snowe. I appreciate that. I also wanted to ask you 
about the issue of the climate of trust, and certainly, you 
know, that problem is a major issue in the Northeast. And, I 
know Mr. Zinser raises the issue, as well, in his report. What 
specific actions have been taken to resolve that question? I 
mean, it clearly is a dysfunctional relationship that exists. 
And, we need to reestablish the element of trust and confidence 
within the fishing community, with the regulators, with the 
scientists, and right now it's in a bad state of repair.
    So, what is it that you're doing specifically to mitigate 
those issues; I know we had this discussion early on in your 
tenure and to address the Inspector General's report?
    Dr. Lubchenco. Senator, the report provides us with some 
concrete ways to begin to change some of the fundamental 
problems that underlie the lack of trust. In addition to that, 
though, we will be developing plans to try to rebuild that 
trust with the fishing communities, with fishermen. And I think 
that's going to require a very concerted effort, it's not going 
to happen overnight, it's something that will take time. And, 
we are committed to making that happen.
    I think that will involve significant fraction of attention 
on the part of many of the folks within NOAA, in different 
regions. But we intend to address that head-on.
    Senator Snowe. Thank you.
    Madame Chair, thank you.
    Senator Cantwell [presiding]. Thank you.
    Dr. Lubchenco, there was a 1998 Inspector General report 
that was similar, you know, in addressing these NOAA fishery 
issues, and it found a greater need from NOAA--for leadership 
and changes in the ratio of these various positions. And so, 
why weren't these earlier recommendations--why weren't they 
implemented, why were they ignored?
    Dr. Lubchenco. Madame Chair, I can't answer that, because 
it was before my time. The first that I was aware of this 
earlier report was the IG's, from the current IG's report.
    Senator Cantwell. Could you go back and do and analysis for 
us and give us an answer on that, because I think you'll find 
that the same issues of why those recommendations weren't 
implemented will be the same reasons why these won't be 
followed up on, as well. So, that would be a--many times these 
things are inherent in large organizations who resist the 
change, or change isn't implemented, and so it's very important 
to find out what resistance occurred from the last report, 
because we don't want to do another report in a few years and 
find the same issues.
    So, these are cultural barriers within organizations that 
have to be broken down. And until you go back to find out why 
the last time they weren't adhered to, I think you're going to 
find you're going to have a tough time moving forward.
    Dr. Lubchenco. I appreciate that suggestion.
    Senator Cantwell. Thank you. And so we'll look forward to 
hearing your answer to that.
    Senator Cantwell. So, Mr. Zinser, what is the root of this, 
you know, perception? I mean, elaborate on your findings that 
existing law enforcement actions against fisheries are 
perceived as arbitrary and unfair. So, what do you think is at 
the root of that perception?
    Mr. Zinser. I think at the root of that perception is the 
fact that when a fisherman is violated or charged with a 
violation, the decision on what will be charged, how many 
counts will be charged, how much will be assessed for each 
charge is uncertain to the fisherman. The penalty schedule that 
currently exists for NOAA's civil penalty assessments gives the 
individual enforcement attorneys broad discretion whether to 
assess at the lower end of the schedule or at the upper end of 
the schedule, gives a broad discretion on whether they get 
charged one time or numerous times, up to 20 and 30 times.
    And, there are also cases where the fishermen will know 
that they have been found to have violated the regulations, but 
it could take months and sometimes years for them to actually 
get the notice from NOAA of what the assessment is going to be. 
I've heard stories of fisherman going out to their mailbox 
every day worried that today is the day that the assessment is 
going to come. That perception is throughout--at least New 
England--lesser so in other parts of the country.
    Senator Cantwell. And why do you think that is?
    Mr. Zinser. I think that the enforcement personnel in the 
regions have been left to implement regulatory enforcement 
without sufficient guidance from the national leadership.
    Dr. Lubchenco. And in other regions those issues have been 
resolved.
    Mr. Zinser. We did not find the same type of issues in 
other regions, somewhat in the Southeast, but our concern is 
that the types of, or the lack of management that exists--you 
could have the same issues cropping up in other parts of the 
country and I think that needs to be fixed.
    Senator Cantwell. Thank you.
    Senator Begich?
    Senator Begich. Thank you very much.
    We were one of the regions that had very little issue. But 
let me walk--I'm listening to this and I just remember my days 
as Mayor, one of the things--I mean, what it tells me, Dr. 
Lubchenco, that the system you have right now is totally 
dysfunctional even though it works to some degree, because it 
varies. If the enforcement isn't consistent in all regions, 
then it's not working. And this was something that we 
experienced, oddly enough, in Arizonian enforcement. People who 
violated zoning laws felt like they were criminals, and we 
changed the whole system.
    And I'm going to give you a recommendation here that I 
would like you to think about. To follow up on what the 
Chairwoman talked about, the culture of changing within an 
organization, knowing that you are an administrator that is 
there for 2 years or 6 years or 8 years max, that the system 
chews on you. And one of the things we used to do is we just 
eliminated the whole program and created a new one. And 
everyone had to reapply and you created the new culture.
    Because, if you don't do that dramatic change to something 
that now--I've heard now, it has gone on for 10 years, two 
reports--and I think I agree with the Chairwoman, that were we, 
you know, if I'm lucky and fortunate enough to be here 10 years 
from now, that I'll probably be seeing a report again, 
hopefully not effecting Alaska as it is effecting the 
Northeast.
    So, you know, you radically have to change it. A fee 
schedule, not having a fee schedule and leaving officers to 
determine the process of fee, maybe in consultation with an 
attorney, is asking for problems. So, I would highly 
recommend--and I'm not bashful about, if legislatively we 
should recommend it, and say, ``You know what, there has to be 
a new hearing officer process, a civil process, a fee 
schedule,'' and just do it. Because if you don't change the 
culture, that's going to be your problem, not--you know, you 
can develop a nice fee schedule and all the training you want, 
but if you do not change the culture.
    And we had to do this painfully, it is probably something 
I'll never forget, when I did it with zoning, I did it with our 
librarians, which, you know, I visualized a front page headline 
story still to this day. But after that, our library system is 
much stronger because of it. But we had to basically change the 
system and laid off everyone, and then rehired based on the 
needs that we really had. And it worked.
    So, are you willing to--I mean, you know, again, my State 
is not as affected as the Northeast. So, I mean, I looked at 
the report. You actually get more settlements that the NOVA 
amounts in our State, the only region which--I don't understand 
that, but that's another day, another question.
    But, are you willing to take that radical step to say, 
``Look, this system is broken, we're going to throw it out, 
we're going to put a new system in there, we're going to create 
a hearing officer, a schedule system, we're not going to make 
it,''--you know, there are violators that need to have strong 
criminal actions, but, you know, how do you--are you willing to 
take a kind of a radical step to make it, you know--I mean, the 
system will wear you out, I guarantee you. As former Mayor, 
they worked every day until I called a few of them and 
explained that I'm here for a period of time, so get used to 
it. And then we changed the system.
    Dr. Lubchenco. Senator, I appreciate those suggestions. I 
believe that the steps that we are taking now to completely 
review, top to bottom, all of the ways that our law enforcement 
system operates, what the composition of the personnel is, what 
their background is, how their reviews are done, what kind of 
discretion they have, who's in charge of the Asset Forfeiture 
Fund, all of that that was recommended by the IG report, we 
have committed to doing. And, I believe that those changes will 
make a very considerable difference.
    I think the Chair's suggestion of an analysis of why 
weren't earlier recommendations completely implemented, why are 
we where we are today, is a very useful additional analysis 
that we will fold into our consideration.
    It's not obvious to me that there is need for additional 
action, but I think what we are setting in motion in response 
to the IG's report will result in some very substantial 
challenges----
    Senator Begich. What's your timeline?
    Dr. Lubchenco.--changes.
    Senator Begich. What's your timeline?
    Dr. Lubchenco. We have--some of the things that I have 
announced we have already done. For example, the Asset 
Forfeiture Fund is now under direct control of the NOAA 
comptroller instead of being in--at a lower level. Many of the 
other things, for example, the analysis of the composition of 
workforce, what their backgrounds should be, how many should be 
special agents that were called in the IG's report, criminal 
investigators, what the right balance is relative to our needs, 
is part of the analysis that we are doing.
    Senator Begich. And your timeline for that?
    Dr. Lubchenco. It's not clear now how long all of that will 
take. I have asked the General Counsel and the Director of NOAA 
Fisheries who are responsible for this, that in our report to 
the IG, we will lay out what we will do and how long it will 
take. But I can't tell you right now how long each of those 
steps will take, because we're in the process of preparing that 
analysis.
    Our response to the IG is due--60 days is up--is it March 
12?
    Mr. Zinser. March 21.
    Dr. Lubchenco. March 21. So our report to the IG is March 
21. So we will have some of those answers in that timetable, at 
that point.
    Senator Begich. Let me just say, and I'll end on this, and 
that is, again, as former Mayor, we had lots of internal audit 
reports and the responses were great because we had to respond 
to them. It's the action date that's critical, and I'm just 
going to give you my two bits. You are now almost 2 years into 
the current Administration, people are counting the days, I can 
guarantee you, people have been there a long time in the 
system, thinking that 2 years from now maybe it might change or 
maybe 6 years. The clock is ticking, and I would not hesitate 
to be radical about your decisions and be forceful on a 
timeline. That's all I would recommend, from my own experience, 
how the system can chew on you and wait you out. And this 
sounds like a very important piece of the puzzle.
    Senator Cantwell. Thank you.
    Senator Snowe, do you have further questions?
    Senator Snowe. Thank you.
    I just want to follow up and I appreciate what the Senator 
from Alaska has said, because I couldn't agree more. I think 
that there--there has to be a level of urgency, very 
aggressive, assertive leadership, and a timetable for which to 
accomplish it. And in the meantime, I would hope that there 
would be the highest level review on any penalties that are 
going to be imposed here on out, and what methods are being 
used, and how and why, and that garners your attention at the 
highest levels here until this is squared away.
    And I appreciate what the Chair has asked for, you know, is 
to have that timetable and the analysis as well, as to why the 
1998 report was not implemented. Now, the ratio back then was 
recommended, as the Chair said, 50/50. And now we have, like, 
as we said, 90 percent, which is 149 out of 164 offices are 
criminal investigators. So, that's the ratio of criminal 
investigators to civil. And again, according to my staff, that 
the rational for this odd ratio, is that criminal investigators 
are classified differently under a Federal benefits program 
than uniformed civil investigators, and that other agencies 
have eliminated the financial incentive by leveling the playing 
field for benefits and pay among inspectors and agents. Is that 
something that's come up--because--is that something that could 
help in this instance?
    Mr. Zinser. Yes, Senator, I think that--what we saw was a 
workforce report that was done, and one of the issues that was 
significant in there were the benefits that accrued to either a 
criminal investigator or non-criminal inspectors. And instead 
of deciding to provide those benefits or get whatever law 
change that they needed to get those inspectors the same 
benefits, the idea was to move the inspectors into the criminal 
investigative workforce.
    Senator Snowe. Oh boy, it created, certainly, a tremendous 
effect.
    I would hope, Dr. Lubchenco, that everybody in the legal 
enforcement, the Law Enforcement Division has the opportunity 
to read and has read this report, and particularly the 
complaint examples, because they are deeply disturbing.
    And--but Mr. Zinser said, you know, imagine people's hearts 
palpitating every day about what's in their post office box, 
and isn't that a horror? I mean, it just really is. And, I just 
don't think people understand the effects that they create on 
the well-being of people by, you know, fully imposing the brunt 
of the Federal Government, and the weight of these 
enforcements. The broad discretion that was exercised in 
imposing these penalties, which is also breathtaking, and how 
they ever had that broad discretion to, you know, to impose 
those types of penalties in the instances that we examined 
here, and the threats that were issued to individuals. I mean, 
that has to cease.
    And so, I hope that everybody is required to read this 
report, to read those complaint examples, specifically. And 
that we get a report back, because we need to be informed of 
how this is happening. We have a responsibility now to 
radically change this and to eradicate this mean by which 
they've been enforcing Federal regulations, so this never 
repeats itself. And the sooner the better.
    Dr. Lubchenco. We will keep you informed of our progress.
    Senator Snowe. Thank you.
    Senator Cantwell. Thank you. I want to thank my colleagues 
for attending the hearing.
    And Dr. Lubchenco and Mr. Zinser, thank you very much for 
being here.
    I guess one could say the good news is we didn't spend a 
whole hearing talking about the NPOESS satellite system, but on 
the other hand, I think all politics are local, and you can see 
that the economic impact that NOAA has on communities around 
our country are real. And so, we are going to continue to focus 
on these issues and NOAA's budget concerns of making sure that 
the agency has the resources it needs. So, we'll continue this 
discussion and look forward to the information we've requested 
at the hearing.
    So, thank you very much for being here. The hearing is 
adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]


                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Jane Lubchenco

    Question 1. In 2009, the National Weather Service (NWS) initiated 
the ``New York Aviation Demonstration'' project to reduce aviation 
delays due to weather. How successful has the demonstration project 
been in reducing weather related aviation delays?
    Answer. The demonstration project was very successful. First, a 50 
percent reduction in air traffic delays was observed during the 
demonstration period. However, the results are likely due to multiple 
factors in addition to improved weather forecasts, including Air 
Traffic Control efficiencies and overall reduced traffic. Second, the 
demonstration's stated purpose was to show improvement in weather 
forecasting with focused effort and additional resources. The National 
Weather Service witnessed a 10 percent improvement in the accuracy of 
aviation ceiling and wind speed forecasts in the New York City area 
during the demonstration period. Third, the Federal Aviation 
Administration's air space managers were better informed of weather and 
incorporated that information into their air space management 
decisions.

    Question 2. Is the NWS going to make the demonstration project 
permanent and expand it to other cities in 2011?
    Answer. Recognizing the New York Aviation Demonstration's 
successes, the National Weather Service and the Federal Aviation 
Administration will continue current efforts to measure the impact of 
weather forecasts on air traffic management decisions and, by 
extension, on aviation delays. The National Weather Service is 
currently planning similar demonstrations at two additional high-impact 
Air Route Traffic Control Centers covering the major air traffic hubs 
of Atlanta, Georgia and Chicago, Illinois.

    Question 3. Will the NWS be conducting a cost benefit analysis of 
the savings from the reduction in weather related delays versus the 
cost of additional forecasters?
    Answer. The National Weather Service will work with the Federal 
Aviation Administration to determine benefits and other measures of 
success.

    Question 4. Several years ago, the Southern Region Director of the 
NWS proposed implementation of an ``Emergency Response Meteorologist'' 
program at each forecast office to assist local emergency management 
personnel. The proposal was modeled on the NWS's Incident Meteorologist 
program which dispatches meteorologists into the field with wild land 
firefighter crews. What is the status of that proposal, as well as 
other initiatives the NWS is considering in the area of decision 
support to local emergency managers?
    Answer. Decision support to local emergency managers and our 
Federal partners with similar life-saving missions remains a critical 
focus of NOAA's National Weather Service (NWS), at all levels of the 
organization. NWS is currently developing a comprehensive decision 
support services plan. The ``Emergency Response Meteorologist'' 
proposal is being considered for inclusion into the plan. Meanwhile, 
NWS has dedicated staff supporting local and state emergency operations 
centers during critical weather related events. This spring's flooding 
of the Red River of the North is a prime example of NWS on-site support 
to Federal, state, and local government officials responsible for life 
and property decisions. In addition to wildfires, Incident 
Meteorologists respond to events such as flooding, chemical spills, as 
well as major public venues such as national political conventions and 
major sporting events (Superbowl, etc.). To enhance emergency support 
readiness and more fully integrate operations into emergency responses, 
Incident Meteorologists are taking Department of Homeland Security 
required first responder and disaster workers training.

    Question 5. Does the NWS have any plans to develop any additional 
forecast products that would support the Nation's transition to 
alternative energy, such as: high resolution wind forecasts for wind 
farms nested within; high resolution wave forecasts for ocean energy; 
forecasts of meteorological and astronomical tides; river flow 
forecasts for bridges and other structures that contain turbines; or a 
``solar index'' that combines sun angle, opaqueness of clouds and 
surface visibility?
    Answer. NOAA's National Weather Service (NWS) currently provides 
baseline observations and forecasts that enable many components of the 
renewable energy industry to operate and expand today. For example, the 
wind energy industry relies on NWS model forecasts of weather 
conditions in the lower atmosphere to be used as input into power 
generation algorithms for the operation of wind farms, and 
hydroelectric utilities rely on NWS river stage and flow forecasts 
which provide guidance about water resource management.
    NWS is working with other NOAA line offices on the research phase 
of NOAA's renewable energy portfolio. In addition, NOAA is working with 
other Federal agencies and the renewable energy industry to better 
understand industry requirements and to incorporate these needs into 
future operational capabilities. For example, the Department of Energy 
(DOE) and NOAA are partnering to perform a field demonstration in FY 
2011 to improve short range wind forecasts at the turbine level. A 
consortium consisting of NOAA and DOE laboratories and partners in 
industry will quantify forecast improvements and impacts to the 
efficiency of wind generation within the test domain.
    NOAA is planning higher resolution forecast models which provide 
fundamental parameters (such as onshore and offshore wind forecasts) at 
levels and timescales which can be better used by energy industry 
decisionmakers nationwide. These models will contain better 
characterization of moisture and clouds which can be used by solar 
interests. NWS is improving river forecast models to provide better 
water inflow forecasts which can be used for hydroelectric generation. 
NWS and NOAA's National Ocean Service are exploring the applicability 
of existing oceanic models to foster the emergence of hydrokinetic and 
ocean wave forecasts.
    The NWS will use the existing strong partnerships with America's 
Weather Enterprise to take the improved NWS forecasts and create 
customized products for specific renewable energy industry needs.

    Question 6. How can wind farms impact NWS radar and weather 
forecasting? What actions is NOAA taking to minimize the impacts of 
wind farms on radar and weather forecasting?
    Answer. Wind farms can have a detrimental effect on the NEXRAD 
radar network, depending on how close the wind farms are to the radar, 
and on the orientation of the wind farm. Some radars already have a 
``return'' from wind farms, causing new users who see the ``returns'' 
to contact NWS about the severe weather on the radar, when there is no 
weather at all, only radar returns from the wind farms. Users do become 
used to the clutter, but the radar clutter from wind farms may also 
make it difficult to detect severe weather that is occurring over or 
near a wind farm. The National Weather Service (NWS) is working with 
the Department of Defense and the Federal Aviation Administration, with 
the wind energy industry, as well as with Members of Congress and their 
staff, to ensure potential impacts of wind farms are known and 
addressed. NWS is also working on clutter mitigation efforts to 
alleviate the impact of existing wind farms on the NEXRAD radar 
network.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. Jane Lubchenco

    Question 1. Last year, NOAA was asked to provide the Committee its 
100 percent requirement--the funding that the agency requires to fully 
meet its mandates and missions. Without this information, it is very 
difficult for the Committee to properly provide oversight. Is the FY 
2011 NOAA Budget request sufficient to meet this 100 percent 
requirement for the agency?
    Answer. The Administration has proposed an FY 2011 budget for NOAA 
that is a 17 percent increase over the FY 2010 Enacted. This budget 
will ensure that we can meet our highest priority requirements and the 
performance targets we have set for FY 2011. It reflects our efforts to 
focus on our highest priorities and program needs, identify 
efficiencies, and ensure accountability.

    Question 2. What funding level is necessary to meet the 100 percent 
requirement and how did you arrive at this number?
    Answer. Many dynamics affect the question of requirements and 
available resources, including economic changes, socio-economic 
benefits, emerging technologies, near term needs versus long term 
vision, congressional earmarks, aging equipment, and fiscal 
constraints. Within the Administration, we must develop budgets in the 
context of competing priorities and needs across the entire Federal 
Government. The President's Budget request represents our highest 
priorities.

    Question 3. Can NOAA tell the Committee the total funding needed 
for authorized programs?
    Answer. NOAA does not have an estimate of total funding needed for 
authorized programs.

    Question 4. Does the FY 2011 budget request take into account 
funding that is needed to address top policy priorities including 
establishing a National Climate Service, fully funding the satellite 
programs, and implementing the coastal and marine spatial planning and 
national ocean policy?
    Answer. Yes, the FY 2011 budget request does take into account 
funding that is needed to address top policy priorities. Some of the 
highlights include:

  <bullet> NOAA Climate Service: On February 8, 2010, the Secretary 
        announced his intention to create a NOAA Climate Service to 
        enable NOAA to better address the growing need for climate 
        services. The FY 2011 budget does not propose a new NOAA 
        Climate Service; however, the FY 2011 request does includes 
        $435 million in support of the U.S. Global Change Research 
        Program, with $77 million in new increases for core climate 
        services and observations needed to enable the Nation to more 
        effectively address the impacts of climate change. Any 
        reorganization of the Agency would be presented to the Congress 
        in a reorganization proposal per the requirements of the 
        Appropriations Act.

  <bullet> Satellite Programs: With the FY 2011 budget request, NOAA 
        will invest in multiple satellite acquisition programs for the 
        continuity of critical weather, climate, and oceanographic 
        data. The National Environmental Satellite, Data, and 
        Information Service (NESDIS) requests $2,209.0 million in FY 
        2011, reflecting a net increase of $810.5 million over the FY 
        2010 Enacted. This budget request supports NOAA's management of 
        all aspects of satellite acquisition programs and supports data 
        processing for advancing climate change.

  <bullet> Coastal and Marine Spatial Planning: NOAA's FY 2011 request 
        supports the goals of Executive Order 13547 which adopts the 
        Final Recommendations of the Interagency Ocean Policy Task 
        Force to manage and effectively balance ecosystems and 
        resources. In FY 2011, NOAA requests an increase of $6.8 
        million to support coastal and marine spatial planning, which 
        will enhance existing efforts for sustainable fisheries, safe 
        navigation, improved water quality, living marine resources and 
        critical habitat protection. In addition, a $2 million increase 
        is requested to support the Gulf of Mexico Coastal and Marine 
        Elevation Pilot that strives to understand coastal community 
        resilience, wetland loss and erosion, and the potential for 
        degradation of key ecosystem services through coastal and 
        marine spatial planning. These requests are a good start for 
        this new initiative. The FY 2011 request also includes $20 
        million to establish a competitive grants program to advance 
        effective ocean management through regional ocean governance. 
        This grant program will support priority actions identified in 
        plans of the existing regional ocean partnerships (including 
        Regional Coastal and Marine Spatial Planning), as well as 
        supporting the development and implementation of ocean 
        management plans in other regions, and addressing regional 
        activities in other parts of the country.

    Question 5. How much is NOAA requesting for activities authorized 
by the Tsunami Warning and Education Act and how will NOAA spend this 
funding?
    Answer. NOAA's FY 2011 Budget Request includes a total of $23.3 
million for strengthening the U.S. Tsunami Warning Program. In 
addition, NOAA will supplement this $23.3 million in FY 2011 with 
approximately $12.7 million in reimbursable funding provided by the 
National Telecommunications and Information Administration (NTIA), from 
the analog spectrum auction proceeds as specified by the Deficit 
Reduction Act of 2005. Under this Act, NOAA will be provided a total of 
$49.7 million in auction proceeds to be obligated between FY 2009-2012 
at an average rate of $12.4 million/year to strengthen the Nation's 
tsunami program.
    NOAA's request of $23.3 million in FY 2011 includes the following:

  <bullet> $3.5 million for operations and maintenance of the two 
        dedicated 24x7 Tsunami Warning Centers (the Pacific Tsunami 
        Warning Center and the West Coast/Alaska Tsunami Warning 
        Center);

  <bullet> $12.0 million for operations and maintenance of the Nation's 
        Deep-ocean Assessment and Reporting of Tsunami (DART) buoy 
        station network (39 stations);

  <bullet> $0.75 million for the operations and maintenance of the NOAA 
        sea-level stations, for stations that have been installed or 
        upgraded and provide high-frequency data for tsunami warnings;

  <bullet> $4.0 million to support expansion of the National Tsunami 
        Hazard Mitigation Program to all 29 coastal ocean U.S. states, 
        commonwealths and territories;

  <bullet> $0.75 million in support of NOAA's TsunamiReady communities;

  <bullet> $2.0 million for Tsunami Research and Development; and

  <bullet> $0.3 million to support NOAA's quality controlled tsunami 
        data archive.

    NOAA plans to spend the $12.7 million in funding provided from the 
spectrum auction proceeds as follows:

  <bullet> $3.5 million will improve NOAA's Tsunami Warning Center 
        Operations including IT Systems;

  <bullet> $1.5 million will expand tsunami research and development;

  <bullet> $4.5 million will accelerate the transition of forecast 
        models to operations;

  <bullet> $2.6 million will expand and/or accelerate tsunami hazard 
        mitigation programs; and

  <bullet> $0.6 million go toward NWS Administrative Overhead 
        Assessment (5 percent).

    NOAA's planned obligations for the Tsunami Warning Program are 
compliant with the amounts authorized and mandated by the Tsunami 
Warning and Education Act (TWEA).

    Question 6. What are the most difficult challenges that NOAA faces 
detecting, forecasting, and modeling tsunamis?
    Answer. The most difficult challenges NOAA faces in detecting, 
forecasting and modeling tsunami events are:

  <bullet> Operation and maintenance of the Nation's 39-station Deep-
        ocean Assessment and Reporting of Tsunami (DART) Network: DART 
        station outages have occurred due to the extreme environmental 
        conditions in some locations resulting in failed moorings. 
        Fortunately, to date, these outages have not resulted in 
        significant impacts on the ability to forecast and model 
        tsunami events. Outages, however, have the potential to limit 
        the ability to confirm tsunami propagation or to cancel 
        warnings and advisories.

  <bullet> Understanding the impacts of tsunamis at the coast: One of 
        the major challenges is to better model tsunami impacts at the 
        coast, including implementing a methodology for measuring 
        tsunami-induced currents in harbors and at the coast, improving 
        hydrodynamic modeling, and developing credible fragility models 
        of the interaction of tsunamis with the built and natural 
        environment.

  <bullet> Incorporation of international data into existing tsunami 
        modeling capability: Improved capability to model tsunamis 
        based on international data would enhance our tsunami forecast 
        capability.

  <bullet> Improved characterization of tsunami sources: The low 
        density of the seismic network in some areas delays the 
        identification and estimate of earthquakes, which may result in 
        delays in warning issuance. An additional challenge is the 
        detection and warning for sub-aerial and submarine landslides 
        that generate tsunamis.

    Question 7. How is NOAA measuring its success in improving tsunami 
research, hazard mitigation, and education programs?
    Answer. NOAA measures its success in improving tsunami research, 
hazard mitigation, and education programs as follows:

  <bullet> NOAA's Tsunami Program has established and monitors a 
        significant number of performance measures including:

    <ctr-circle> Reduce elapsed time from earthquake to Tsunami Message 
            Product issuance for distant events from 22 minutes to 16 
            minutes by 2013;

    <ctr-circle> Reduce elapsed time from earthquake to Tsunami Message 
            Product issuance for regional events from 10 minutes to 5 
            minutes by 2013;

    <ctr-circle> Reduce time to cancel a Tsunami Warning or Watch from 
            3 hours to 2 hours by 2013;

    <ctr-circle> Increase the number of TsunamiReady communities from 
            74 to 120 by 2013; and

    <ctr-circle> Increase the number of Inundation Forecast Models 
            developed for specific high-risk areas from 26 to 75 by 
            2013.

  <bullet> The number of U.S. state, territorial, and commonwealth 
        partners now participating in the National Tsunami Hazard 
        Mitigation Program (NTHMP) increased from 5 (prior to TWEA) to 
        29 (current).

  <bullet> As referenced in the NTHMP Strategic Plan, the NTHMP manages 
        several performance measures that are tracked and reported 
        annually. For example:

    <ctr-circle> Establish a benchmark procedure for tsunami inundation 
            models in 2010;

    <ctr-circle> Develop educational guidelines in 2010;

    <ctr-circle> Establish guidelines for evacuation maps in 2010;

    <ctr-circle> Integrate tsunami information into K-12 education 
            through at least one state pilot project by 2011;

    <ctr-circle> Conduct annual tsunami table-top exercise to ensure 
            response plans to tsunamis are integrated and effective in 
            2010;

    <ctr-circle> Develop decision support tools for emergency 
            responders to better visualize and plan for potential 
            impacts by 2013;

    <ctr-circle> Develop and distribute tsunami education products for 
            the tourist community (e.g., hotels, cruises, and vacation 
            rental homes) by 2011; and

    <ctr-circle> Establish a national tsunami awareness week by 2012.

    NOAA's Tsunami Program is also currently undergoing two external 
reviews as called for by TWEA, one by the Government Accountability 
Office and another by the National Academy of Science, which will 
evaluate the Program's success and provide recommendations for 
improvement.

    Question 8. At the time of the most recent tsunami, which was 
generated by the 8.8 earthquake in Chile, 7 DART stations were out of 
operation. How did that impact NOAA's detection and forecasting of the 
tsunami resulting from the earthquake in Chile?
    Answer. The lack of DART data from the seven (7) inoperative DARTs 
(see red dots in the map below) in the Pacific Ocean did not impact 
NOAA's ability to detect and forecast the tsunami resulting from the 
recent 8.8 magnitude Chilean earthquake (105 km, or 65 miles NNE of 
Concepcion, Chile). As shown in the map below (green dots), numerous 
stations that were important for the detection and assessment of the 
tsunami were operational for this event. In addition, other NOAA sea-
level stations provided critical data that refined the accuracy and 
resolution of NOAA tsunami forecast models. A major benefit was that 
the combination of data and forecasts eliminated unnecessary 
evacuations along the U.S. west coast.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 9. The Administration's budget proposes a major 
restructuring of NPOESS. Why has the Administration recommended 
splitting up the program and starting over with a new satellite system?
    Answer. The President's FY2011 budget contains a major 
restructuring of the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) in order to put the U.S. on a more 
sustainable pathway to meet its needs for space-based operational 
environmental data. The U.S. retains as a national priority the 
requirement for a satellite system that can meet both civil and 
military weather-forecasting, storm-tracking, and climate-monitoring 
requirements.
    To be clear, the administration is not canceling the NPOESS program 
or starting over with a new system. We are merely restructuring the 
existing procurements for the Nation's system of polar-orbiting 
environmental satellites. We will be taking maximum advantage of the 
investments of the NPOESS program made to date, by maintaining almost 
all of the hardware that has been developed for use on future 
platforms.
    Prior to the February 1, 2010 announcement, the NPOESS program had 
been behind schedule, over budget, and underperforming. Independent 
reports and an Administration task force had concluded that the NPOESS 
program could not be successfully executed with the existing management 
and budget structure. These challenges had originated in large part 
because of a combination of management deficiencies that resulted from 
conflicting perspectives and priorities among the three agencies which 
managed the program, and technical challenges the program had 
encountered in instrument and spacecraft bus development; serious 
lapses in capabilities loomed as a result.
    Additionally, there were concerns about continued cost growth and 
schedule delay. In 2002, the NPOESS program was estimated to cost 
approximately $6.5 billion (for development and operations through 
FY2018) and consisted of an initial NASA satellite to test the new 
sensors (the NPOESS Preparatory Project--NPP--to be launched in early 
2006) and six NPOESS platforms in three orbits. The first NPOESS 
satellite (C-1) was to be launched in early 2009. The program 
encountered numerous technical and management challenges, which led to 
restructuring of the NPOESS program in 2006 due to cost over-runs that 
triggered Congressionally-mandated Nunn-McCurdy recertification. The 
recertified NPOESS program reduced the scale of the program from six 
satellites in three orbits (early morning, mid-morning and afternoon 
orbits) to four satellites in two orbits (early morning and afternoon 
orbits). The U.S. would rely on the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT) MetOp satellites 
for operational weather observations in the mid-morning orbit. The NPP 
launch was delayed to 2011, and the launch of the first NPOESS platform 
(C-1) was expected to be in late 2014. The launch schedule reflects 
delays of 5 years from the originally planed dates. Due to these 
delays, the new life-cycle cost estimate through FY 2024 was 
approximately $12 billion for this reduced capability. The last 
official baseline life-cycle cost estimate for the NPOESS program in 
2009 was approximately $13.9 billion, with the Integrated Program 
Office forecasting additional costs of $2 billion.
Path Forward
    As a result of a review led by an Executive Office of the President 
(EOP) Task Force, which considered a number of options, including those 
suggested by an Independent Review Team (IRT), Congressional 
Committees, and the Government Accountability Office, the 
Administration concluded that the program would not be able to succeed 
as structured at that time. On February 1, 2010 the White House 
announced that NOAA and the Air Force would no longer continue to 
jointly procure the polar-orbiting satellite system called NPOESS. NOAA 
believes that this decision is the best one of all the options reviewed 
that will provide the required critical operational weather and climate 
observations that are needed.

  <bullet> The three agencies (DOD, NOAA and NASA) have and will 
        continue to partner to ensure a successful way forward for the 
        respective programs, while utilizing international partnerships 
        to sustain and enhance weather and climate observation from 
        space.

  <bullet> The major challenge of NPOESS was jointly executing the 
        program between three agencies of different size with divergent 
        objectives and different acquisition procedures.

    The new system will resolve this challenge by splitting the 
        procurements. NOAA and NASA will take primary responsibility 
        for the afternoon orbit, though the Joint Polar Satellite 
        System (JPSS) program, and DOD will take primary responsibility 
        for the early morning orbit through its Defense Weather 
        Satellite System (DWSS). The agencies will continue to partner 
        in those areas that have been successful in the past, such as a 
        shared ground system. By restructuring the NPOESS program, the 
        NPOESS tri-agency structure that has made management and 
        oversight difficult, contributing to the poor performance of 
        the program, was eliminated. The June 28, 2010 National Space 
        Policy documented that change.

  <bullet> NOAA and the Air Force have already begun to move into a 
        transition period during which the current joint procurement 
        will end. A detailed plan for this transition period will be 
        available in fall 2010. The agencies will continue a successful 
        relationship that that they have developed for their polar and 
        geostationary satellite programs to date.

  <bullet> These changes will better ensure continuity of crucial civil 
        climate and weather data in the future. A main focus remains 
        continuity of polar-orbiting satellite data. Decisions on 
        future satellite programs will be made to ensure the best plan 
        for continuity of data.

    Question 10. Did the interagency review consider fixing the tri-
agency governance model and allow the execution of the NPOESS program 
to proceed on its current path?
    Answer. The review of the NPOESS program, led by the Executive 
Office of the President, evaluated many options, including modifying 
the tri-agency governance model. However, it was quickly recognized 
that the impediments to the NPOESS program's success were far more 
complex than the management structure issue alone. During the EOP-lead 
review, the Administration acknowledged that both the military and 
civil agencies had demonstrated competence in acquiring, launching, and 
operating satellites to meet their specific mission requirements and 
the most prudent resolution would be to place the agencies in charge of 
developing their satellites and sharing data from the respective orbits 
with each other. The Administration determined that February 1, 2010 
decision to restructure the NPOESS program was the most optimum means 
to meet the Nation's requirements for weather and climate data.

    Question 11. How will the NPOESS split and subsequent transitioning 
affect the expected cost and launch dates for the satellites?
    Answer. NOAA is developing transition plans that would launch the 
first Joint Polar Satellite System satellite (JPSS-1) into the 
afternoon orbit in 2014; this is approximately the same time the first 
NPOESS satellite (C-1) was scheduled for launch. The second JPSS 
satellite (JPSS-2) is scheduled for launch in 2018. NOAA estimates the 
life cycle cost of its portion of the restructure program, JPSS, is 
$11.9 billion. This amount includes the $2.9 billion NOAA has already 
spent on the NPOESS program.
    NOAA is unable to report on the DOD launch dates of the 
restructured NPOESS satellites destined for the morning orbit until DOD 
has completed its analysis of alternatives. It is not possible to 
provide a comparison of the life cycle cost of the original NPOESS 
program versus the restructured NPOESS program until DOD has completed 
its analysis and determined the cost of fulfilling its portion of the 
restructured NPOESS program. Both NOAA and DOD are finalizing their 
plans which will provide a comparison of the expected costs and launch 
dates for the JPSS and DWSS satellites, respectively.

    Question 12. What risks and challenges does NOAA face restructuring 
NPOESS, and how does NOAA plan to mitigate those risks and challenges, 
especially to ensure climate and weather data continuity at risk?
    Answer. NOAA acknowledges there are still risks associated with the 
development of the Joint Polar Satellite System (JPSS) program, 
including the risk of a gap in coverage as well as technological risks 
associated with instrument development. NOAA and NASA in collaboration 
with DOD are currently working through the details of restructuring the 
NPOESS contract and to transfer management control of the instrument 
and the ground systems contracts from Northrop Grumman to NASA 
management control. Challenges remain, but NOAA and NASA believe that 
the over 50-year successful NOAA-NASA partnership that acquired the 
NOAA Geostationary Operational Environmental Satellites (GOES) and the 
GOES-R Series programs, and the NOAA Polar-orbiting Operational 
Environmental Satellites (POES) programs will provide a solid 
foundation for developing the JPSS program. NOAA and NASA are 
developing the processes that will dictate how the two agencies will 
interact in the development of the JPSS program. NOAA and NASA are 
currently finalizing the JPSS program management office to ensure that 
the adequate NASA management and engineering expertise is available to 
address the known technical challenges that remain for instrument 
development, and that will need to be available to rapidly address 
technical challenges as soon as they are identified.
    NOAA's FY 2011 budget request of $1.1 billion for JPSS provides 
adequate resources and more adequate contingency funds than past 
budgets to address known risks and risks that may arise during 
development. With this funding, NOAA will have sufficient resources to 
fund, on a reimbursable basis, the National Aeronautics and Space 
Administration's Goddard Space Flight Center to provide the necessary 
engineering and management oversight to acquire JPSS within budget and 
on schedule. As the single agency responsible for overall management 
and development of the JPSS program, NOAA will have the opportunity to 
quickly address issues as they arise.

    Question 13. What are NOAA's plans for the additional $700 million 
requested for the JPSS program in Fiscal Year 2011?
    Answer. NOAA's FY 2011 budget request for the Joint Polar Satellite 
System (JPSS) of $1.1 billion will continue the procurement of 
spacecraft, instruments, launch services, and ground systems equipment 
necessary to maintain an uninterrupted flow of environmental data to 
users. In general, the $700 million increase is necessary because NOAA 
will be solely funding the satellite acquisition whereas in the past 
the costs of the acquisition were shared 50:50 with DOD. With the FY 
2011 funding, NOAA will:

  <bullet> Continue to support transition costs that will continue 
        transition to JPSS program from the NPOESS Program

  <bullet> Establish a NASA Program Management office with systems 
        engineering, science expertise, and mission assurance expertise

  <bullet> Continue to develop the suite of instruments originally 
        planned for the NPOESS mission for use in the afternoon orbit, 
        they are:

    --Visible/Infrared Imager/Radiometer Suite (VIIRS)

    --Cross-track Infrared Sounder (CrIS)

    --Advanced Technology Microwave Sounder (ATMS)

    --Ozone Mapping and Profiler Suite-Nadir (OMPS-Nadir)

  <bullet> Begin acquisition of the JPSS-1 spacecraft bus for the 
        afternoon orbit for 2014 launch readiness date

  <bullet> Finalize the acquisition plans and strategy for the JPSS-2 
        spacecraft bus for a launch readiness date of 2018

  <bullet> Continue to develop the ground system which will support the 
        ability to receive observations from the NPOESS Preparatory 
        Project (NPP), JPSS program and DoD Defense Weather Satellite 
        System program satellites

  <bullet> Plan integration of furnished sensors from international 
        partners to JPSS program

    <ctr-circle> Satellite-assisted Search and Rescue (SARSAT)

    <ctr-circle> Advanced Data Collection System (A-DCS)

  <bullet> Plan integration of sensors from the NOAA Climate Sensor 
        program that will fly on JPSS program instead of NPOESS 
        program:

    <ctr-circle> Total Solar and Spectral Irradiance Sensor (TSIS)

    <ctr-circle> The Clouds and the Earth s Radiant Energy System 
            (CERES)/Earth Radiation Budget Sensor (ERBS)

    <ctr-circle> OMPS--Limb

  <bullet> Continue discussions with the Japan Aerospace Exploration 
        Agency (JAXA) to collaborate in its Global Change Observation 
        Mission (GCOM) mission to meet the requirements that the 
        Microwave Imager Sounder (MIS) would have provided through the 
        use of the Advanced Microwave Scanning Radiometer (AMSR) 
        instrument planned for the GCOM mission.

    The budget request also provides sufficient contingency to address 
the risks that remain in the program.
    The National Aeronautics and Space Administration will provide the 
acquisition management, on a reimbursable basis to NOAA.
    Full funding of the JPSS budget is required to ensure that JPSS 
will be ready to support the NPOESS Preparatory Project's expected 
readiness for launch during FY 2011, as well as deliver VIIRS, CrIS, 
OMPS, and ATMS instruments in FY 2013 to support a 2014 launch 
readiness of JPSS-1, the first afternoon orbit satellite.

    Question 14. How would NOAA's budget help communities, ecosystems, 
and industries respond to ocean acidification?
    Answer. Ocean acidification is perhaps the greatest emerging threat 
to the health of our ocean ecosystems. We are only beginning to 
understand the mechanisms by which increasing ocean acidity impacts 
marine life. Increased efforts are needed to understand the physical 
and biological aspects of this phenomenon, as well as the impacts on 
communities and businesses that rely on the ocean resources that are 
likely to be impaired. The FY 2011 President's Budget requests $11.6 
million for NOAA research on ocean acidification, which includes an 
increase of $6.1 million over the FY 2010 request.
    Funding will be used to implement an integrated ocean acidification 
initiative with research and long-term monitoring of ocean 
acidification for assessing climate change impacts on living marine 
resources and the businesses and communities that depend on their 
sustainable use, pursuant to the Federal Ocean Acidification Research 
and Monitoring Act. With this funding, NOAA's FY 2011 efforts will be 
directed to:

  <bullet> Assess the effects of ocean acidification on commercial fish 
        species and the greater ecosystems on which they rely;

  <bullet> Develop and provide sensors to monitor ocean acidification 
        both for fixed platforms and for mobile use by researchers and 
        coastal managers in the field;

  <bullet> Determine and monitor the status and potential effects of 
        ocean acidification on coral reefs; and

  <bullet> Expand carbonate analytical capabilities at NOAA's science 
        centers in order to meet the growing demand for quality control 
        on samples being collected both in the field from U.S. waters 
        and from researchers studying the impacts of ocean 
        acidification on critical species through laboratory 
        experiments.

    The results of this research will help to inform future strategies 
to help communities, ecosystems, and industries respond to ocean 
acidification. The increase will complement, accelerate, and enhance 
current NOAA ocean acidification activities within the Office of 
Oceanic and Atmospheric Research, National Ocean Service, and National 
Marine Fisheries Service.

    Question 15. Would NOAA's proposed Climate Service provide a way 
for the Federal Government to help industries like Washington's 
shellfish farmers deal with the impacts of climate change and ocean 
acidification?
    Answer. As the Secretary announced on February 8, 2010, the intent 
in creating a NOAA Climate Service is to provide a sustained, reliable 
and authoritative source for climate data, information, and decision-
support services to help individuals, businesses, and communities make 
the best decisions possible. Given NOAA's ocean, coastal and marine 
stewardship authority, these stakeholders, partners, and programs--both 
within the agency and external--would be principal clients for a NOAA 
Climate Service.
    Climate information and predictions from a NOAA Climate Service 
would allow NOAA to better meet its ocean and coastal stewardship 
requirements and support the needs of ocean and coastal communities. 
Products and services provided by the NOAA Climate Service would 
include assessing and meeting regional climate prediction needs, 
identifying climate and health risks, providing reliable information 
about floods and droughts, supporting a variety of environmental 
forecasts, modeling and predicting sea level rise, and working with 
coastal communities and decisionmakers to factor climate change 
projections into adaptation strategies.
    Not all of this work; however, will occur within a NOAA Climate 
Service. Such is the case with NOAA's work on ocean acidification where 
the Office of Oceanic and Atmospheric Research, the National Ocean 
Service, and the National Marine Fisheries Service will continue to 
make significant contributions. Partnerships across all these parts of 
the agency, as well as with a variety of external partners, will be a 
key to success on such issues.

    Question 16. The Interagency Ocean Policy Task Force interim report 
outlines the benefits of marine spatial planning, but also highlights 
the substantial initial investments needed to establish plans. These 
plans should rely on sound science and public engagement. Yet there are 
significant scientific gaps in what we know about ocean ecosystems, and 
the FY 2011 budget request does not support growth in programs such as 
Sea Grant or Coastal Zone. How does the Administration implement marine 
spatial planning without increasing funding for programs that support 
the effort?
    Answer. Although Coastal and Marine Spatial Planning (CMSP) can be 
pursued in an adaptive management approach with the current state of 
knowledge about marine ecosystems and their uses, the Administration's 
CMSP Framework acknowledges the need to fill critical information gaps. 
NOAA's budget request for FY 2011 provides funding to a variety of NOAA 
programs to strengthen scientific capacity and decision-making for 
CMSP, including Sea Grant and the Office of Ocean and Coastal Resource 
Management. Those funds are critical to broaden CMSP efforts beyond 
existing site- or sector-specific planning projects that do not address 
the important goal of ecosystem-based regional approaches.

    Question 17. What are the budget implications for NOAA of 
implementing marine spatial planning on the national level?
    Answer. Coastal and Marine Spatial Planning (CMSP) is one of many 
critical efforts that NOAA is pursuing in our ocean, coastal and Great 
Lakes waters. CMSP spans intergovernmental jurisdictions, ocean use 
sectors, and geographic scales. As such, it requires dedicated 
resources and focused effort. To this end, the FY 2011 President's 
Request for NOAA includes targeted funding to begin implementing the 
national CMSP Framework. These funds would strengthen NOAA's internal 
capacity to support and conduct CMSP, and would establish a competitive 
grant program that would include funding opportunities for regional 
ocean partnerships interested in advancing CMSP.

    Question 18. NOAA is requesting $20 million for regional ocean 
partnership grants. How would these funds be distributed between the 
existing regional partnerships and what do you see as the priorities 
for use of these funds?
    Answer. The requested $20 million for regional ocean partnership 
(ROP) grants is intended to support a full and open competition between 
regions; therefore, NOAA has not prescribed a specific funding amount 
or percentage for any given region.
    The specific criteria and priorities for the competitive regional 
ocean partnership grants were developed by NOAA through a collaborative 
consultation process with stakeholders and other interested parties. 
Following these discussions, NOAA issued a request for proposals 
through a Federal Funding Opportunity in late summer 2010 with more 
specific guidance for grant applications. This guidance includes 
priorities for NOAA funding across three main categories: (1) ROP 
Priority Action Implementation; (2) Regional Coastal and Marine Spatial 
Planning; and (3) ROP Development and Governance. The allocation of 
funds will be based on the funding criteria included in the Federal 
Funding Opportunity.

    Question 19. This year's budget request includes $65 million for 
the Pacific Coastal Salmon Recovery Fund, a reduction from the 2010 
enacted level of $80 million. How would the proposed reduction in 
funding for the Pacific Coastal Salmon Recovery Fund impact salmon 
recovery efforts?
    Answer. The Pacific Coastal Salmon Recovery Fund (PCSRF) program 
has been very important in restoring habitat for Pacific salmon and 
steelhead, and building capacity needed to help state, tribal, and 
local entities take the actions necessary for salmon recovery. The $65 
million President's request for the PCSRF will be used to provide 
competitive grant funding to states and tribes of the Pacific Coast 
region (California, Nevada, Oregon, Washington, Idaho, and Alaska) to 
implement habitat restoration and recovery projects focused on 
improving the status of salmonid populations and their habitats. The FY 
2011 President's request for PCSRF will keep the program on-track to 
achieve its long-term goal of overall sustainability of Pacific salmon.

    Question 20. Elsewhere in your budget, you propose a $15 million 
cut in funding for ``salmon management activities.'' Specifically what 
salmon management activities will suffer if this proposed cut is 
implemented?
    Answer. The $15 million decrease from Salmon Management Activities 
under the Fisheries Research and Management account consists of two 
activities. The first is a $10 million decrease in Congressionally-
directed funding for Columbia River Hatcheries. This funding currently 
supports hatchery reform projects evaluated by the Hatchery Scientific 
Reform Group, and these activities are also eligible for funding 
through the Pacific Coastal Salmon Recovery Fund. The second is a $5.4 
million planned decrease for the Pacific Salmon Treaty, which reflects 
the completion of the FY 2010 activities and is in accord with the May 
2008 bilateral Pacific salmon agreement negotiated between the United 
States and Canada.

    Question 21. A major component of the proposed budget for NMFS for 
FY 2011 is the development of a new National Catch Share Program. It is 
intended to promote the adoption of catch shares management methods in 
more fisheries, and to provide support to new and existing catch share-
managed fisheries--including funding for scientific data collection--to 
help assure their success. The NMFS budget request includes $54 million 
for the new program, however it is unclear how much of this funding 
will be used for education and promotion of new catch share programs in 
fisheries versus improved science and data collection for existing 
catch share-managed fisheries. Will any of the $54 million requested 
for the new National Catch Share Program be used for stock assessments 
and data collection in catch share fisheries and, if so, how much?
    Answer. While none of the $54 million will be used directly for 
conducting stock assessments, of the $36.6 million increase, $25.6 
million is requested for data collection, including observing and 
monitoring. In many cases, the resulting data will be incorporated into 
current and future stock assessments.

------------------------------------------------------------------------
  National Catch Share Implementation Data Collection Budget    FY 2011
                   Breakout (in thousands)                      Request
------------------------------------------------------------------------
Support for all Phases
------------------------------------------------------------------------
Information on Participation--Permits and Catch Establish          1,975
 Official Catch History database
------------------------------------------------------------------------
Establish electronic reporting systems for landings and at-        2,000
 sea discards
------------------------------------------------------------------------
Establish share (quota) accounting systems and national lien       2,250
 registry
------------------------------------------------------------------------
Implementation and Operation
------------------------------------------------------------------------
Catch Monitoring and Share Accounting
------------------------------------------------------------------------
Train, deploy and support monitors/observers (both shoreside       5,250
 and at-sea)
------------------------------------------------------------------------
Observing/Monitoring
------------------------------------------------------------------------
  Dockside monitors                                                1,750
------------------------------------------------------------------------
  At-sea observers/monitors                                       11,350
------------------------------------------------------------------------
  Electronic monitoring                                              100
------------------------------------------------------------------------
Monitor submission of share accounting data on landings and          900
 discards; perform quality control on data, monitor for
 missing reports
------------------------------------------------------------------------
    Total for Data Collection                                     25,575
------------------------------------------------------------------------

    The $54 million also includes $6 million for Cooperative Research 
to support the transition to sector management in the Northeast. The 
exact funding level that will be provided for data collection is yet to 
be determined through a competitive process, but funded activities will 
include the collection of high resolution, self-reported data on 
fishing effort, catch, and biological information through electronic 
logbooks to identify fishing grounds and seasons where bycatch of 
critical stocks (winter flounder and other flat fishes) is low. Funds 
will also support industry-based fishery independent fixed gear surveys 
that will assist in providing data to enhance stock monitoring, support 
agency science, and set annual catch limits.

    Question 22. Roughly $12.7 million of National Catch Share 
Program's $54 million is slated for the Pacific groundfish trawl IFQ 
program, and roughly $17 million of the funding is for monitoring catch 
share-managed fisheries across the country. Greater monitoring and 
accountability decreases management uncertainty, which reduces the 
amount of a precautionary buffer that NMFS and the Councils need to 
build into ACLs, keeping fishermen out on the water longer. How, 
specifically, will NOAA's National Catch Shares Program funding be 
applied to the Pacific region to support the transition to a catch 
share program in the Pacific groundfish trawl fishery?
    Answer. NOAA has requested $12.7 million for implementation and 
operation of the new Pacific Coast groundfish trawl rationalization 
program. Of this amount, $5 million would support the transition to the 
catch share program by fully funding at-sea monitoring/observing 
administration, training, and deployment. The rest of the requested 
funding ($7.7 million) would support dockside and electronic monitors, 
the training and deployment of monitors, and other implementation and 
operational activities. Implementation activities include hiring 
management and enforcement staff, establishing program specific share 
accounting data bases and reporting systems, identifying eligible 
participants, issuing catch shares, computing annual quota for each 
participant, and adjudicating administrative appeals of the eligibility 
and catch share decisions. Operational activities include program 
administration, enforcement, and science evaluation.

    Question 23. Will National Catch Shares Program funding be 
available to assist with the establishment of new catch share-managed 
fisheries, like the BSAI Pacific cod freezer-longline cooperative we 
are trying to develop for the Gulf of Alaska?
    Answer. Funds will be available to design, analyze and develop new 
catch share programs. A total of $2.0 million is proposed for the 
Regional Fishery Management Councils to analyze and develop new catch 
share programs, including the North Pacific Fishery Management 
Council's BSAI Pacific cod freezer-longline cooperative.

    Question 24. The increase for catch shares is quite large given the 
position of the Federal budget overall. Why is the Administration 
investing so heavily in this approach? How does this impact the science 
on which fisheries management decisions are based?
    Answer. In many cases around the country, management systems have 
not controlled overfishing, or have done so through closures, 
dramatically shortened seasons or other economically disruptive 
measures. These management options have undesirable impacts on fishing 
jobs, safety at sea, and the economic vitality of coastal communities.
    Catch share systems provide--in many cases--innovative solutions 
that keep fishermen fishing while fish resources recover. Within a 
framework of scientifically established annual catch limits, catch 
share systems give more direct control of fishing activity back to 
fishermen, allowing fishermen to plan their fishing seasons and be more 
selective about when and how they catch their allotment. Because they 
are allotted a share in a fishery, fishermen gain an economic incentive 
to catch their allocation at the least cost, when market values are 
most advantageous, and without going over their allotment because as a 
fish stock rebuilds, the holder's share increases in value.
    Of the 230 major fish stocks and stock complexes currently managed 
under a fishery management plan, 43 stocks or stock complexes are 
categorized as overfished and 37 are categorized as subject to 
overfishing. The four catch share programs that will be implemented 
with the increase requested in FY 2011 will support the complete 
implementation and operation of the Northeast Multispecies Groundfish 
Sectors, the Pacific Groundfish Trawl Rationalization, the Mid-Atlantic 
Golden Tilefish IFQ and the Gulf of Mexico Grouper & Tilefish. The 
$36.6 million requested increase for catch shares in FY 2011 is 
significant, but when designed well, catch shares can be an effective 
tool for preventing overfishing and reducing the negative biological 
and economic impacts of the race for fish, resulting in safer, more 
profitable and sustainable fisheries that benefit all Americans. Under 
catch shares, the quality and quantity of fishery data improves 
significantly via new catch accounting, monitoring and compliance 
systems, as well as improved tracking systems for social and economic 
outcomes. These tools will improve scientific estimates of overfishing 
levels and reduce scientific uncertainty in setting total allowable 
catches. As a result of having more precise scientific data, further 
increases in allowable biological catches are possible. For these 
reasons, NOAA encourages the consideration of more catch share 
programs. That said, catch share programs are not the best strategy for 
every fishery or sector and NOAA's policy does not in any way mandate 
the use of this management strategy.
    Catch share funding is not requested at the expense of other 
fisheries research and management programs. The FY 2011 budget also 
strongly supports NOAA's continued investment to implement the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act with a total request of $135.2 million. There was a $10 million 
increase for expanded stock assessments in FY 2010, for a total of $52 
million. This funding remains unchanged in FY 2011. The National Marine 
Fisheries Service Operations, Research, and Facilities budget request 
has increased from $724.2 million in Fiscal Year 2009 to $907.7 million 
in Fiscal Year 2011; this $184 million increase demonstrates that 
fisheries research and management has been, and continues to be, a 
clear priority for NOAA.
    Although there is no specific budget increase in the FY 2011 
request, NOAA's proposed budget will maintain our efforts to steadily 
increase the percentage of stocks with adequate assessments, from only 
52 percent in FY 2005 to 60 percent in FY 2011; this improvement 
associated with the FY 2008-2010 increases to Expand Annual Stock 
Assessments (EASA) funding. In FY 2011, NOAA's National Marine 
Fisheries Service will be able to bring 139 of the 230 priority stocks 
to an adequate level of assessment. The particular assessments that 
will be updated in FY 2011 are being determined through regional 
processes in consultation with the Fishery Management Councils and 
other partners. The assessments with the highest priority are those for 
stocks that have been experiencing overfishing or are on rebuilding 
plans. With EASA budget increases in FY 2010, NOAA is also initiating 
new fish abundance surveys that will produce data to support additional 
assessments over the next several years.

    Question 25. Many fishermen in Washington State having been working 
with the Pacific Fishery Management Council for years to develop the 
Pacific groundfish catch share program. Can you please reaffirm that 
NOAA is committed to getting that program implemented in 2011? What is 
the agency doing to make sure this implementation date is met?
    Answer. NOAA is working closely with the Pacific Fishery Management 
Council to ensure the remaining steps to implement the Pacific 
Groundfish Trawl Rationalization catch share program are completed 
thoroughly and on time. NOAA is providing $2.7 million in FY 2010 and 
additional expert staff resources to make certain the time line is met. 
The proposed regulations to initiate implementation of Amendment 20 to 
the Pacific Groundfish Fishery Management Plan, which specifies the 
management system that will be used to rationalize the trawl fishery, 
and Amendment 21, which involves determining the proportion of the 
available catch that will be allocated to the trawl fishery, were 
published in the Federal Register on June 10, 2010. If the Secretary 
approves the Council recommendations, NOAA will develop the appropriate 
rulemaking to implement the program by January 1, 2011.

    Question 26. NOAA's budget appears to ignore recreational fishery 
management at a time when the agency is dealing with a crisis in 
numerous recreational fisheries. It would eliminate $4.5 million in 
cooperative research that would benefit recreational fisheries 
information, such as fishery catch, index of stock abundance from 
surveys, and biological characteristics of stocks. These cuts come in 
the face of a complete closure of the red snapper fishery from North 
Carolina to Florida and closures of gag grouper and amberjack in the 
Gulf of Mexico. NOAA is charged with managing recreational fisheries, 
but there is a clear and urgent need to improve recreational catch data 
collection in order for the agency to be capable of doing so. What does 
NOAA intend to do about the lack of data it has on important 
recreational fisheries, such as South Atlantic red snapper?
    Answer. Improving the quality of recreational fishing data is a 
clear priority for NOAA. The President's Budget Request for FY 2011 
includes a total of $9 million for continued support of the Marine 
Recreational Information Program's (MRIP) ongoing development and 
implementation of improved recreational fishery surveys of catch and 
effort. This includes the development of a National Saltwater Angler 
Registry through implementation of an on-line Federal registration 
system and support for ongoing registration efforts by states whose 
anglers are exempted from the Federal registration. The MRIP has been 
conducting pilot studies to test the use of registry data in both mail 
and telephone surveys, and plans to implement registry-based surveys of 
fishing effort in all South Atlantic states in 2011. The MRIP is also 
conducting pilot studies in 2010 to test the utilization of electronic 
logbook reporting methods for charter boats and headboats, as well as 
improved sampling methods for shoreside surveys of angler catches. MRIP 
plans to start phased implementation of such survey improvements in 
2011 and this should help to enhance the quality and timeliness of 
marine recreational fisheries catch statistics for red snapper.
    During FY 2010, funds are being used to establish a critical 
fishery-independent data collection program for South Atlantic red 
snapper. This program fills the sizable data gap resulting from the 
loss of fishery-dependent data due to the closure of the directed South 
Atlantic red snapper fishery. The FY 2010 program involves the 
participation of the fishing industry and also establishes the 
groundwork for the effective and continued monitoring of the red 
snapper stock--these are requirements for determining how the red 
snapper stock is responding to the closure. Specific FY 2010 activities 
include:

  <bullet> Fishery-independent sampling in the South Atlantic that 
        improves the precision and coverage of sampling, by increasing 
        sample size and spatial coverage of reef fish habitats 
        (particularly for biological data), and for implementing 
        fishing gear testing and comparisons.

  <bullet> Implementation of video survey methodologies that address 
        sampling concerns (e.g., selectivity of current Marine 
        Resources Monitoring, Assessment, and Prediction program survey 
        gear).

  <bullet> Implementation of the goals of South Atlantic Fishery 
        Management Council and NOAA Fisheries' Fishery Independent 
        Monitoring Program Workshop--November 2009. These goals 
        include: enabling evaluation of response(s) of fish populations 
        to management actions; providing useful spatial and temporal 
        indices of abundance, length frequencies, and age distributions 
        for as many species as possible within the snapper-grouper 
        complex; providing data that can be utilized in ecosystem 
        approaches to fisheries management; and continuing to improve 
        gear configurations.

  <bullet> Secure fishing industry participation (including via 
        contracts) in the design and implementation of fishery-
        independent data collection activities in the South Atlantic, 
        by relying on their: vessels, knowledge of red snapper 
        locations and habitats, and expertise in fishing gear 
        methodologies.

    The FY 2011 Budget also funds NOAA's new high-tech vessel, Pisces, 
to map reef fish habitats in the South Atlantic and provide survey data 
on managed stocks..

    Question 27. Does NOAA have a plan for dealing with numerous 
recreational fisheries being closed because of a lack of stock 
assessments and a lack of accurate data on recreational catch in many 
important fisheries?
    Answer. NOAA does not anticipate numerous recreational fisheries 
being closed because of a lack of stock assessments and a lack of data 
on recreational catch. The decision to close a fishery is never made 
lightly. NOAA examines the best available data provided through a 
variety of sources. For the recreational fishery, catch statistics are 
provided by the current Federal and state recreational fishery survey 
programs in each region. If statistical estimates of landings produced 
by the regional surveys have exceeded, or are projected to reach or 
exceed specified harvest levels for a particular fish stock, a 
closure--specified through public notification in the Federal 
Register--is necessary to mitigate the magnitude of any recreational 
overage and its impact on the established mortality objective for that 
stock for the year.
    NOAA will support recreational fishing data collection and 
management through the $9 million request for the Marine Recreational 
Information Program (MRIP) included in the President's budget. NOAA 
recognizes that successful implementation and effective monitoring of 
annual catch limits and accountability measures will require 
significant improvements in the quality, timeliness, and accessibility 
of marine recreational fishery catch and effort statistics. MRIP is 
identifying recreational fishery survey enhancements that support the 
new requirements of the Magnuson-Stevens Fishery Conservation and 
Management Act of 2006, as well as the estimated implementation costs 
for those enhancements. While there are practical constraints that 
limit the range of possible improvements, we continue to look for ways 
in which we can improve our processes. This project will provide NOAA 
with a better understanding of what improvements are possible and what 
resources will be needed to implement them.

    Question 28. Do you believe that NOAA has the level of funding in 
its 2011 budget request necessary to meet its statutory requirements to 
manage recreational fisheries?
    Answer. NOAA recognizes that successful implementation and 
effective monitoring of annual catch limits and accountability measures 
will require significant improvements in the quality, timeliness, and 
accessibility of marine recreational fishery catch and effort 
statistics. The President's Budget Request for FY 2011 includes a total 
of $9 million for continued support of the Marine Recreational 
Information Program's (MRIP) ongoing development and implementation of 
improved recreational fishery surveys of catch and effort. The MRIP 
Operations Team is identifying recreational fishery survey enhancements 
that support the new requirements in the Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act of 2006, as well as the 
estimated implementation costs for those enhancements. While there are 
practical limits to the degree to which we can improve the timeliness 
of the collection, processing, and reporting of recreational fishery 
survey data and statistics, we continue to look for ways in which we 
can improve these processes.

    Question 29. How can NOAA improve its management of recreational 
fisheries and avoid such large fisheries closures of the type we've 
seen in the South Atlantic and the Gulf of Mexico in the future?
    Answer. NOAA recognizes that recreational saltwater fishing is 
vitally important to our coastal areas as both a source of recreation 
and significant income and employment for many communities. The agency 
will continue to actively work with the regional fishery management 
councils and our constituents to explore ways to better manage 
recreational catch quotas. The decision to close a fishery is never 
made lightly. NOAA examines the best available data provided through a 
variety of sources. For the recreational fishery, catch statistics are 
provided by the current Federal and state recreational fishery survey 
programs in each region. If statistical estimates of landings produced 
by the regional surveys have exceeded, or are projected to reach or 
exceed specified harvest levels for a particular fish stock, a 
closure--specified through public notification in the Federal 
Register--is necessary to mitigate the magnitude of any recreational 
overage and its impact on the established mortality objective for that 
stock for the year.
    In order to improve management of recreational fisheries, NOAA is 
implementing the Marine Recreational Information Program (MRIP) to 
ensure that the quality and timeliness of information delivered on 
marine recreational fishery catch and effort are sufficient to support 
appropriate management decisions. This past January, NOAA implemented 
the National Saltwater Angler Registry as a step toward generating 
better estimates of saltwater anglers' catch and effort. Better data 
allows for more informed decision-making, which in turn will help NOAA 
preserve and enhance our country's strong tradition of recreational 
saltwater fishing.
    Utilizing MRIP, NOAA is developing and testing improved survey 
designs and plans to start phased implementation of those enhancements 
in FY 2011. Additionally, through MRIP we are identifying recreational 
fishery survey enhancements that support the new requirements of the 
Magnuson-Stevens Fishery Conservation and Management Act of 2006, as 
well as the estimated implementation costs for those enhancements. 
While there are practical constraints that limit the range of possible 
improvements, we continue to look for ways in which our processes can 
be improved. This project will provide NOAA with a better understanding 
of what improvements are possible and what resources may be needed for 
their implementation.
    Finally, NOAA is managing the needs of the recreational fisheries 
as a priority as announced in September 2009 as part of the 
Recreational Fishing Engagement Initiative. Since then, on March 23, 
2010 the Assistant Administrator for the National Marine Fisheries 
Service, Eric Schwaab, announced the appointment of Russell Dunn as the 
NOAA Fisheries National Policy Advisor for Recreational Fisheries. Also 
announced was the appointment of 22 members of the recreational fishing 
community from around the Nation to a Recreational Fisheries Working 
Group to provide expertise on saltwater recreational fishing to NOAA's 
Marine Fisheries Advisory Committee. In addition, on April 16 and 17, 
NOAA held a National Recreational Fishing Summit developed in 
collaboration with the recreational fishing community. This was a 
stakeholder driven discussion to identify issues of concern and 
possible solutions together.

    Question 30. Dr. Lubchenco, I'm told NMFS is preparing to implement 
changes to the existing Northeast Skate Complex FMP, including a vast 
reduction of the daily trip limit from 10,000 lbs. to 1,900 lbs., based 
on stock assessment data from 2006. However, more recent stock survey 
data from 2008 may indicate that such a drastic reduction in fishing 
effort is unnecessary. Will this more recent scientific data be taken 
into account in setting catch limits for fishing year 2010?
    Answer. On June 16, 2010, NMFS published an Interim Final Rule to 
implement Amendment 3 to the Northeast Skate Complex Fishery Management 
Plan (FMP). This final rule was effective on July 16, 2010, and 
included new management measures to establish an annual catch limit and 
accountability measures consistent with the 2007 reauthorization of the 
Magnuson-Stevens Act. Based on the most recent scientific information 
on the status of the skate complex, including survey data from 2008, a 
reduction in overall skate catch (landings and discards) is necessary 
to ensure that the annual catch limit is not exceeded. To prevent the 
skate fishery from exceeding the allowable landings, a possession limit 
of 5,000 pounds per fishing trip was implemented for the skate wing 
fishery. An accountability measure to further reduce this possession 
limit to 500 pounds per trip once 80 percent of the total allowable 
landings limit is reached was also implemented in this rule. Although 
the New England Fishery Management Council initially proposed a 
possession limit of 1,900 pounds per trip for the skate wing fishery, 
this limit was not implemented, and the 5,000 pounds per trip 
possession limit was implemented instead, providing some level of 
relief to the fishing industry.

    Question 31. Does the management process even allow for this to be 
done and, if not, should it?
    Answer. The management process does provide ways to respond to new 
scientific information, both through various Council actions, and 
through emergency and interim rulemaking authority in the Magnuson-
Stevens Fishery Conservation and Management Act.

    Question 32. Dr. Lubchenco, Atlantic pollock is one of several 
stocks in the Northeast Multispecies Fishery that is transitioning to a 
form of catch share management in 2010. It is my understanding that 
NMFS may reevaluate current pollock stock assessment data to determine 
whether the stock can support higher harvest levels than are now 
planned for fishing year 2010. I also understand that, due to the 
process involved in order to update harvest levels in such a manner, 
any such update would not be published until well after the fishing 
year for pollock has begun. Is there any means by which you can 
expedite this process so that any updates in harvest levels are 
announced closer to the beginning of the fishing year?
    Answer. The Secretary has committed to implementing science-based 
changes in groundfish harvest limits as quickly as possible. The 
results of the updated assessment were released on July 14, 2010, and 
concluded that overfishing is not occurring, the stock is not 
overfished, and that the stock is fully rebuilt. Based on this new 
science advice, NOAA published a Secretarial emergency action in the 
Federal Register that implemented substantially higher annual catch 
limits for pollock as of July 15, 2010, less than 3 months into the 
2010 fishing year.

    Question 33. Dr. Lubchenco, it's my understanding that spiny 
dogfish populations in New England are at record highs, and that 
Council's Scientific and Statistical Committee believes spiny dogfish 
stocks may now be rebuilt. In the past, the spiny dogfish fishery has 
served as an alternative commercial fishery resource for New England 
fishermen that helped mitigate the negative economic impact of closures 
and other necessary management measures in other commercial fisheries. 
But I'm told that, until the most recent data on stocks is reviewed and 
the fishery management plan is updated accordingly, the constraints of 
the rebuilding plan for the species continue to apply. What can NOAA do 
to ensure that there is a review of the most recent data on spiny 
dogfish stocks and the management plan is updated accordingly?
    Answer. NOAA, in consultation with its colleagues at the Canadian 
Department of Fisheries and Oceans, established revised biological 
reference points for spiny dogfish in May 2010. Based on this revised 
biomass reference point and recent trawl data, NOAA incorporated the 
updated biological reference points for spiny dogfish into the 
specification of the commercial quota in June 2010. This peer-reviewed 
work resulted in the determination that the stock is rebuilt, 
satisfying the management plan requirements for an increase in the 
commercial quota from 12 million pounds to 15 million pounds.

    Question 34. Washington State has recently seen the emergence of 
the Puget Sound Partnership--an innovative, collaborative, science-
based effort to manage the Puget Sound environment based on an 
ecosystem-based management approach. Will regional efforts like the 
Puget Sound Partnership be able to benefit from NOAA's proposed budget?
    Answer. Yes, regional efforts such as the Puget Sound Partnership 
will continue to benefit from NOAA's proposed budget. NOAA's proposed 
budget will result in many monitoring and evaluation, project 
prioritization, and implementation efforts that facilitate fulfillment 
of the Puget Sound Partnership's 2020 Action Agenda.
    NOAA's proposed budget enables the agency to support regional 
efforts like the Puget Sound Partnership with scientific and management 
expertise related to salmon and Orca whale recovery, stormwater 
management, and habitat protection and restoration. The Pacific Coast 
Salmon Recovery Fund (PCSRF) provides $65 million to support regional 
salmon recovery activities. The Puget Sound Partnership, working with 
the State Salmon Recovery Funding board, allocates PCSRF funds toward 
priority recovery and restoration projects across the region.
    NOAA is an active member of the Puget Sound Federal Caucus, an 
interagency team that coordinates Federal agency actions and 
investments to support the Puget Sound Partnership in its mission to 
restore the Sound by 2020. NOAA's proposed budget continues the 
agency's support of the Partnership's agenda directly through salmon 
recovery plan implementation and habitat restoration activities, and 
collaboratively through the Federal caucus. The proposed budget also 
supports NOAA's participation on the Partnership's Ecosystem 
Coordination Board, a 27-member team focused on habitat protection, 
storm water management and salmon recovery.
    For example, the NOAA Restoration Center, which houses the 
Community-based Restoration Program, has prioritized the Puget Sound as 
a focus area and is working closely with Puget Sound Partnership. 
Collaborations with Puget Sound Partnership would be strengthened by 
the additional funds to implement larger-scale habitat restoration 
targeted at threatened and endangered species in the FY 2011 budget 
request. Funding in the FY 2011 budget would address habitat as a 
limiting factor in key watersheds in Puget Sound.

    Question 35. Would the Puget Sound Partnership and the West Coast 
Governors' Agreement be able to access support and funding through 
NOAA's proposed funding for Community Based Restoration and Regional 
Ocean Partnership Grants?
    Answer. Yes, both the Puget Sound Partnership and the West Coast 
Governor's Agreement could access funding through the Community-based 
Restoration Program to implement restoration activities. Funding for 
projects specifically designed to eliminate the habitat limiting factor 
for endangered species in key watersheds is being actively pursued by 
the Partnership under the NOAA Community-based Restoration Program. The 
West Coast Governor's Agreement can access the funds through the states 
as well as through collaborations with Restoration Center partners, 
such as the Nature Conservancy and Ecotrust.
    Both the West Coast Governors' Agreement on Ocean Health and the 
Puget Sound Partnership would be eligible to apply for funding under 
the new Regional Ocean Partnership grants. The goal of this new grant 
program is to provide support for existing and emerging regional ocean 
partnerships. The President's FY 2011 request includes $20 million to 
establish a competitive grants program to advance effective ocean 
management through regional ocean governance. This grant program would 
support priorities identified by the existing regional ocean 
partnerships (including the West Coast Governors' Agreement on Ocean 
Health), the development and implementation of regional priorities in 
other regions, and aid the regional partnerships in addressing coastal 
and marine spatial planning. Puget Sound Partnership would be 
competitive for funding to the extent their proposed activities have 
been identified as priorities by the West Coast Governors' Agreement on 
Ocean Health.

    Question 36. Do you anticipate that the demand for this type of 
funding and support will far exceed supply?
    Answer. We anticipate the demand could exceed supply. However, 
continued support for NOAA's budget request and the requests of other 
Federal agencies in the will allow us to continue to make progress in 
supporting regional ocean partnerships.

    Question 37. NOAA's budget request includes $949 million for 
research and development. What role does NOAA play in supporting 
research and development to strengthen American competitiveness, and 
how does NOAA's budget request support this role?
    Answer. NOAA's mission is to understand and predict changes in 
Earth's environment and conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and environmental 
needs. NOAA operates under a broad array of mandates, which convey 
operational responsibility to protect and preserve ocean, coastal and 
Great Lakes resources, and to provide critical and accurate weather, 
climate, and ecosystem forecasts that support national safety, 
commerce, and competitiveness. Science and research are a high priority 
of this Administration and this is reflected in NOAA's FY 2011 Budget 
Request.
    NOAA Research and development (R&D) investments, both internal and 
through external partnerships and competitive research programs, 
support the agency's operational missions in areas such as improving 
weather forecasts and warnings, strengthening understanding of 
ecosystems to support fisheries management, and enhancing the 
reliability and scale of climate predictions. NOAA's atmospheric and 
ocean, coastal and Great Lakes research and applied science is at the 
forefront of discovery and leads to new investments in science and 
technology research, innovation, and global competitiveness. This 
includes:

  <bullet> Physical and Chemical Oceanography--NOAA scientists are 
        credited with being at the forefront of the discovery and 
        understanding of ocean acidification. NOAA's physical science 
        capabilities in the realm span global observation networks, 
        modeling and data analysis, and predictions and projections. 
        Beyond leading the globe in understanding the phenomena of 
        ocean acidification, NOAA's leadership is directly leading to 
        new ocean chemistry technology research and development.

  <bullet> Climate Observations, Monitoring and Modeling--NOAA operates 
        what is generally considered to be among the world's premier 
        global climate model. But possibly even more significant, NOAA 
        is a leader among Federal agencies in physical science work in 
        U.S. and global climate observing, monitoring, and analysis. At 
        the cutting edge of climate modeling, NOAA's work is driving 
        global investment in and development of new approaches to 
        climate modeling and geographical and temporal modeling scales.

  <bullet> Meteorology--A prime example of NOAA's work in advancing 
        technologies for weather forecasting is the reduction of the 
        lead times for tornado warnings. In 20 years, the average lead 
        time in tornado warnings have improved from 3 minutes to 15 
        minutes, a credit to the NOAA-developed NEXRAD (NEXt generation 
        weather RADar) system, in partnership with Federal Aviation 
        Administration (FAA) and Air Force, and the AWIPS (Advanced 
        Weather Interactive Processing System). At the cutting edge of 
        research and development to improve warning times even further, 
        NOAA and its partners are conducting valuable research on 
        multi-function phased array radar (MPAR). MPAR has the 
        potential to replace seven single-function conventional radar 
        networks that currently serve aviation, defense, homeland 
        security, and weather forecasting needs. NOAA also is a leader 
        in numerical weather modeling and research. Since the 1980s, 
        efforts here have lead to nearly a doubling of the accuracy of 
        the day two forecasts, and more than doubling the accuracy of 
        hurricane track forecasts.

  <bullet> Atmospheric Studies--NOAA conducts numerous basic and 
        applied research on the upper and lower atmosphere. NOAA's 
        research program embodies a ``one atmosphere'' perspective that 
        addresses both air quality and climate change issues. NOAA 
        utilizes state-of-the-art airborne-, ship- and ground-based 
        instrument packages, and it applies these packages through 
        regional assessments conducted throughout the U.S. Two examples 
        of atmospheric studies that are increasingly important are 
        NOAA's work in black carbon research, which has implications 
        for health, climate change, and solar radiation, and mercury 
        deposition, with implications for human and ecological health. 
        NOAA's atmospheric studies are also at the leading edge of 
        observation and study of the chemical and physical processes of 
        the atmosphere, detecting the effects of pollution on those 
        processes and monitoring and forecasting the phenomena 
        affecting the Sun-Earth environment.

  <bullet> Space Science--NOAA's Space Weather Prediction Center (SWPC) 
        is the Nation's official source of space weather alerts, 
        watches and warnings. SWPC provides real-time monitoring and 
        forecasting of solar and geophysical events which impact 
        satellites, power grids, communications, navigation, and many 
        other technological systems. SWPC is also the primary warning 
        center for the International Space Environment Service and 
        works with many national and international partners with whom 
        data, products, and services are shared. SWPC's research and 
        development is fostering innovation through development and 
        evaluation of new models and products and transition to 
        operations.

  <bullet> Hydrology--NOAA's river flood forecasting technology and 
        applied services is recognized nationally and internationally. 
        NOAA conducts pivotal research and applied science in hydrology 
        and water resources, which leads to new investments in 
        engineering and science research and global competitiveness. 
        For example, soil moisture forecasts will support improvements 
        in agricultural yield for farmers, conserve water resources by 
        reducing irrigation requirements and improving resource 
        management, and likely spawn an industry of agricultural 
        support based on NOAA's products. Water quality forecasts, will 
        help fisheries management and power plant operation, leading to 
        increase fisheries catch and improved power plant maintenance 
        scheduling, thus enhancing power generation productivity. 
        Improved streamflow modeling leads to improved river flood 
        forecasts and water resource management, including water 
        supply, hydropower generation, and flood control. Finally, 
        NOAA's efforts to couple river, estuary, and ocean models will 
        lead to improved forecasts for the water transportation 
        industry in the Nation's ports, rivers, and coasts, along with 
        and improved water supply management in coastal communities.

  <bullet> Geodesy--NOAA's National Geodetic Survey (NGS) is 
        responsible for defining, managing, and providing public access 
        to the National Spatial Reference System, which provides the 
        foundation for transportation and communication; mapping, 
        charting, and surveying; and a multitude of leading edge 
        scientific and engineering innovations and applications to meet 
        our Nation's economic, social, and environmental needs. NGS 
        conducts research and development in remote sensing 
        technologies and geophysics, including geodynamics and geodesy; 
        the goal of this research is to improve the accuracy of 
        collection, distribution, and use of all geospatial data.

    NOAA's FY 2011 request includes $81.5 million in increases above 
the FY 2010 request and $949 million in total investments for R&D in 
climate, weather, and ecosystems science. Some of NOAA's most 
significant investments (FY 2011) in R&D to increase American 
competitiveness are:

  <bullet> An increase of $10 million to support Climate Assessment 
        Services that will provide understanding of the Nation's 
        vulnerability to climate change and increase its adaptive 
        capacity to reduce that vulnerability at national and regional 
        scales;

  <bullet> An increase of $9.5 million for marine ecosystems sensors 
        that will allow NOAA to better detect, identify, characterize, 
        and quantify marine microbes, toxins, and contaminants that 
        pose a risk to human health;

  <bullet> An increase of $6 million for Multi-Function Phased Array 
        Radar to allow NOAA to continue its development, in partnership 
        with the Federal Aviation Administration, of radar technology 
        to improve weather forecasts (follow on to NEXRAD); and

  <bullet> A total of $175.6 million for Research and Development 
        Equipment to support NOAA's Office of Marine and Aviation 
        Operations (OMAO), the Office of Oceanic and Atmospheric 
        Research (OAR), and the National Environmental Satellite, Data, 
        and Information Service (NESDIS). Breakdown is as follows:

    <ctr-circle> OAR--$77.1 million on High performance computing time 
            and equipment for research (including exploration equipment 
            for OER);

    <ctr-circle> NESDIS--$9.5 million for DSCOVR;

    <ctr-circle> OMAO--$89 million for OMAO for ship and aircraft 
            operations to support research.

    Question 38. Would you support strengthening NOAA's role in America 
COMPETES? If yes, why?
    Answer. The original America COMPETES Act recognizes the unique 
role NOAA research plays in developing innovative technologies. In 
addition, the America COMPETES Act is ``intended to increase the 
Nation's investment in science and engineering research, and Science, 
Technology, Engineering and Math (STEM) education'' with the express 
purpose of improving America's competitiveness in the global 
community.\1\ I fully support continuing NOAA's authority under the Act 
to contribute to U.S. competitiveness through K-12 and STEM education; 
oceanic and atmospheric research and development; and participation in 
interagency efforts to promote innovation and economic competitiveness.
---------------------------------------------------------------------------
    \1\ U.S. Congressional Research Service. America COMPETES Act and 
the FY2010 Budget (R40519; Jun. 11, 2009), by Deborah D. Stine. 
Accessed: March 25, 2010.
---------------------------------------------------------------------------
    A significant proportion of NOAA research and applied science is 
cutting edge and leads to new investment in science and engineering 
research, innovation, and global competitiveness in areas such as: 
physical and chemical oceanography; climate observations, monitoring, 
and modeling; meteorology; and atmospheric studies. NOAA's contribution 
to increasing U.S. science competitiveness in support of the goals of 
America COMPETES would be strengthened through continued authority for 
interagency collaboration; recognition of and authority for NOAA 
research, development, and transition-to-operations, including high 
risk, high reward research; strengthened partnerships authority in NOAA 
mission areas of atmospheric and ocean, coastal, and Great Lakes 
research and development; and continued authorization for NOAA STEM 
education activities.
    NOAA appreciates the support of the Senate Committee on Commerce, 
Science, and Transportation with respect to NOAA's role in and 
contribution to America COMPETES. We look forward to continuing to work 
with Committee Members and staff to strengthen U.S. competitiveness at 
home and abroad in the areas of science and engineering research and 
STEM education.

    Question 39. Can you address how a single NOAA climate service, 
rather than the current distributed structure, will integrate NOAA's 
climate capabilities and make information and services more accessible 
to NOAA partners?
    Answer. Many and diverse sectors of society are faced with the need 
to better understand and anticipate the impacts of climate variability 
and change, including for decisionmaking, protection of life and 
property, and international competitiveness. Critical, climate 
information-dependent sectors include energy, agriculture, 
transportation, human health, and water resources. These sectors 
already are recognizing the need for reliable and authoritative climate 
information to inform their decision-making, investments, and options 
for mitigation or adaptation. To date, individuals, communities, 
governments and industry have largely relied on what we know about the 
past climate to make important decisions about the future. In order to 
be more prepared, successful and competitive in the face of a changing 
climate, America needs to better anticipate future climate conditions. 
With this information, we can envision an America that is more secure 
as we assess our risks and vulnerabilities and incorporate climate 
change considerations more routinely into our management, economic, 
business and social decisions.
    The Nation needs an objective, authoritative, timely and consistent 
source of climate information, based on the best available science, to 
support this decision-making at multiple levels--national, regional, 
state and local. NOAA is well positioned to help address this need, as 
we are already contributing strongly to the development and delivery of 
climate science, tools, products and information. Building from a solid 
foundation of partnerships with other Federal agencies, academia, state 
and local governments, and the private sector, NOAA can further 
contribute and more effectively deliver urgently-needed services by 
integrating and expanding its unique Earth observation and monitoring 
assets, world-class research and modeling capabilities, and broad 
operational data and information services at the regional level.
    Numerous external studies, by NOAA's Science Advisory Board, the 
National Academy of Sciences and others, have reiterated the need for 
easy-to-find, reliable and understandable information and products 
about climate variability and change. Under NOAA's current distributed 
organizational structure for climate services, the rapidly-increasing 
user demand for climate services is outpacing NOAA's ability to most 
effectively deliver the products and information being requested. A 
centralized NOAA Climate Service would increase the agency's ability to 
anticipate, understand and provide the information Americans need to 
meet the challenge of being competitive and resilient by incorporating 
relevant climate knowledge in decision-making today. Creating one line 
office to focus on this challenge would enable NOAA to strategically 
and tactically guide its climate research, monitoring and assessment 
work in a coordinated fashion with the full complement of partners, 
government and non-government alike, that have been and will continue 
to be a cornerstone of success. A NOAA Climate Service office would 
also create a visible and easy to find, single point of entry for 
people to access NOAA's climate science and service assets, and enable 
improved information sharing and more productive partnerships with 
Federal agencies, local governments, private industry and other users 
and stakeholders.

    Question 40. How will NOAA engage local communities, States, 
tribes, research institutions, businesses and others to make sure that 
the Climate Service meets their needs?
    Answer. NOAA has a long history of building sustained partnerships 
and interacting with partners at all levels of government 
(international, national, state, tribal, local), the private sector, 
non-governmental organizations, other Federal agencies, and the public. 
NOAA's Climate Service will benefit from and draw upon NOAA's existing 
expertise, infrastructure, and capabilities in climate science; its 
extensive experience in service delivery; and its relationships with 
other Federal, state, and local partners.
    NOAA's existing networks for engagement include interagency and 
other partnerships that comprise the National Integrated Drought 
Information System (NIDIS), National Weather Service Forecast Offices 
and River Forecast Centers, National Data Centers, Regional Integrated 
Science and Assessment projects at universities, Regional Climate 
Centers, State Climatologists, Sea Grant, the Coastal Services Center, 
international climate research institutes, NOAA Cooperative Institutes, 
and extension agents. NOAA's proposed Climate Service also expects to 
leverage other existing on-the-ground capabilities such as the National 
Estuarine Research Reserve System (NERRS) sites, U.S. Department of 
Agriculture extension networks, and the Department of the Interior. 
Working with its partners, NOAA's Climate Service would support ongoing 
and deliberate dialogue with users to understand and to meet their 
evolving needs. NOAA, with these partners, already has extensive 
regional climate capabilities. Coordinating and enhancing these 
regional science, service and delivery capabilities would be one of the 
most important outcomes of establishing a Climate Service at NOAA.
    One early priority for engagement will be to delineate a better 
coordinated, priority-driven regional approach for improved regional 
climate service development and delivery, based on sustained user 
engagement and collaboration. NOAA envisions a regional climate 
services program with the following objectives: State, Local and Tribal 
Engagement, Education & Service Delivery; Regional Climate Science; and 
Regional Climate Products and Services.
    NOAA is in the process of hiring six regional climate services 
directors. These new positions will be co-located with the six National 
Weather Service regional headquarters offices and will be responsible 
for coordinating NOAA's climate activities and engagement with climate 
service partners and users within each region to enhance NOAA's 
abilities to work with and provide climate information and services to 
local constituents and stakeholders.

    Question 41. The NOAA budget proposes $464.9 million for NOAA's 
research office, including $11.6 million to assess the effects of ocean 
acidification, $10 million for climate assessments, and $20.9 million 
for the Carbon Tracker Observing and Analysis System. How will these 
funds prepare NOAA to address the challenge of lead U.S. agency 
providing vital information on climate-related impacts?
    Answer. NOAA believes all agencies must consider and engage in the 
development and delivery of climate services in support of adaptation 
and mitigation decisions that relate to their mission areas. Just as 
the Nation's climate research efforts require and benefit from 
sustained interagency and other partnerships through the U.S. Global 
Change Research Program, so too will the delivery of climate 
information and services. NOAA has much to contribute to addressing the 
Nation's need for improved climate science and services. NOAA already 
works closely with many Federal, regional, academic and other partners 
on climate research, data collection and dissemination and climate 
service provision.
    The FY 2011 budget request increases for NOAA's climate activities 
will significantly enhance NOAA's climate science and service 
capabilities and therein contribute to the effective implementation of 
a new NOAA Climate Service. Specifically, the FY 2011 budget includes 
climate activity increases totaling $130 million, which includes $47 
million that would support the following activities in the NOAA Climate 
Service:

  <bullet> $10 million for Assessment Services to establish a new and 
        sustained capability within NOAA to provide climate assessments 
        to decision-makers at national and regional scales. It will 
        also provide the capacity to engage stakeholders and 
        decisionmakers throughout the process in order to better 
        determine priority issues, risks, and vulnerabilities that need 
        to be addressed;

  <bullet> $1.5 million for NOAA's Climate Portal to establish one-stop 
        public access to all of NOAA's climate data, information, and 
        services online;

  <bullet> $15.8 million to support critical climate observing 
        infrastructure;

  <bullet> $6.98 million for Earth System Modeling: Urgent Climate 
        Issues to improve model resolutions and address critical areas 
        of model uncertainty, including: sea-level rise, Arctic, 
        terrestrial carbon cycle and biogeochemical feedbacks, and 
        decadal predictions/abrupt change;

  <bullet> $11 million to expand the development of climate quality 
        data records from satellite observations;

  <bullet> $2 million to enhance data center operations to provide 
        users with consistent and reliable access to the Nation's 
        environmental data and information via the Comprehensive Large 
        Array-Data Stewardship System.

    In addition, the FY 2011 budget includes increases of $83 million 
for complementary climate investments and infrastructure, including:

  <bullet> $49.4 million to continue the acquisition of critical 
        climate sensors as recommended by the National Research Council 
        2007 Decadal Survey;

  <bullet> $30 million for the U.S. contribution to the Jason-3 
        partnership program to ensure continuity of measuring sea 
        surface height, a critical climate data record that has been 
        maintained for over 20 years;

  <bullet> $2.2 million to provide resources to help communities 
        prepare for climate hazards, such as increased flooding and 
        storm surge impacts due to sea-level rise;

  <bullet> $2 million to support the Gulf of Mexico Coastal and Marine 
        Elevation Pilot request in NOS to model climate impacts in this 
        region.

    Question 42. Over the last 2 years, NOAA has been appropriated $9 
million to acquire and install a coastal Doppler radar in Washington 
state. Is the plan still on track to have the radar up and operational 
sometime in 2012?
    Answer. We have updated our delivery schedule and now anticipate 
the radar will be operational about one year earlier than anticipated, 
in September 2011.

    Question 43. While the new radar certainly has to be compatible 
with NOAA's existing network, are you taking steps to make sure the 
technical specifications for this radar fit the unique conditions 
present on Washington's outer coast?
    Answer. The radar we install to cover Washington's outer coast and 
ocean area must meet our stringent technical specifications for 
performance, capability and reliability. It must also be compatible 
with our existing Doppler radar network and supporting systems. The 
National Research Council's 2005 report ``Flash Flooding Forecasting 
over Complex Terrain'' offers recommendations for improving coverage of 
low-level precipitation and wind, particularly over complex terrain and 
mountainous areas like the geography along Washington's outer coast. We 
will use this opportunity to validate the suggested modified scan 
strategies to ensure the best possible radar coverage and depictions 
for the Pacific Northwest.

    Question 44. During the COSCO Busan oil spill in San Francisco in 
late 2007, responders relied on NOAA's ecological sensitivity maps to 
identify areas that needed protection from the spreading oil. NOAA's 
maps for the outer coast of Washington, though, are twenty-three years 
old and severely outdated. By relying on outdated maps, aren't we 
risking our ability to respond effectively to a spill on the Washington 
coast? If Congress funds NOAA's Office of Response and Restoration at 
levels below the President's request of $19.5 million, isn't it a safe 
assumption that the ecological sensitivity map backlog will grow? How 
much will it cost to update all of the maps that need to be updated?
    Answer. Environmental Sensitivity Index (ESI) maps provide 
information that helps reduce the environmental impacts from oil and 
chemical spills. Spill responders use NOAA's ESI maps as one tool to 
identify priority areas to protect from spreading oil, develop cleanup 
strategies to minimize impacts to the environment and coastal 
communities. Development of ESI maps has most often been accomplished 
by using a variety of funding sources, both Federal and state. At 
present, 21 of 50 ESI Atlases are greater than 10 years old (including 
the Great Lakes). The estimated cost to update the ESI Atlases that are 
10 or more years old is approximately $11.0 million. As in past years, 
updates will likely be accomplished over time with a mix of Federal and 
partner funds. The President's FY 2011 request for the Office of 
Response and Restoration is $19.5 million, which includes funding to 
update at least one ESI atlas.

    Question 45. As NOAA moves forward with the development of a 
Climate Service and developing marine spatial plans, how will the 
National Estuarine Research Reserve System, Sea Grant, the Coastal Zone 
Management Program, national marine sanctuaries, and fishery management 
councils fit into these new initiatives?
    Answer. National Marine Sanctuaries, National Estuarine Research 
Reserves and state coastal zone management programs are key recipients 
of climate services information and tools. The states are one of NOAA's 
key management partners and NOAA plans to engage state partners and 
fishery management councils as it develops priorities for the new 
climate service. The National Estuarine Research Reserve System (NERRS) 
and the National Marine Sanctuary System have mandates for stewardship, 
applied research, and education, and will therefore serve as both users 
and providers of information for the any Climate Service. NOAA Sea 
Grant and its university-based partners in 32 states would also support 
the Climate Service by conducting climate-related research, extension, 
and outreach projects.
    The NERRS, Sea Grant, state coastal programs, National Marine 
Sanctuaries and regional fishery management councils will be key 
partners in coastal and marine spatial planning efforts. They will not 
only serve as providers of spatially explicit ecosystem information 
that will be crucial for both the regional assessment and long term 
evaluation components of any effective coastal and marine spatial plan 
but they will also be able to utilize information generated as a result 
of these planning processes to inform their programmatic goals and 
objectives. In many cases, states have been leading state or regional 
efforts in coastal and marine spatial planning and NOAA wants to build 
on these efforts and further leverage their efforts with our capacity 
and expertise.
    These programs also have the strong local connections to coastal 
communities that will be critical to engaging the public and 
stakeholders in these initiatives.

    Question 46. The Sea Grant Program is a national asset. One of Sea 
Grant's primary strengths is the ability to quickly deploy and focus a 
national network of university-based scientists and technical experts. 
For example, on the West Coast, ocean acidification is a growing threat 
to shellfish and other ocean resources. While NOAA's FY 2011 budget 
initiative for ocean acidification research, the Sea Grant programs in 
Washington have already taken first steps to support critically needed 
research on this threat. With an array of challenging scientific 
questions before us, how would you recommend we build on and enhance 
the capacity of state Sea Grant programs to quickly and economically 
act to meet national concerns through local action?
    Answer. The President's FY 2011 budget requests $62.5 million for 
the National Sea Grant College Program. Sea Grant is NOAA's primary 
university-based program in support of coastal resource use and 
conservation. Sea Grant's research and outreach programs promote better 
understanding, conservation, and use of America's coastal resources by 
addressing local to global concerns.
    The FY 2011 request for Sea Grant includes an increase of $2 
million to support regional research, training, and technology transfer 
to enhance the resiliency of coastal communities to both persistent 
natural hazards and extreme events (e.g., climate-induced sea-level 
rise, extreme coastal storms).
    The FY2011 request for Sea Grant also includes an increase of $2.7 
million for marine aquaculture. This increase will advance sustainable, 
domestic aquaculture through an enhanced aquaculture extension effort 
coupled with a competitive research initiative that addresses high 
priority issues for aquaculture.
    NOAA will use its integrated research, training, and technical 
assistance capabilities, and its presence in coastal communities, to 
play a major role in helping local citizens, decision-makers, and 
industries plan for hazardous events and optimize the ability of their 
communities to respond and rebuild to such events.

    Question 47. On January 15, 2010, several of my Washington 
colleagues joined me in sending a letter outlining the environmental 
reviews we believe NOAA must complete as the MOC-P process moves 
forward. In that letter, we stated that to come into compliance with 
Executive Order 11988 (on floodplains), we believe that NOAA is 
required to conduct a full Environmental Impact Statement and an 
Endangered Species Act section 7 consultation if the agency ultimately 
decides to move forward with locating MOC-P at Newport. NOAA's 
practicable alternatives process announced on January 29, doesn't give 
any details on future environmental reviews. Does this mean that NOAA 
believes its existing Environmental Assessment is enough?
    Answer. NOAA published a comprehensive environmental assessment on 
June 10, 2009. The environmental assessment identified threatened or 
endangered species for all four offers, and concluded that the impacts 
of the proposed action could be effectively mitigated for each site. 
That assessment specifically included consideration of the impacts to 
the green sturgeon and its habitat in and near Yaquina Bay. Because 
NOAA concluded, after taking into account the proposed mitigation 
measures, that the Marine Operations Center--Pacific (MOC-P) lease 
award would not significantly affect the quality of the human 
environment, NOAA determined that an environmental impact statement was 
not required for the proposed action.

    Question 48. Will NOAA conduct an Environmental Impact Statement?
    Answer. NOAA concluded through an environmental assessment and 
after taking into account the proposed mitigation measures that the 
MOC-P lease award would not significantly affect the quality of the 
human environment. Therefore, NOAA determined that an environmental 
impact statement was not required for the proposed action. NOAA 
completed a practicable alternative analysis conducted under Executive 
Order 11988 (Floodplain Management) and in response to the Government 
Accountability Office's decision in response to the MOC-P lease protest 
(Final Determination issued on June 2, 2010; Final Determination: 
Practicable Alternative Analysis, NOAA's Marine Operations Center-
Pacific Lease Award to Port of Newport, Newport, Oregon). In that 
analysis, NOAA determined that no substantial changes to the proposed 
action need to be made or significant new circumstances or information 
relevant to environmental issues had been identified. Therefore, NOAA 
determined that no further action relative to the environmental 
assessment and finding of no significant impact was required.

    Question 49. Will NOAA conduct a biological opinion for either 
green sturgeon or Oregon coast coho salmon, both of which include the 
proposed Newport site as critical habitat?
    Answer. Because the U.S. Army Corps of Engineers is required to 
issue permits for the Port of Newport to proceed with construction at 
the site, the parties were already required to follow the section 7 
Endangered Species Act (ESA) consultation process (as would any of the 
other sites if selected). NOAA's National Marine Fisheries Service is 
working with the Port of Newport to ensure the section 7 ESA process is 
complied with in connection with the MOC-P lease award, and will, as 
necessary, evaluate the effects of the proposed action on listed 
species and their designated critical habitat prior to the issuance by 
the U.S. Army Corps of Engineers of any required permits.

    Question 50. If the relocation of the Marine Operations Center-
Pacific to Newport, Oregon proceeds in FY 2011 as planned, what 
expenditures do you anticipate related to that move, and from what 
accounts within NOAA's budget will those costs be paid?
    Answer. NOAA anticipates expenditures for relocation of employees, 
including the commissioned officers and the other government staff, and 
the cost of the new lease. Costs for the lease and move of commissioned 
officers will be paid for from the Operations, Research, and Facilities 
(ORF) account for Marine Operations. Depending on the final move costs, 
the other relocation costs will be paid for from the NOAA ORF account.

    Question 51. Do you anticipate ANY increased expenditures or costs 
related to a MOC-P move to Newport, Oregon (either direct or indirect) 
in FY2011 that will be incurred to accounts outside of the Office of 
Marine and Aviation Operations (OMAO)? If so, what accounts/programs, 
for how much, and for what?
    Answer. At this point, we do not envision any increased 
expenditures or costs related to a MOC-P move to Newport outside of the 
Office of Marine and Aviation Operations (OMAO). For OMAO, the current 
MOC-P employees will need to decide if they are going to relocate to 
the new site. Once this is known, NOAA will be able to determine the 
costs and timing for what resources are needed to accomplish the move.

    Question 52. I'm particularly interested in a small program called 
``Mussel Watch,'' which analyzes mussel tissues to monitor water 
quality and chemical contaminants. The 25-year-old program has 
collected data on over 120 contaminants along Washington's shorelines, 
and has been instrumental in demonstrating the Puget Sound's toxic 
problems--a long-term data set that I'm sure you can appreciate as a 
scientist. Although the program is small, it is instrumental in 
monitoring water quality in Washington. What are the proposed funding 
levels for Mussel Watch program under the FY 2011 budget?
    Answer. The FY 2011 President's Request includes $300,000 for 
Mussel Watch. The funds are requested as part of the ``National Centers 
for Coastal Ocean Science'' budget line within NOAA's National Ocean 
Service, and the program is implemented by the Center for Coastal 
Monitoring and Assessment.

    Question 53. Will NOAA continue support for this successful and 
important program in future years?
    Answer. NOAA will continue to support the Mussel Watch program, and 
fully recognizes the importance of continuity of operations.

    Question 54. Will you commit to working with me to maintain 
appropriate funding levels to ensure the continuation and growth of 
this valuable program and its irreplaceable long-term data sets?
    Answer. NOAA appreciates your support for this program and we look 
forward to continuing to work with you.

    Question 55. The Recovery Plan for Puget Sound Southern Resident 
Orcas released by NOAA earlier last year says the cost to delist 
southern resident orcas will be at least $50 million over 28 years. 
What is the amount of funding included in the FY 2011 NOAA budget 
devoted specifically for efforts called for under the Puget Sound 
Southern Resident Orca Recovery Plan? Does this funding level put us on 
track to delist the species within 28 years as the recovery plan 
states?
    Answer. Yes, the FY 2011 budget request of $1 million for the North 
Pacific Southern Resident Orca population will allow us to take 
important steps toward delisting this species. Based on the life 
history of killer whales and the nature of the threats to their 
survival, progress toward recovery will be a long-term effort and could 
take 28 years or more. NOAA strives to identify the highest priority 
and most cost effective research and recovery actions to fund with 
available resources, to ensure the contribution to the recovery of the 
Southern Residents and movement toward our goal of delisting.

    Question 56. The Orca Recovery Plan states that recovery efforts 
over the first 5 years will cost $15 million. Under this budget, are we 
failing to make the initial up-front gains called for by the Southern 
Resident Orca Recovery Plan?
    Answer. While some of the $15 million is attributed to actions for 
which NOAA is the lead responsible party, many of the actions include 
other responsible parties as well. Recovery of the Southern Resident 
Orcas will require contributions from a variety of government agencies 
and stakeholder groups as identified in the Recovery Plan. With 
specific funding for killer whales that was available in 2003-2007, the 
agency made gains in establishing a recovery program including 
designating critical habitat, completing the Recovery Plan, and 
implementing recovery actions. Now the agency is using available 
resources to implement actions in the Recovery Plan. NOAA has developed 
many valuable partnerships to leverage available funding from a number 
of sources to maximize our resources for the benefit of the whales. For 
example, NOAA has made significant progress working with the Washington 
Department of Fish and Wildlife on oil spill response planning and 
reducing vessel impacts through an increased enforcement presence on 
the water and education efforts. In July 2009, NOAA proposed 
regulations to minimize the impacts of vessel traffic and noise on the 
endangered orcas and is currently considering public comments submitted 
on the proposed rule. In coordination with Washington Department of 
Fish and Wildlife, the U.S. Coast Guard, and the Department of 
Fisheries and Oceans Canada, NOAA has developed proposed vessel 
regulations to protect the whales. In addition, there is an active 
research program including NOAA, universities, and private research 
organizations working to help fill in data gaps and guide recovery.

    Question 57. The National Geodetic Survey Report: Socio-Economic 
Benefits Study: Scoping the Value of CORS and GRAV-D, indicates a net 
present value of benefits for GRAV-D over 15 years of $4.8B (not 
counting private activities). This for a program cost, if annual 
funding can be maintained over 10 years, is only $40M. If successful, 
this represents a tremendous benefit for a low cost. If there are 
program shortfalls in any or all subsequent years, would this result in 
certain areas of the country being left out, or with a substandard 
product?
    Answer. The Gravity for the Redefinition of the American Vertical 
Datum (GRAV-D) project is an initiative to update the Nation's vertical 
datum, which is expected to be completed in 2022. Any shortfalls in 
funding would not result in a substandard product or areas of the 
country being left out, but would delay completion of GRAV-D (the 
implementation of a new national vertical datum). According to the 2009 
socioeconomic study (available at http://www.ngs.noaa.gov/PUBS_LIB/
Socio-EconomicBenefitsofCORSandGRAV-D.pdf), refining and modernizing 
the National Spatial Reference System by measuring elevation through 
GRAV-D has the potential to provide an additional $522 million in 
annual economic benefits to the U.S. economy.

    Question 58. Certain regions of the country have been identified as 
``Trouble Spots in the Gravity Field.'' GRAV-D is to be completed one 
region at a time, but with the exception of Alaska and the Gulf Coast, 
the other ``Trouble Spots'' are far down the list of areas to be done. 
Does a ``Trouble Spot'' require more resources than a ``non-trouble 
spot''?
    Answer. ``Trouble spots in the gravity field'' could refer to areas 
of the country, such as Alaska, that have a severe lack of gravity 
data, or it might refer to areas of subsidence or mountainous regions 
where gravity data are incorrect or inconsistent. If there is a need 
for increased observations/data collection within a ``trouble spot'' in 
order to effectively complete data collection for a region, a trouble 
spot could require more resources than other areas. ``Trouble spots,'' 
however, do not necessarily correlate with areas of most urgent and 
pressing need (see the response to question 59 for how these areas were 
prioritized).

    Question 59. How was the order of areas to be done decided?
    Answer. Portions of Alaska that are at high risk from the impacts 
of climate change, and where virtually no geodetic control or gravity 
data exist, were given the highest priority. Priority was also given to 
at-risk coastal areas, island regions, and other areas of the country 
which have an urgent and pressing need for better protection against 
inundation from storms, flooding, and/or sea level rise. In general, 
and as outlined in the GRAV-D plan (available at http://
www.ngs.noaa.gov/GRAV-D/pubs/GRAV-D_v2007_12_19.pdf ), the coastal 
areas of the U.S. will be covered first with later expansion to inland 
regions.

    Question 60. Will a state that has secured additional funding for 
gravity observations, either locally secured or through an earmark, 
going to be done earlier than those without additional sources of 
funding?
    Answer. NOAA will follow the GRAV-D plan as outlined. If states 
identify resources, NOAA will take this into consideration.

    Question 61. There are areas of the country at high risk for 
flooding, earthquake, tsunami, and other hazards for which precise 
elevations are critical for hazard mitigation, disaster preparedness 
evaluation and planning, and for post event evaluations. Should these 
regions be considered for early GRAV-D completion and/or additional 
observations data gathering?
    Answer. These factors were considered in the development of GRAV-D 
plan priorities.

    Question 62. The gathering of additional gravity data for all 
states, equally, would require a tremendous amount of on-the-ground 
skilled labor. Surveying and resulted industries have been hard hit by 
the economic downturn. Could the gathering of additional gravity data 
have been a good opportunity for job creation & growth?
    Answer. The collection of gravity data itself is not an intensive 
job creation opportunity. GRAV-D is best accomplished by small teams 
working on airborne platforms covering large areas at a time. However, 
once complete, GRAV-D is expected to provide an additional $522 million 
in annual benefits to the U.S. economy.

    Question 63. CORS are the continuously operating reference stations 
(i.e., GPS) owned and operated by state, local, Federal, and private 
entities that are coordinated by NGS to form the active control network 
of the National Spatial Reference System (NSRS). The National Geodetic 
Survey Report: Socio-Economic Benefits Study: Scoping the Value of CORS 
and GRAV-D, indicates a net present value of benefits over 15 years of 
$18.5B at current growth rates (not counting private activities). The 
CORS are established and operated by Federal, state, local and private 
entities; less than 20 percent are Federal. For such a high potential 
benefit, should NOAA consider more resources for CORS intake?
    Answer. NOAA recognizes the importance of the Continually Operating 
Reference Stations Network, but must balance many priorities for 
limited resources during the annual budget development process.

    Question 64. For such a high potential benefit, should NOAA 
consider more resources for NGS to assist potential CORS providers in 
CORS establishment?
    Answer. The Continually Operating Reference Stations (CORS) program 
benefits from the voluntary contributions of over 200 partner 
organizations. These organizations include foreign, Federal, state, and 
local government agencies, as well as academic and commercial 
institutions. The non-NOAA partners sponsor and/or operate over 90 
percent of the CORS network stations. NOAA looks forward to working 
with our regional, state and local partners to continue this effort and 
to maximize the benefits of CORS locally and throughout the Nation. 
This includes installation of CORS as part of National Height 
Modernization Program grants.

    Question 65. Height Modernization is an NGS program that assists 
states in establishing new or updated vertical control and references 
to tie critical infrastructure to the National Spatial Reference 
System. A line item for Height Modernization has been included for many 
of the past 10 years. This year it has $2.5M. As states scramble for 
these funds, many states resort to earmarks to proceed with their 
respective programs outside of the Height Modernization program. 
Considering the poor state of geodetic references, what would be the 
benefits of increased resources for such programs as Height 
Modernization?
    Answer. In 1998, Congress directed the National Geodetic Survey 
(NGS) to conduct a National Height Modernization Study. Up until the 
time of the study, there were many indications that considerable 
efficiencies and cost savings could be achieved through the utilization 
of GPS technology when applied to surveying and, in particular, the 
measurement of heights. The results of this study indicated in some 
cases a 90 percent cost savings over conventional surveying methods. 
The Gravity for the Redefinition of the American Vertical Datum (GRAV-
D) initiative will accelerate height modernization efforts; however, it 
is critical that current height modernization efforts continue to build 
on the extensive work done and the partnerships already created. Until 
2022, when we anticipate GRAV-D will be fully implemented and a new 
vertical datum established, physical infrastructure (survey marks in 
the ground, as frequently funded by height modernization) remains the 
best way to realize accurate heights in the current vertical datum 
(NAVD 88).

    Question 66. Wouldn't Height Modernization have been a good 
opportunity for job creation & growth?
    Answer. Current and future height modernization activities provide 
opportunity for job creation and economic growth for local communities. 
The installation and update of geodetic control through height 
modernization is a resource intensive effort no longer possible solely 
within the scope of the National Geodetic Survey (NGS) mission. Local 
surveying and engineering communities are needed to develop this 
geospatial infrastructure to ensure the integrity of their local 
surveying activities and geospatial data products. NGS also relies on 
university partners to provide education and capacity building within 
the community so that the quality of the control infrastructure and 
data retain the accuracy needed for all applications. Development of 
software to measure, compute, and use survey data in mapping and 
charting activities, hydrologic modeling, and Geographic Information 
System applications are needed as new users of this data come on the 
scene. As NGS transitions to a new vertical reference system through 
GRAV-D, software and models will need to be developed to ensure that 
users are able to seamlessly convert their data products.

    Question 67. This is not the first time the Inspector General has 
reviewed NOAA's fisheries enforcement operations. A similar review in 
1998 also found a need for greater direction from NOAA leadership and 
changes in the ratio of criminal investigators to uniformed enforcement 
officers. Yet the percentage of criminal investigators appears to have 
risen from 75 percent in 1998 to 90 percent today. Why were these 
earlier recommendations ignored?
    Answer. The 1998 Office of Inspector General (OIG) Report did not 
recommend changes in the ratio of criminal investigators to uniformed 
enforcement officers. The report discusses a ``Role and Deployment 
Study'' conducted by the NOAA Office of Law Enforcement (OLE). The 1998 
OIG report questions that study's value by suggesting that 
predetermined constraints prevented the study from considering all 
available options for staffing. The report cites the fact that the list 
of self imposed constraints set by the Chief of Enforcement (Chief) 
included a requirement to achieve a 1:1 ratio of special agents to 
fishery patrol officers and that the deployment portion of the study 
only evaluated 58 of the 164 full-time-equivalent positions.
    NOAA's response at the time was that the study limitations were 
intentional since it was intended to review specific unresolved issues 
within NMFS enforcement operations. However, NMFS continued to consider 
and follow-up on the potential of increasing visibility through the use 
of agreements with other enforcement organizations such as state 
enforcement organizations.
    After concluding a 1999 pilot study on the use of the cooperative 
enforcement program through a partnership with the State of South 
Carolina, the agency determined that it would be effective to pursue an 
expansion of the cooperative enforcement program. Funding was 
appropriated in 2001 to support an expansion of the cooperative 
enforcement program approach through agreements now known as Joint 
Enforcement Agreements. That program has been funded every year since 
2001 and now includes partnerships with every U.S. coastal state and 
territory, except North Carolina. Over the past decade, the Office of 
Law Enforcement (OLE) has operated with the understanding that the 
state agencies would supplement the patrol and inspection aspect of its 
mission through the cooperative enforcement program. Therefore, the OLE 
continued to hire special agents to focus on conducting investigative 
work.
    While the 1998 OIG report did not address the use of criminal 
investigators, this issue is very clearly identified as subject for 
review in the 2010 report. As part of the NOAA response to the 2010 
report, NOAA is conducting a workforce analysis to determine the proper 
mix of personnel within OLE as recommended by the OIG. The plan 
formulating this analysis is contained within appendix 9 of our March 
18 response to the OIG. On February 5, NOAA placed a freeze on the 
hiring of criminal investigators, which will remain in place until the 
workforce analysis is concluded.
    The OLE currently has 145 special agents and 18 enforcement 
officers. Though most of the sworn personnel within the agency are 
criminal investigators, the intent of the agency was not to create a 
``criminal orientation,'' but to assure the recruitment and retention 
of a well-rounded and highly qualified skill set. This was done because 
of the extensive variety of legislative mandates of the OLE and the 
vast geographic area covered. The premise of using special agents to 
conduct enforcement within the OLE has been the primary approach of the 
agency almost since its inception in 1970. At that time, this approach 
was identified as the most effective way for the OLE to meet its 
diverse, complex, and expansive enforcement mission requirements.

    Question 68. Dr. Lubchenco, your February 3 announcement regarding 
steps NOAA will take to address deficiencies identified in Mr. Zinser's 
report includes immediately directing resources ``. . .to improve 
communications on enforcement issues . . . including through actions 
that enhance understanding of fisheries regulations and transparency of 
enforcement actions.'' Can you be more specific about the kinds of 
actions you think will help to accomplish this goal?
    Answer. On February 3, I directed NOAA's National Marine Fisheries 
Service (NMFS) to work in consultation with the NOAA Office of 
Communications to target resources to improve communications on 
enforcement issues, particularly in the Northeast. The Office of 
Communications and External Affairs, in consultation with the Office of 
Law Enforcement and the Office of General Counsel for Enforcement and 
Litigation, developed a detailed Communications Plan to improve 
outreach with fishermen. The Plan is included as Appendix 2 of NOAA's 
March 18, 2010 official response to the Office of Inspector General's 
January 21, 2010 report on NOAA Fisheries Enforcement Programs and 
Operations. The response and appendices can be found on NOAA's website 
at the following addresses: http://www.noaanews.noaa
.gov/stories2010/PDFs/Response_IGReport.pdf and http://
www.noaanews.noaa
.gov/stories2010/PDFs/IGReport_Appendices1-15.pdf.
    The Communications Plan aims to increase NOAA's transparency and 
rapport with fishermen; to increase the frequency and improve the 
quality of interactions among fishermen, NOAA enforcement officers, and 
attorney-advisors; to increase public knowledge and understanding of 
fisheries regulations; and to promote the biological and financial 
benefits of sustainable fishing. The Communications Plan specifies a 
number of tools and strategies, including fishermen forums, a web-
portal and repository, and compliance guides. As noted in the 
Communications Plan, a pilot fisherman's forum was held April 26, 2010. 
My staff has committed to assess implementation and success of the plan 
periodically, and to provide results of that assessment to me promptly.

    Question 69. You also plan to hold a summit on law enforcement 
practices no later than June 30--will the regulated community be 
invited to participate?
    Answer. Summit participants included members of commercial and 
recreational fishery sectors as well as dealers, processors, and other 
constituents.

    Question 70. One of the main findings of the IG Report is that OLE 
lacks sufficient management and oversight by NOAA senior leadership and 
headquarters. Do you agree with this finding and, if so, what do you 
intend to do to fix this problem?
    Answer. I have directed Lois Schiffer, NOAA General Counsel, and 
Eric Schwaab, Assistant Administrator for the National Marine Fisheries 
Service, to take a number of steps to assure that these concerns are 
resolved. There are three key components they will address: strong 
leadership, procedural changes, and changes in the culture of NOAA's 
program. I have transferred administration of NOAA's Civil Monetary 
Penalties Fund (also known as the Asset Forfeiture Fund) to the NOAA 
Comptroller, and the General Counsel's Office has issued a Memorandum 
requiring higher levels of management review concerning charging, 
decisions and settlements. In addition to these steps, we are working 
to begin establishing enforcement priorities, develop a NOAA General 
Counsel Office of Enforcement and Litigation Internal Operating Manual, 
and revise and update the Office for Law Enforcement National 
Enforcement Operations Manual. NOAA's March 18, 2010 official response 
to the Office of Inspector General's January 21, 2010 report on NOAA 
Fisheries Enforcement Programs and Operations addresses these plans and 
the details are included within the appendices. The response and 
appendices can be found on NOAA's website at the following addresses: 
http://www.noaanews.noaa.gov/stories2010/PDFs/Response_IGReport.pdf and 
http://www.noaanews.noaa.gov/stories2010/PDFs/IGReport_Appendices1-
15.pdf.

    Question 71. Last month you ordered that NMFS take a number of 
immediate actions in response to some of the IG's recommendations. 
Which of the actions have been completed at this time?
    Answer. As outlined in my testimony, I ordered two immediate 
actions, both of which were completed on February 5. First, I 
instituted a freeze on the hiring of criminal investigators until an 
internal workforce analysis is done to consider the appropriate mix of 
criminal investigators and regulatory inspectors in the enforcement 
program. Second, the agency officially shifted oversight of the Civil 
Monetary Penalties Fund (also known as the Asset Forfeiture Fund) from 
NOAA's National Marine Fisheries Service to the NOAA's Comptroller.
    We have also made progress in addressing some of the short- and 
long-term actions identified in my testimony. The Office of 
Communications and External Affairs, in consultation with the Office of 
Law Enforcement and the Office of General Counsel for Enforcement and 
Litigation, developed a detailed Communications Plan to improve 
outreach with fishermen. NOAA also held an Enforcement Summit in 
Washington, D.C. on August 3, 2010. The goals of the Summit and 
additional outreach surrounding the Summit were to develop forward 
looking ideas in areas of communication, priority setting and program 
implementation, to help us achieve an enforcement program that ensures 
fair and effective protection of the Nation's natural resources in 
NOAA's areas of responsibility. NOAA posted materials from the Summit 
online and solicited feedback on those materials.
    NOAA's plans for addressing each of the actions identified in my 
March 3rd testimony are outlined more extensively within NOAA's March 
18, 2010 official response to the Office of Inspector General's January 
21, 2010 report on NOAA Fisheries Enforcement Programs and Operations 
and the 15 appendices to the report. These documents provide specific 
details regarding the plans and the project time frames for each action 
to be completed. The response and appendices can be found on NOAA's 
website at the following addresses: http://www.noaanews.noaa.gov/
stories2010/PDFs/Response_IGReport.pdf and http://
www.noaanews.noaa.gov/stories2010/PDFs/IGReport_Appendices1-15.pdf.

    Question 72. The IG report states that internal controls over the 
NMFS Assets Forfeiture Fund are lacking. What have you done to ensure 
proper oversight and use of these funds?
    Answer. Immediate action was taken to shift oversight of the Civil 
Monetary Penalties Fund (also known as the Asset Forfeiture Fund) from 
NOAA's National Marine Fisheries Service to NOAA's Comptroller. The 
Comptroller instituted a requirement that all proposed expenditures 
from this Fund of $1,000 or more must be pre-approved by him. Further, 
the NOAA General Counsel for Enforcement and Litigation submitted 
existing contracts to the Comptroller for guidance on whether 
additional expenditures from the Fund under those contracts required 
Comptroller approval. The list of contracts is Appendix 1c and the 
Comptroller's response is Appendix 1d of NOAA's March 18, 2010 official 
response to the Office of Inspector General's (OIG) January 21, 2010 
report on NOAA Fisheries Enforcement Programs and Operations. In 
addition, the OIG contracted with an external entity, KPMG, to conduct 
a forensic audit of the Fund's expenditures. This audit has been 
completed and a new OIG report on the findings was issued July 1, 2010. 
In response to the report and the recommendations presented, I 
instructed the Chief Financial Officer to oversee the development of 
Corrective Action Plans to address each of the recommendations and 
ensure the Civil Monetary Penalties Fund is well managed and has 
rigorous internal controls. On July 29, 2010, I submitted the 
Corrective Action Plans to the Inspector General. The plans continue 
the improvement of oversight and monitoring of the fund began earlier 
this year. It includes 31 specific corrective actions covering 13 
elements that NOAA is taking to improve the management, accountability, 
and transparency of the fund. Most of the corrective actions will be 
completed between this fall and the end of the year.
    These Action Plans will ensure that the Civil Monetary Penalties 
Fund is well managed and has rigorous internal controls. NOAA will 
continue to provide the Inspector General with regular reports on our 
progress toward implementation of the Corrective Action Plans. More 
information can be found here: http://www.noaa
news.noaa.gov/stories2010/PDFs/affmemo.pdf.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                           Dr. Jane Lubchenco

    Question 1. Dr. Lubchenco, I want to applaud the commitment to 
science and ocean conservation that you have shown during the first 
year of your tenure. The New England groundfish fishery--which has been 
in crisis and dire economic straits for the past two decades--has 
benefited from over $35 million in Federal investment from NOAA as it 
moves toward catch share management. The FY2011 NOAA budget calls for 
$54 million in funding for catch shares nationwide, and I hope that 
will include a third year of robust funding for New England fisheries. 
Can you help me better understand your strategy for moving to catch 
share management in New England and how this money helps do that?
    Answer. Currently 14 stocks in the Northeast Multispecies Fishery 
Management Plan are overfished and/or are subject to overfishing. The 
Magnuson-Stevens Fishery Conservation and Management Act requires us to 
end overfishing this year and rebuild these fish stocks, including 
setting specific annual catch limits and measures to ensure 
accountability.
    The Northeast Multispecies Fishery Management Plan contains 
provisions that allow permit holders who have been allocated an 
exclusive share of the total allowable catch to voluntarily form groups 
or ``sectors.'' This is a form of catch share management and was 
modeled after the two existing New England groundfish sectors that date 
back to 2004 and 2007. Fishery management via sectors offers a number 
of potential advantages to fishermen over the current management 
system, which is based on a complex set of regulations that dictate 
when, where and how often fishermen can fish. The use of sectors offers 
fishermen the opportunity to pool risks, capacity, and resources to: 
increase efficiency by increasing flexibility regarding when and where 
to fish; manage fishing operations to meet both the social and economic 
objectives of the sector; concentrate on increasing the quality and 
value of fish caught without concern for lost fishing time; avoid 
having to return to port or discard fish because a trip limit is 
reached for one species; and transfer (share, trade or consolidate) 
catch privileges among sector members to reduce fishing costs.
    In addition, the use of sectors offers fishing communities a means 
to address concerns that reduction and consolidation of groundfish 
operations threaten the viability of their current groundfish industry 
by retaining shares of the total allowable catch in defined ports/
geographic areas. Data from the first quarter of the 2010 fishing year 
shows that sectors have been able to keep catch rates well below the 
quota, even for some of the weaker stocks. Sector vessels seem to be 
taking advantage of their increased flexibility, avoiding the race to 
fish, and timing fishing trips for greater efficiency and higher 
economic returns. Preliminary economic data from May 1, 2010 to July 
31, 2010 shows that the sector vessel revenue is up 15 percent above 
this time last year even under lower catch limits.
    The FY 2011 NOAA budget request includes an additional $4.4 million 
for the implementation and operation of the Northeast multispecies 
sectors. This funding builds on FY 2010 funding to provide the required 
30 percent at-sea observer coverage requirement for Northeast sectors 
(total is $7.4 million). This brings the grand total for New England 
sector management in FY 2011 to $23 million, building on the $18.6 
million in FY 2010. Other key implementation activities include the 
development of systems to better monitor days-at-sea, document catches, 
and track permit transfers ($5.4 million), enhance cooperative research 
($6 million), law enforcement ($3.2 million), and social science and 
economics research to evaluate the impact of the sectors ($1 million).

    Question 2. NOAA requested technical adjustments to move $6 million 
from Cooperative Research to the National Catch Share Program to 
consolidate resources for the operations of the National Catch Share 
Program. Cooperative research is critical for assuring that NOAA has 
access to additional, outside high-value resources and building trust 
with our fishermen. Dr. Lubchenco, as a scientist yourself, can you 
help clarify how your budget priorities further scientific management 
of our marine fisheries?
    Answer. The FY 2011 budget supports a suite of activities that 
further fisheries science and management. This budget retains previous 
investments in the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act (MSRA), supports catch shares where appropriate, 
and provides additional investments in fisheries habitat, ecosystem 
science, and data collection. This budget request continues NOAA's 
commitment to fisheries science and management by retaining and 
building on previous funding increases in the National Marine Fisheries 
Service (NMFS) Operations, Research, and Facilities (ORF) budget of 
$907.7 million in FY 2011, an increase of $184 million since FY 2009.
    The NMFS ORF budget includes sustained investments to implement the 
MSRA. This funding includes support for the National Catch Share 
Program, Regional Fishery Management Councils to determine Annual Catch 
Limits, observer coverage, enforcement, recreational and commercial 
fishery data collection, and stock assessments. In FY 2011 NMFS is 
projecting to expand the percentage of FSSI (Fish Stock Sustainability 
Index) stocks with adequate stock assessments to 60 percent as a result 
of sustained funding for that activity. Funds for the National Catch 
Share Program will support the management of existing catch share 
programs, cooperative research specific to catch shares, and the 
implementation and development of new catch shares nationwide. Much of 
the $54 million request in FY 2011 is to enhance the implementation of 
catch shares nationwide and will be used to improve scientific data and 
management of our Nation's fisheries. Of the $36.6 million increase, 
$25.6 million is requested for data collection, including observing and 
monitoring. Under catch shares, the quality and quantity of fishery 
data improves significantly via new catch accounting, monitoring and 
compliance systems, as well as improved tracking systems for social and 
economic outcomes. These systems will improve scientific estimates of 
overfishing levels and reduce scientific uncertainty in setting total 
allowable catches. As a result of having more precise scientific data, 
further increases in allowable biological catches are possible.
    Additional investments are required to foster fish recruitment and 
survival as well as a broader understanding of the ecosystem within 
which fisheries reside. This budget includes $23.8 million for the 
Community-based Restoration Program to focus on larger-scale projects 
aimed at threatened and endangered species. These funds will restore 
coastal and estuarine habitat and remove barriers to fish passage that 
will benefit numerous species by providing increased nursery, shelter, 
and foraging habitat. Additional benefits include the provision of 
storm protection from flooding and storm surge and recreational 
opportunities. Integrated Ecosystem Assessments (IEA) are a tool to 
assess social, economic, and natural science data and predict the 
outcome of management choices. In FY 2011 NOAA is requesting $7.5 
million for IEAs. The resulting ecosystem models will provide a broader 
understanding of ecosystem linkages, provide forecasts of ecosystem 
conditions which affect fisheries, and allow decisionmakers to more 
readily adapt to changing conditions such as climate change.
    The foundation of fisheries science and management is data 
collection. In additional to the data collection elements of the 
National Catch Share Program, NOAA continues to invest in the 
recapitalization and maintenance of its fleet of fisheries survey 
vessels. The FY 2011 Budget includes $23.4 million to reduce deferred 
maintenance to ensure ships meet mission requirements and performance 
targets. It also includes funding for FSV6, which will replace David 
Starr Jordan to conduct surveys for fish, marine mammals and turtles 
off the U.S. West Coast and in the eastern tropical Pacific Ocean.

    Question 3. Can you please explain your plan to further promote 
cooperative research and how the money in the national catch shares 
fund will be used to improve scientific data and management of our 
Nation's fisheries?
    Answer. The FY 2011 Budget includes a total of $13.1 million for 
cooperative research. The $6 million in the Catch Shares line item 
dedicated to cooperative research will be focused on enhanced stock 
monitoring and conservation engineering (including technology transfer) 
to support the transition to sectors and annual catch limits in the 
Northeast. Funding priority will be given to:

  <bullet> Fisheries currently managed under a catch share program or 
        fisheries which are transitioning into catch share management;

  <bullet> Fisheries with interaction with fisheries under catch share 
        management or in transition to catch share management; and

  <bullet> Fisheries with significant data gaps for annual catch 
        limits.

    Much of the $54 million request in FY 2011 to enhance the 
implementation of catch shares nationwide will be used to improve 
scientific data and management of our Nation's fisheries. While none of 
the $54 million will be used directly for conducting stock assessments, 
of the $36.6 million increase, $25.6 million is requested for data 
collection, including observing and monitoring. In many cases, the 
resulting data will be incorporated into current and future stock 
assessments.
    Under catch shares, the quality and quantity of fishery data 
improves significantly via new catch accounting, monitoring and 
compliance systems, as well as improved tracking systems for social and 
economic outcomes. These tools will improve scientific estimates of 
overfishing levels and reduce scientific uncertainty in setting total 
allowable catches. As a result of having more precise scientific data, 
further increases in allowable biological catches are possible. For 
these reasons, NOAA encourages the consideration of more catch share 
programs. That said, catch share programs are not the best strategy for 
every fishery or sector and NOAA's policy does not in any way mandate 
the use of this management strategy.

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Dr. Jane Lubchenco

    Question 1. Does the NPOESS restructuring give NOAA the opportunity 
to obtain needed climate and weather measurements from both small and 
mid-sized spacecraft, instead of large platforms, as well as to use the 
innovative commercial approaches NOAA has been talking about the past 2 
years to obtain future measurement data?
    Answer. Yes. The NPOESS restructuring provides NOAA the flexibility 
to pursue spacecraft buses that address mission requirements for 
reliability and continuity. NOAA has been studying options that will 
feed into Joint Polar Satellite System concepts to support climate 
continuity. These options also include commercial partnerships.

    Question 2. Please describe how NOAA and NASA will share 
responsibility / authority / decision-making on JPSS, and indicate how 
soon you will move forward with a spacecraft procurement?
    Answer. NOAA maintains overall responsibility for developing, 
funding, and implementing the Joint Polar Satellite System (JPSS) 
program. NOAA will provide strategic guidance to the National 
Aeronautics and Space Administration (NASA) regarding system 
requirements, budget and planning, constellation architecture, and 
launch dates. NOAA will lead JPSS interactions and negotiations with 
DOD as they develop their plan for meeting the observational 
requirements in the early morning orbit. NOAA will lead the discussions 
with international partners such as EUMETSAT, JAXA, and Centre National 
d'Etudes Spatiales (French Space Agency) on potential JPSS related 
activities.
    NASA's Goddard Space Flight Center will procure the JPSS on behalf 
of NOAA on a reimbursable basis. NASA will manage the acquisition phase 
of the JPSS program in accordance with NASA Policy Directive 1000.5, 
which provides the overall policy framework of NASA's disciplined, 
comprehensive strategic acquisition process. NASA will use the 
governance model defined in the NASA Procedural Requirements 7120.5, 
which establishes the requirements by which NASA will formulate and 
implement space flight programs and projects. Modifications to these 
requirements due to the unique nature of the JPSS program will be 
documented in a Management Control Plan jointly established between 
NASA and NOAA, providing a stable set of processes and procedures for 
the JPSS program.
    In June 2010, NOAA announced its decision to procure an NPP-like 
spacecraft bus for JPSS-1. No decision regarding JPSS-2 has been made. 
DOD plans to utilize the NPOESS prime contract with Northrop Grumman 
Aerospace Systems to procure the spacecraft to support their Defense 
Weather Satellite System.
    Most importantly, NOAA is working closely with NASA and DOD to 
minimize the likelihood of a gap in polar satellite coverage, 
particularly in the afternoon orbit, which is crucial for monitoring 
climate change and its many impacts. During the transition phase, it is 
critical to preserve the President's request for FY 2010 and FY 2011 
funds to ensure there is no disruption to the program.

    Question 3. Ocean Acidification is a growing concern to Alaska's 
Commercial Fishing Industry. Acidification has been shown to be 
greatest in the high latitudes. Will the FY 2011 Budget enhance Ocean 
Acidification research and monitoring in Alaska waters?
    Answer. The FY 2011 President's Budget requests $11.6 million for 
research on ocean acidification, including an increase of $6.1 million. 
NOAA requests this additional funding to implement an integrated ocean 
acidification initiative with research and long-term monitoring of 
ocean acidification for assessing climate change impacts on living 
marine resources. With this funding, FY 2011 efforts will be directed 
to:

  <bullet> Assess the effects of ocean acidification on commercial fish 
        species and the greater ecosystems on which they rely;

  <bullet> Develop and provide sensors to monitor ocean acidification 
        both for fixed platforms and for mobile use by researchers and 
        coastal managers in the field;

  <bullet> Determine and monitor the status and potential effects of 
        ocean acidification on coral reefs; and

  <bullet> Expand carbonate analytical capabilities at NOAA's science 
        centers in order to meet the growing demand for quality control 
        on samples being collected both in the field from U.S. waters 
        and from researchers studying the impacts of ocean 
        acidification on critical species through laboratory 
        experiments.

    The increase will complement, accelerate, and enhance current NOAA 
ocean acidification activities within the Office of Oceanic and 
Atmospheric Research, the National Ocean Service, and the National 
Marine Fisheries Service (NMFS). In FY 2010, $680,000 of NOAA's 
appropriation for ocean acidification monitoring and response research 
supported activities in Alaska. The requested $6.1 million increase 
will support both the funding of research competed through a national, 
peer review process open to all scientific researchers and research 
conducted internally thought NOAA's regional fisheries science centers. 
In the case of the latter, proposals for those activities will undergo 
a rigorous internal scientific review process.

    Question 4. When will Congress be briefed on the pending NRC OA 
report?
    Answer. The National Research Council (NRC) of the National Academy 
of Sciences released the study Ocean Acidification: A National Strategy 
to Meet the Challenges of a Changing in April 2010. NOAA understands 
that the National Academies Ocean Studies Board Committee on the 
Development of an Integrated Science Strategy for Ocean Acidification 
Monitoring, Research, and Impacts Assessment held a series of briefings 
for Congress on the summary of the full report in April of 2010. NOAA 
integrated NRC findings, as appropriate, into the NOAA Ocean 
Acidification Research Implementation Plan, which was completed in 
April 2010.

    Question 5. NOAA proposes a substantive consolidation of its 
Climate Research and Services programs into a single organization. 
However, NOAA's FY 2011 budget submission does not consolidate funding 
for the new NOAA Climate Service.Would NOAA look favorably on a 
Congress effort to consolidate NOAA's NCS budget into a separate budget 
account in FY 2011?

    Question 6. Is there sufficient budget detail for Congress to 
consolidate this funding into a new Line Office account?
    Answer (5 and 6): The Administration is working on a reprogramming 
package request that will be submitted to Congress as soon as possible. 
The package will include details on the laboratories, centers, and 
divisions that would be transferred from other line offices to form the 
new NOAA Climate Service, and details on the annual operating budgets 
for these programs and the number of full-time NOAA employees to be 
transferred to the Climate Service. NOAA looks forward to working with 
Congress to establish the NOAA Climate Service in the most efficient, 
effective, and streamlined manner possible to ensure all Americans have 
the climate information, products and services they need to make the 
best decisions for their families, communities and businesses. NOAA 
will continue to consult with all relevant and appropriate external 
partners, Congress, and the Administration as it develops and submits 
this package and works toward implementation.

    Question 7. The FY 2011 NOAA budget appears to contain an increased 
emphasis in the Arctic. Can you be more specific about NOAA's proposed 
investments for Arctic research and monitoring in FY 2011?
    Answer. The FY 2011 President's Budget requests $16.5 million to 
support major NOAA Arctic-focused research and conservation, including 
a $4.3 million increase to support enhanced Alaskan and Arctic 
Observations. This amount does not represent all of NOAA's efforts in 
the Arctic region. Strengthening Arctic science and stewardship is one 
of NOAA's top priorities. The FY 2011 Budget Request will help advance 
NOAA's efforts in Arctic research and conservation to improve our 
understanding of changing climate and environmental conditions and will 
inform policy options and management responses regarding the unique 
challenges in the Arctic region.
    The requested FY 2011 funding will also continue support for multi-
beam survey operations to define the U.S. Extended Continental Shelf 
and support efforts to understand rapid climate change in the Arctic 
Ocean through the Russian-American Long-term Census of the Arctic 
Program; conservation and management of whales in the Arctic; and 
investigation of the more-rapid-than-expected melting of Arctic sea ice 
and ice sheets.
    NOAA's funding for the U.S. Climate Reference Network (USCRN) and 
the U.S. National Ice Center, which supports safe ship navigation in 
polar regions also contributes to NOAA's efforts in the Arctic.
    Specifically, within the NOAA Office of Oceanic and Atmospheric 
Research, the FY 2011 request will support:

  <bullet> Enhanced Alaskan and Arctic observations--new sensors will 
        be installed to provide new data relevant to Greenland ice 
        sheet melting, improve forecasts of sea ice in the area 
        offshore of Alaska; and improve understanding of global ocean 
        circulation and warming of the Arctic Ocean.

  <bullet> Modeling/analysis and data management--data collected 
        through the above activities will be analyzed to improve 
        understanding of Arctic climate processes and models will be 
        developed or improved to reflect the new understanding.

  <bullet> Expansion of climate forcing measurements at Arctic 
        Observatories.

  <bullet> Expansion of black carbon measurements in the Arctic.

  <bullet> Interagency efforts to define the U.S. Extended Continental 
        Shelf using the USCG icebreaker Healy.

  <bullet> The Russian-American Long-term Census of the Arctic 
        (RUSALCA) Program addressing the causes and consequences of 
        rapid climate change in the Pacific Region of the Arctic Ocean 
        (Arctic Observing Network Pilot programs).

  <bullet> Arctic Atmospheric-Climate Observatory Development in Tiksi, 
        Russia And Eureka, Canada.

  <bullet> In situ observations of sea ice variability in the Arctic 
        Ocean.

  <bullet> Continuation of approximately 200 different observations of 
        atmospheric parameters and climate forcing agents from the 
        Barrow, Alaska, Atmospheric Baseline Observatory.

  <bullet> Cooperative Institute support in Alaska.

  <bullet> Atmospheric Observatories and Field Campaigns.

  <bullet> Stratospheric Ozone Depletion Observations.

  <bullet> Continuous aerosol and black carbon measurements at four 
        Arctic locations.

    Within the National Marine Fisheries Service, the FY 2011 
President's budget request specifically supports:

  <bullet> Mammals: Alaska Eskimo Whaling Commission--This program 
        provides a grant to the Alaska Eskimo Whaling Commission which 
        represents whaling communities and coordinates with agencies 
        responsible for the management of subsistence whaling. The 
        Commission works cooperatively with the International Whaling 
        Commission and NOAA to undertake research and educational 
        activities related to bowhead whales and protect and enhance 
        the Eskimo culture, traditions, and activities associated with 
        bowhead whales and subsistence bowhead whaling.

  <bullet> Mammals: Beluga Whale Committee--This cooperative agreement 
        provides research essential to the conservation and informed 
        management of beluga whales, and involves Native subsistence 
        hunters in the management of this resource. These funds support 
        aerial surveys of beluga whales in the Chukchi Sea/Kotzebue 
        areas; contaminant and stock identification studies; and 
        satellite tag studies of whale migration.

  <bullet> Mammals: Bowhead Whale Spatial Studies--This program 
        provides grants to Alaska Native Marine Mammal Co-management 
        organizations to support continued data collection to describe 
        the population structure within the Bering-Chukchi-Beaufort Sea 
        stock of bowhead whales.

  <bullet> Other Activities Supporting Fisheries: Climate Regimes and 
        Ecosystem Productivity--NOAA's North Pacific Climate Regimes 
        and Ecosystem Productivity (NPCREP) project focuses on the 
        impacts of changing climate conditions on the growth, survival, 
        and recruitment of Alaska's finfish and shellfish populations, 
        primarily in the Bering Sea. This project conducts 
        retrospective, monitoring, process and modeling studies to 
        advance the understanding of climate impacts on regional 
        fisheries. NOAA will also assess how changes in the 
        distribution of seasonal sea ice are affecting the 
        distributions of economically important fish and shellfish and 
        ice-dependent marine mammals.

    Within the National Environmental Satellite, Data, and Information 
Service, the FY 2011 Budget specifically supports:

  <bullet> The National Ice Center provides global sea ice analyses, 
        forecasts, outlooks and ship routing recommendations within the 
        marginal sea ice zone of all Arctic and Antarctic seas.

  <bullet> USCRN climate observations are used in coordination with 
        other measurements such as soil moisture/temperature and 
        permafrost conditions (thaw--CO<INF>2</INF>/GHGs) for a range 
        of climate research activities in the Arctic region to better 
        define and monitor climate trends and changes.

    Question 8. The OIG Report workforce analysis indicates Alaska has 
12 of only 15 uniformed officers employed by NOAA. Why does Alaska have 
80 percent of all uniformed officers employed by NOAA Fisheries 
Enforcement?
    Answer. The current number of enforcement officers within the 
Office of Law Enforcement is 18. There are 12 in the Alaska Division, 2 
in the Southeast Division, 2 in the Southwest Division and 2 in the 
Pacific Islands Division. The primary reason that there are more 
enforcement officers in Alaska is because they were originally hired 
for the purpose of providing enforcement services in support of the 
individual fishing quota (IFQ) program in Alaska. The structure of the 
regulations associated with the IFQ program requires the existence of a 
patrol and inspections program that is best staffed through the 
enforcement officer position. The IFQ program created the need for 
personnel to respond more frequently and routinely to check vessel 
offloads and their associated records. This program was initiated in 
the early 1990s. To assure a dockside patrol presence that will have a 
meaningful deterrent value, there must be a strong expectation that 
arriving vessels may be inspected. The IFQ program is conducive to the 
use of enforcement officers because the designation of specific ports 
where off loads may occur and advance notice of arrival requirements 
are a key part of the IFQ programs. In other areas without such 
requirements, the quantity of officers needed to assure coverage for 
the numerous ports and coastal areas where many of the other fisheries 
will off load has been somewhat impractical.
    The agency did not expand the use of the IFQ programs into other 
fisheries and nationally because of a moratorium on their use as well 
as other reasons beyond the scope of enforcement related issues. 
However, in recent years the use of such programs has been expanded, 
though now known more commonly as ``catch share'' programs; such 
programs have now generated the functional need for the staffing of 
additional enforcement officers. The expanded use of enforcement 
officers is one of the key areas that NOAA will be evaluating as a 
strong potential for use as part of the workforce analysis to be 
conducted in response to the January 2010 report of the Department of 
Commerce's Office of Inspector General.

    Question 9. The FY 2011 NOAA budget requests $6.8M to support a 
Marine Spatial Planning and another $20M to support Regional 
Partnerships related to Ocean Policy Taskforce principals and goals. 
How might this newly requested funding to support Ocean Policy 
Taskforce initiatives assist Alaska in moving forward on OCS 
development?
    Answer. The funds will contribute to building a more comprehensive 
understanding of ocean ecosystems and their uses in the Exclusive 
Economic Zone in Alaska and elsewhere--critical information required 
for making leasing decisions. Coastal and marine spatial planning 
funding will also support a transparent and collaborative public 
planning process that may result in a more streamlined path for 
permitting many ocean uses, including OCS development in Alaska.

    Question 10. NOAA's National Geodetic Survey (NOAA) has concluded 
Alaska lacks basic geodetic and spatial references. Shoreline on maps 
have horizontal errors greater than a mile and most mountains have 
vertical errors of 300'. As you move into Alaska's waters, we know more 
about the bathymetry off the coast of Somalia than Alaska. Spatial 
Planning for Alaska starts with getting basic charting and mapping 
fixed. Please describe where these backbone investments fit into NOAA's 
FY 2011 funding priorities.
    Answer. In NOAA's estimation, much of Alaska does indeed lack the 
basic geodetic and geospatial frameworks that are available to the rest 
of the Nation and are critical for safe navigation, coastal and marine 
spatial planning, climate change assessments and many other management 
activities. NOAA has been working intensively over the past 15 years to 
improve Alaska's geospatial framework through such activities as the 
surveying and charting of Alaskan waters, improving the foundational 
geodetic and tidal datum reference systems, and updating tidal current 
predictions. Demand for NOAA's navigation products and services is 
rising as human activity in the Arctic increases, especially now that 
climate change is impacting communities and economic decisions, and 
interest in the Arctic and areas north of the Aleutians is increasing. 
As a result, NOAA is currently reviewing Arctic priorities and 
developing a strategic plan for action in the Arctic in all its area 
responsibilities. However, NOAA's Navigation Services (Office of Coast 
Survey, National Geodetic Survey, Center for Operational Oceanographic 
Products and Services) have already been working closely together to 
effectively coordinate their activities to help establish or upgrade 
the fundamental geospatial information required to implement the 
strategic plan.
    As part of NOAA's review of Arctic priorities, the NOAA Office of 
Coast Survey is updating its Arctic hydrographic survey priority areas 
with input from constituents such as Arctic communities, regional 
governments, local pilots and commercial maritime interests, and the 
U.S. Coast Guard, Navy, and Army Corps of Engineers. The NOAA survey 
vessel Fairweather is nearing completion of FY 2010 survey projects in 
the Bering Strait and Port Clarence approaches, and will continue 
surveying the same region in FY 2011, in order to address key areas of 
interest to the U.S. Navy and commercial navigation. One FY 2010 NOAA 
contract hydrographic survey project in the Kuskokwim River, including 
the port of Bethel, AK, is also nearing completion; another FY 2010 
contract survey in the Krenitzin Islands, which are adjacent to Unimak 
Pass as part of the Aleutian Islands chain, is complete.
    Also in FY 2010 and FY 2011, NOAA's National Geodetic Survey (NGS) 
is focusing on GRAVD gravity data collection flights in Alaska. So far 
in 2010, NOAA has added over 30 Continuously Operating Reference 
Stations (CORS) to improve the infrastructure for precise positioning 
in Alaska (map of CORS in Alaska: www.ngs.noaa.gov/CORS/GoogleMap/
Alaska.html). These 30 CORS are owned and operated by the Plate 
Boundary Observatory as funded by the National Science Foundation. They 
were selected for inclusion in the CORS network because of their 
homogeneous distribution and expected reliability in the harsh Alaskan 
environment. NOAA's nationwide CORS network consists of over 1,400 
stations that continuously collect radio signals broadcast from Global 
Positioning System satellites to allow users to determine precise 
positional coordinates relative to the National Spatial Reference 
System. NGS has been very effective in the past at establishing 
successful partnerships to collect gravity data.
    The Center for Operational Oceanographic Products and Services (CO-
OPS) continues to address large gaps or update very old data in 
Alaska's tide and current information. CO-OPS operates 26 long-term 
National Water Level Observation Network (NWLON) Stations, 10 of which 
have been established in the last 5 years (in Alaska). The NWLON 
provides basic tidal datums (including local mean sea level) for 
vertical control for hydrographic and shoreline surveys, marine 
boundaries, and other applications. The NWLON also provides real time 
data for safe navigation, emergency response to oil and other hazardous 
spills, and tsunami and storm surge warnings. CO-OPS has been testing 
new technology in FY 2010 to explore new ways of acquiring long-term 
observations in these remote areas and is completing a two-year test in 
Barrow, AK. CO-OPS has also been conducting tidal current surveys in 
Alaskan waters to update tidal current predictions. Tidal current 
surveys for the Dutch Harbor and North Inian Pass regions will be 
conducted this year.

    Question 11. NOAA's response to MMS's Leasing Proposal (Sept 21, 
2009 Outer Continental Shelf Oil and Gas Leasing Program for 2010-2015) 
recommends, ``. . . that no leasing should occur in the Arctic Sea 
under this proposed plan until additional information is gathered and 
additional research is conducted and evaluated regarding oil spills . . 
.'' I hope you can appreciate the Catch 22 Alaska finds itself in, NOAA 
is a leader in oil spill research, NOAA recommends no leasing in the 
Arctic until oil spill research is conducted, and NOAA is not 
supporting the basic science they state is a precondition for 
responsible exploration in Alaska's OCS. If Congress increases funding 
to support oil spill research in the FY 2011 appropriations process, is 
NOAA the appropriate agency to place the increase?
    Answer. NOAA has experience in working collaboratively across the 
Federal Government and academia to prioritize and coordinate oil spill 
response and restoration research and development that meets the needs 
of diverse decisionmakers, including emergency responders, natural 
resource trustees, and coastal planners. As a science agency, NOAA has 
tremendous experience in conducting focused, transparent, and objective 
research and is well qualified to provide leadership in oil spill 
research. NOAA currently plays a critical role by providing scientific 
expertise and decisions in oil spill preparedness, response, assessment 
and restoration.

    Question 12. The FY 2011 NOAA budget proposes $3M for ESA Section 7 
Consultations. NOAA has proposed to designate 3,000 sq miles as Cook 
Inlet beluga whale Critical Habitat in an area that directly overlaps 
Alaska's highest population center. This is going to create a 
significant burden and cost to the agency to perform these 
Consultations. Should we expect that some of this new funding will make 
its way to the Alaska, where these Consultations are conducted?
    Answer. NOAA has identified Alaska as a key area requiring 
additional resources for Endangered Species Act Section 7 
consultations. An increased need for interagency consultation and 
authorizations is evidenced by proposed regional energy exploration and 
development, anticipated increases in vessel traffic in the Arctic, 
national defense-related activities, and coastal economic development 
within the Cook Inlet. NOAA recognizes the need to provide timely and 
accurate technical assistance to Federal partners to assess the effects 
of planned economic development to ensure such development is 
compatible with species conservation and recovery of protected 
resources, including Cook Inlet beluga whales, pursuant to the agency's 
responsibilities under the Endangered Species Act.

    Question 13. In a June 10, 2009 letter sent to NOAA from the Alaska 
Congressional Delegation we requested the agency undertake a 
programmatic and budget review of Alaska Native Organizations (ANOs) 
that receive co-management support under MMPA Section 119. 
Additionally, the delegation requested the agency, working with the 
ANOs, developing a new process for allocating limited funding. Does the 
FY 2011 NOAA budget take this into account?
    Answer. Yes, the FY 2011 budget request includes a total of $1.7 
million for Alaska Native co-management agreements. In the summer of 
2009, representatives from NOAA's National Marine Fisheries Service 
(NMFS), the U.S. Fish and Wildlife Service (FWS), and the Alaska Native 
community, met with congressional staff to discuss the future support 
for Alaska Native Organizations (ANO) activities under the Marine 
Mammal Protection Act (MMPA) section 119. Subsequently, members of the 
Alaska Congressional delegation wrote a letter to Under Secretary Jane 
Lubchenco in June 2009, requesting that NMFS develop, in collaboration 
with FWS and ANOs, a new system based upon accepted Federal granting 
procedures, to allocate limited funds for MMPA section 119. In August 
2009, Dr. Lubchenco agreed that such a new system was necessary and 
noted that the NMFS Alaska Region would take the lead for NMFS 
activities in the endeavor. Regional staff continue to work to further 
develop the funding process and priorities for this funding and will 
contact eligible ANOs on procedures to apply for these funds when the 
process and priorities are agreed upon. NMFS anticipates that the 
funding system established will serve as a model for a merit- and 
performance-base funding system that will guide the allocation of the 
FY 2011 funds.

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. Jane Lubchenco

    Question 1. The Administration's FY 2011 budget for NOAA is the 
highest ever for the agency, coming in at $5.55 billion--a 17 percent 
increase over the enacted level. But upon closer examination, what we 
have is really a massive increase in funding for one line office--
NOAA's Satellite service--and a flat budget for the remaining line 
offices. The National Marine Fisheries Service and the National Ocean 
Service actually combine to show a funding decrease of more than $40 
million in this request. How will this budget request fund the 
President's proposal to develop a National Ocean Policy, when it is 
effectively flat-funding ocean programs? How are we to interpret the 
loss of funding to the Nation's preeminent ocean organization in the 
context of the administration's declaration that oceans are an 
interagency priority?
    Answer. The 17 percent increase of the FY 2011 budget request over 
the FY 2010 enacted level addresses NOAA's budget priorities which are 
established after careful consideration of the key issues facing the 
Nation that fall under NOAA's purview. Oceans and support of the 
President's proposal to develop a National Ocean Policy are top 
priorities for NOAA and this is reflected in the contribution of all of 
our line offices, including satellites, to understanding the role of 
oceans, coasts, and atmosphere through science, service, and 
stewardship.
    NOAA's National Ocean Service FY 2011 budget request provides key 
investments to promote sustainable, safe use of coastal and ocean areas 
and to support the economies of these regions. The FY 2011 budget 
request includes an increase of $20 million to support regional ocean 
partnership grants and an additional $10 million to support the 
acquisition and protection of coastal and estuarine lands. A further 
$9.5 million is provided for the development of marine sensors for 
detecting ocean changes, along with $6.8 million for coastal and marine 
spatial planning efforts.
    NOAA's National Marine Fisheries Service FY 2011 budget request 
supports NOAA and the Administration's efforts to conserve, protect, 
and manage living marine resources. FY 2011 programs seek to transform 
fisheries management and restore ocean ecosystems to a healthy state 
while recognizing the importance of coastal jobs. NOAA proposes an 
additional $36.6 million to implement and expand catch share programs, 
$20 million extra to address listed and threatened species through the 
Species Recovery Grant Program and Community Based Restoration 
projects, and an increase of $15 million is requested for the Pacific 
Coastal Salmon Recovery Fund.

    Question 2. Satellite programs, particularly the polar-orbiting 
environmental satellites, have been a drain on NOAA's resources almost 
since the inception of the NPOESS program in 2006. Now, 5 years later, 
NPOESS has experienced 87 percent cost growth--a total of $8 billion--
and is already 5 years behind schedule. Yet I understand that in order 
to bail ourselves out of the mess that has been created will require 
potentially hundreds of millions of dollars in termination and transfer 
costs over fiscal years 2010 and 2011, and that this cost is to be 
equally divided between DOD and NOAA. That amount of money represents 
very different things to those two agencies--DOD's budget for FY11 is 
$708.2 billion, more than 128 times greater than NOAA's. How will you 
ensure that DOD negotiators take your needs into consideration when 
settling on termination costs with the current contractor?
    Answer. The Department of Defense (DOD), National Aeronautics and 
Space Administration (NASA) and NOAA have formed a transition team to 
implement the February 1, 2010 decision to restructure the NPOESS 
program in a smooth and cost effective manner. The first order of 
business in the transition has been to make plans to use the existing 
NPOESS investments, most of which will be important to the future DOD 
and NOAA programs. In June 2010, NOAA announced that it will use an 
NPP-clone spacecraft for the JPSS-1 satellite which will fly in the 
afternoon orbit. A decision on the spacecraft bus for JPSS-2 is 
expected to occur later in 2010.
    On August 13, 2010, DOD announced that it will restructure the 
existing NPOESS contract to meet its needs to develop the Defense 
Weather Satellite System (DWSS). During the transition period since the 
February 1 announcement, NOAA and NASA have been identifying the 
portions of the NPOESS program, such as instruments and ground systems, 
that it requires for the JPSS program and have provided these needs to 
DOD. DOD will represent NOAA and NASA in its negotiations with the 
NPOESS prime contractor. DOD is working toward transfer of the required 
hardware and available data from NPOESS to JPSS, with a goal of 
completion by December 31, 2010, and will be negotiating the terms 
under which the contractor will support development of the DOD DWSS. 
NOAA, NASA, and DOD will continue to collaborate at senior levels 
during the negotiations.

    Question 2a. NOAA's share of this money will have to come out of 
current programs in FY 2010. How will you determine what programs will 
take funding cuts to account for this unfunded cost? Is there funding 
built into the FY 2011 budget for termination and transfers?
    Answer. NOAA notified the Committees on Appropriations of its 
intent to reprogram $73.8 million of unobligated funds from its NPOESS 
appropriation ($382.2 million) to fund Joint Polar Satellite System 
(JPSS) transition activities in FY 2010, and on May 18, 2010 this 
reprogramming was approved. No other NOAA programs experienced a 
funding cut as a result of the JPSS decision.
    The Limitation of Funds clause on the Northrop Grumman contract 
requires NPOESS to obligate termination liability on contract each 
Fiscal Year. Funds to support termination liability are available in FY 
2010 to support these activities, if needed. It is possible some 
termination and settlement costs can carry into FY 2011 and FY 2012. 
The termination costs are currently under review by the Department of 
Defense (DOD), and NOAA will be responsible for one-half of these 
costs.
    Negotiations regarding restructuring the NPOESS contract are being 
led by DOD on behalf of the government. Termination and settlement 
costs are highly dependent on the path forward, as well as the 
government's ability to maintain strict control on its negotiating 
position. NOAA and NASA have identified the portions of the NPOESS 
program, such as instruments and ground systems, that it requires for 
the JPSS program and have provided these needs to DOD. DOD will 
represent NOAA and NASA in its negotiations with the NPOESS prime 
contractor. DOD is working toward transfer of the required hardware and 
available data from NPOESS to JPSS, with a goal of completion by 
December 31, 2010. Until the negotiations are finalized, NOAA will 
retain funds in the JPSS budget to cover any remaining settlement 
costs.

    Question 2b. I understand that there have been some delays in full 
sign-off on this strategy from DOD. Do NOAA and DOD leadership see eye-
to-eye on the termination of this program?
    Answer. NOAA and NASA, and DOD have been collaborating and 
implementing the decision to restructure the NPOESS program in an 
expeditious manner. On August 13, 2010, DOD announced that it will 
restructure the existing NPOESS contract to meet its needs to develop 
the Defense Weather Satellite System (DWSS). During the transition 
period since the February 1, 2010 announcement, NOAA and NASA have been 
identifying the portions of the NPOESS program, such as instruments and 
ground systems, that it requires for the JPSS program and have provided 
these needs to DOD. DOD will represent NOAA and NASA in its 
negotiations with the NPOESS prime contractor.

    Question 3. I know that you are aware of the urgent need to repair 
the dysfunctional relationship between fishermen, regulators, and 
scientists in the northeast region. A 2009 Inspector General report 
pointed to serious communication issues that existed in this region, 
and Mr. Zinser's 2010 report stated that ``moderate'' progress had been 
made in this regard, but I continue to hear from many fishermen that 
the relationship is no better. Part of this is attributable to new 
Magnuson requirements that force regulators to adhere more closely to 
fisheries science--science that is still drastically underfunded and, 
by scientists' own estimation, insufficient for the task at hand. What 
is your assessment of progress in this area? Do you feel the 
relationship between fishermen and regulators has improved since you 
were last before this committee? What programs have led to that 
improvement, and what additional steps will you take to continue to 
repair this relationship?
    Answer. Repairing trust between the agency and the regulated 
community is a huge challenge but I believe we are making progress. 
Better communication is the first step at building trust and we are 
working to better explain our science and strengthen our engagement 
with constituents on the local, regional and national scale. Two 
summits, one on recreational fishing (April 16 and 17, 2010) and one on 
enforcement (August 3, 2010), exemplify our commitment to work with 
fishermen, the environmental community, and the public to discuss ways 
we can address some of the concerns that have been expressed. Eric 
Schwaab, the Assistant Administrator for Fisheries, and I have 
personally participated in numerous meetings to directly engage our 
constituents all around the country and we look forward to continuing 
that dialogue.
    Below are additional steps NOAA has taken to address recommendation 
#1 in the February 2009 report developed by the Department of 
Commerce's Office of the Inspector General. This specific 
recommendation (to enhance the participation of the northeast 
groundfish industry in the fisheries management process) to the 
Northeast Fisheries Science Center had four parts.
    Recommendation #1(a) was for NMFS to enhance the participation of 
the northeast groundfish industry in the fisheries management process 
by incorporating data from scientifically rigorous industry-based 
surveys (such as the industry-based surveys in the sea scallop and 
monkfish industries). To address this recommendation, the Northeast 
Fisheries Science Center worked with industry to ensure that data 
collected by industry vessels in the Northeast Area Monitoring and 
Assessment Program (NEAMAP) Nearshore Trawl Survey and the Maine-New 
Hampshire Groundfish Trawl survey were scientifically rigorous and used 
in fishery management. NEAMAP and Maine-NH surveys are now being 
conducted twice per year and complement the Northeast Fisheries Science 
Center's bottom trawl surveys to include coastal waters too shallow for 
the NOAA's fishery survey vessel, Henry B. Bigelow, to sample.
    To further address recommendation #1(a), the Northeast Fisheries 
Science Center completed work on an electronic logbook system developed 
through its Northeast Cooperative Research Program and deployed this 
tool for field testing. Data gathered by this system can greatly 
enhance scientific and research applications as well as our ability to 
support the complex monitoring requirements for implementing annual 
catch limits, accountability measures, limited access programs, and 
special access programs.
    Recommendation #1(b) was for NMFS to enhance the participation of 
the northeast groundfish industry in the fisheries management process 
by doing more targeted cooperative research with the groundfish 
industry. To address this recommendation, the Northeast Fisheries 
Science Center's Northeast Cooperative Research Program worked with the 
industry and the Gulf of Maine Research Institute to identify research 
priorities to support strategic planning efforts for 2010-2014. More 
than 70 scientists and fishermen attended workshops held between 
February 12, 2009, and March 6, 2009, in Galloway, NJ, Narragansett, 
RI, Portland, ME, and at the Maine Fishermen's Forum in Rockport, ME. 
Stakeholder comments were summarized and discussed within the 
Cooperative Research Coordinating Committee (senior staff from the 
Northeast Fisheries Science Center, Northeast Regional Office, New 
England Fishery Management Council, Mid-Atlantic Fishery Management 
Council, and the Atlantic States Marine Fisheries Commission). The 
strategic plan was completed and presented to the Northeast Regional 
Coordinating Committee in March 2009.
    To further address recommendation #1(b), the Northeast Fisheries 
Science Center developed an operational field testing-technology 
transfer program with the Southern New England groundfish fleet that 
will expand use of successfully tested selective haddock trawl designs 
that have reduced flounder bycatch.
    Recommendation #1(c) was for NMFS to enhance the participation of 
the northeast groundfish industry in the fisheries management process 
by improving communication and education efforts with the groundfish 
industry, including making the Northeast Fisheries Science Center 
website more user-friendly and easier to navigate.
    To address this recommendation, the Northeast Fisheries Science 
Center supports and participates in the Marine Research Education 
Program (MREP), offered through the Gulf of Maine Research Institute. 
This is an effective communication forum between fishermen, scientists, 
and managers. Both the Northeast Fisheries Science Center and the NMFS 
Northeast Regional Office provide instructors for all Marine Research 
Education Program sessions. The Northeast Fisheries Science Center 
Deputy Science and Research Director conducts the section ``The Role of 
Science in Management'' at each session. Instructors from the Northeast 
Fisheries Science Center played a pivotal role in the development and 
implementation of the second-tier workshop in this series ``MREP 200--
From F/V to R/V: Surveys, Data Collection, and the Stock Assessment 
Process'' in 2009. The first session of MREP 200 was held in Woods Hole 
in February 3-4, 2010. A session of MREP 100 was held this winter in 
Rhode Island and a spring session was held in Maine.
    To improve web-based information transfer, the Northeast Fisheries 
Science Center moved to hire a webmaster to work with center staff to 
better coordinate and present information on the Northeast Fisheries 
Science Center website on a continuing basis and has undertaken a 
redesign of the Northeast Fisheries Science Center public information 
portal that incorporates use of more types of digital media as well as 
some social media tools. Beta launch of the new portal is expected mid-
summer 2010 with deployment in fall 2010.
    To further address recommendation #1(c), during April 2009 the 
Northeast Fisheries Science Center and the NMFS Northeast Regional 
Office developed a two-year external communications strategic plan for 
stakeholders, media, and the public. Many aspects of this plan have 
been implemented, most notably a substantial effort for sector 
implementation in the Northeast groundfish fishery, increased 
participation in regional fishery and community trade shows and events, 
as well as increasing support for high school and undergraduate 
education.
    Recommendation #1(d) was for NMFS to enhance the participation of 
the northeast groundfish industry in the fisheries management process 
by highlighting creative efforts of groundfish industry members working 
toward sustainable, profitable local fisheries. To address this 
recommendation, NMFS initiated a guest editorial column from the acting 
NMFS Assistant Administrator in the community newspaper of Gloucester, 
Massachusetts. The column ran biweekly from March 2009 until December 
2009 and many of the columns featured local fishery and seafood 
leaders. The new NMFS Assistant Administrator, Eric Schwaab, was named 
in February 2010. The column will no longer be given exclusively to the 
Gloucester Daily Times, However, Mr. Schwaab will continue a monthly 
column that appears in the largest U.S. commercial fishing trade paper 
in circulation, National Fisherman. In addition, Mr. Schwaab plans to 
start a monthly Q & A piece for the magazine Sport Fishing.
    To further address recommendation #1(d), the Northeast Fisheries 
Science Center and the NMFS Northeast Regional Office are working to 
develop profile sections for newsletters and websites that can feature 
people and projects that demonstrate NOAA's work with partners and in 
communities. The 2009 issues of the newsletter Changing Tides included 
features on cooperative work to restore marshes, experimental fisheries 
to test gear rigged to reduce bycatch of cod and dogfish, grants to 
middle and high schools for marine education projects, and the 
cooperative research survey for monkfish.

    Question 4. NOAA's announcement that it would create a NOAA Climate 
Service as a new line office came after the President had released his 
budget request for FY 2011. Please provide more clarity on funding for 
this critical office. In a briefing to Congressional staff, you 
specified that no additional funding would be required to establish 
this office, yet you also announced creation of six new Regional 
Climate Service Director Positions, and you are currently in the 
process of hiring those individuals. How will you find resources to 
cover the costs affiliated with this new personnel and these new 
offices? Which programs will lose funding to these new offices? What 
other costs will be incurred in the startup in FY 2010 and 2011?
    Answer. As directed by the 2010 Consolidated Appropriations Act, 
the National Academy of Public Administration (NAPA) is conducting a 
study to explore organizational options for a NOAA Climate Service. 
NOAA is working closely with NAPA; and our ongoing dialogue and the 
results of this study will inform our final reprogramming package. NOAA 
and the Department of Commerce are working to finalize a reprogramming 
package for the climate service, and will need the approval of the 
Administration before the package is submitted to Congress. This 
package will include details on the laboratories, centers, and 
divisions that are proposed for transfer from other line offices to 
form the new NOAA Climate Service, and will include details on the 
annual operating budgets for these programs and the number of full-time 
NOAA employees to be transferred to the Climate Service. If approved, 
the reorganization laid out in the reprogramming proposal will 
establish the baseline budget for the NOAA Climate Service.
    NOAA will continue to consult with all relevant and appropriate 
external partners, Congress, and the Administration as it develops this 
package and works toward implementation. NOAA looks forward to 
continuing to work with Congress to establish the NOAA Climate Service 
in the most efficient, effective, and streamlined manner possible to 
ensure all Americans have the climate information, products, and 
services they need to make the best decisions for their families, 
communities, and businesses.
    While the details of the proposal are still under review, we 
envision the building blocks of the new NOAA Climate Service will be 
drawn from three existing NOAA line offices:

  <bullet> From NOAA's Office of Oceanic and Atmospheric Research: the 
        Geophysical Fluid Dynamics Laboratory; the Climate Program 
        Office; and from the Earth System Research Laboratory--Office 
        of the Director, the Chemical Sciences Division, the Global 
        Monitoring Division, and the Physical Sciences Division.

  <bullet> From NOAA's National Environmental Satellite, Data and 
        Information Service: the three data centers--the National 
        Climatic Data Center, the National Oceanographic Data Center, 
        and the National Geophysical Data Center, as well as the 
        Comprehensive Large Array-data Stewardship System Program 
        Office.

  <bullet> From NOAA's National Weather Service: the Climate Service 
        will assume management of the relevant climate observing 
        networks, including the Tropical Atmosphere Ocean array, the 
        Historical Climate Network, and the modernization of the hourly 
        precipitation gauges.

    NOAA will also hire six new regional climate services director 
positions in FY 2010. It is expected that these positions will not be 
filled until later in the Fiscal Year, incurring minimal costs in FY 
2010. These positions are being created with funding that became 
available as a result of the scheduled completion in FY 2010 of several 
ongoing projects. No programs will lose funding due to the 
establishment of these positions. In FY 2011, NOAA requested 
approximately $132 million in additional funding for a total of $435 
million to support climate related activities in NOAA, including these 
positions.

    Question 5. As our climate science program becomes increasingly 
advanced, the data certainly becomes more pertinent to our local 
communities and states. The fact is that our changing climate affects 
our water infrastructure, our transportation infrastructure, and our 
agriculture industries. Last year the University of Maine's report 
``Maine's Climate Future,'' indicated that the water temperature off of 
Boothbay Harbor has increased by 2 degrees Fahrenheit since 1970. As 
the Gulf of Maine drives $1 billion in annual economic activity, any 
change can have significant effects. Although the report certainly 
raises the case for significant steps forward on mitigation, there are 
also useful adaptation proposals such as increased monitoring of 
lobster populations, as well as a reassessment of current flood 
insurance programs. How do you envision a National Climate Service and 
reformed Global Change Research Program working with Universities like 
the University of Maine to build on this local research to provide the 
most pertinent data to specific industries, such as Maine Lobstermen 
and Fishermen?
    Answer. NOAA has a strong record of working closely with partners 
in Federal and state governments, academia and the private sector on 
climate research, data collection and dissemination and climate service 
provision. If approved, a NOAA Climate Service would be a comprehensive 
and integrated office responsible for NOAA's climate science, data, 
information and services. It would provide a one-stop shop within NOAA 
for users of climate information across the Nation in much the same way 
NOAA's National Weather Service has been providing weather information 
and services for 140 years.
    NOAA, with its partners, already has extensive regional climate 
capabilities. Coordinating and enhancing these regional science, 
service and delivery capabilities would be one of the most important 
outcomes of establishing a Climate Service at NOAA. NOAA's longstanding 
partnership with Regional Climate Centers (located at major research 
institutions), State Climatologists, and the university-based NOAA-
sponsored Regional Integrated Sciences and Assessments (RISA) program 
and Sectoral Applications Research Program (SARP) have significantly 
enhanced the provision of vital climate information to the Nation. NOAA 
recognizes the importance of these collaborations and plans for the 
NOAA Climate Service to strengthen and build upon our commitment to 
these critical partnerships.
    Any NOAA Climate Service organization must engage with a diversity 
of users at all levels to fully understand the needs and provide 
salient and usable information, tools, and expertise. Our vision is 
that a NOAA Climate Service would work with our to help support the 
following core climate services: ongoing, deliberate dialogue with 
users to understand evolving needs; climate tools and other products at 
scales relevant to support user decision-making; user outreach and 
capacity building; and public understanding.
    Early priorities for a NOAA Climate Service would include:

  <bullet> developing a sustained capacity to provide regional and 
        sectoral climate vulnerability and risk assessments, and more 
        effectively meet the requirements of the Global Change Research 
        Act, which requires a national assessment every 4 years;

  <bullet> Delineating a better coordinated, priority-driven regional 
        approach for improved regional climate service development and 
        delivery, based on sustained user engagement and collaboration; 
        and

  <bullet> improving alignment of climate observing and modeling assets 
        with strategic national and regional needs.

    Examples of existing partnerships with Maine follow:
    Specifically, the NOAA Northeast Regional Climate Center has been 
collaborating with and supporting University of Maine colleagues to:

  <bullet> support the Maine State Climate Office within the Maine 
        Climate Change Institute;

  <bullet> include a number of Maine locations in a decision support 
        tool for scheduling fungicide applications (to protect against 
        late-blight) in potatoes (work which recently began and builds 
        on work initiated in New York); and

  <bullet> work with the Maine Medical Center, which is affiliated with 
        the University of Maine, to focus on climate relationships to 
        tick populations with application to Lyme disease.\2\
---------------------------------------------------------------------------
    \2\ The results of this collaboration were published in: Rand, 
P.W., M.S. Holman, C. Lubelczyk, E.H. Lacombe, A.T. DeGaetano and R.P. 
Smith, 2004: Thermal accumulation and the early development of Ixodes 
scapularis, J. of Vector Ecology, 29(1), 164-176.

    In addition, NOAA's SARP is supporting a project with partners in 
Maine and Oregon called Climate Variability and Coastal Community 
Resilience: Testing a National Model of State-based Outreach. Working 
with public and private coastal development decisionmakers, this 
project will help several specific at-risk communities along the Oregon 
and Maine coasts to improve their resilience to climate variability and 
---------------------------------------------------------------------------
change.

    Question 5a. Do you envision providing funding for State 
Universities to do specific work, or will you only be providing funding 
to regional offices at NOAA to conduct the work?
    Answer. Our vision is that a NOAA Climate Service would maintain 
the agency's vigorous competitive climate research grants program 
targeting the broader academic community to address key research gaps 
in climate observations and monitoring; Earth system science; modeling, 
analysis, predictions and projections; and climate and societal 
impacts. NOAA's competitive climate research grants program is a key 
component of its climate research portfolio, complementing our in-house 
research capabilities. The RISA program also represents a strong 
university-based partnership that will continue to address key regional 
applied research priorities.

    Question 5b. The Administration's budget included an increase of 
$77 million for the climate services as well as an additional $10 
million for regional and national climate change assessments. How much 
do you believe is necessary on an annual basis to provide our 
communities the information that they require for accurate climate 
change planning in local infrastructure decisions?
    Answer. The FY 2011 President's Budget includes increases to NOAA's 
climate science programs totaling $132 million, which includes $47 
million that would support the following activities in the NOAA Climate 
Service:

  <bullet> $10 million for Assessment Services to establish a new 
        sustained capability within NOAA to provide climate assessments 
        process that will be more responsive to decisionmakers' needs 
        at national and regional scales. It will also provide the 
        capacity to engage stakeholders and decisionmakers throughout 
        the process in order to better determine priority issues, 
        risks, and vulnerabilities that need to be addressed.

  <bullet> $1.5 million for NOAA's Climate Portal to establish one-stop 
        public access to all of NOAA's climate data, information, and 
        services online;

  <bullet> $15.8 million to support critical climate observing 
        infrastructure;

  <bullet> $6.98 million for Earth System Modeling: Urgent Climate 
        Issues to will improve model resolutions and address critical 
        areas of model uncertainty, including: sea-level rise, Arctic, 
        terrestrial carbon cycle and biogeochemical feedbacks, and 
        decadal predictions/abrupt change;

  <bullet> $11 million to expand the development of climate quality 
        data records from satellite observations;

  <bullet> $2 million to enhance data center operations to provide 
        users with consistent and reliable access to the Nation's 
        environmental data and information via the Comprehensive Large 
        Array-Data Stewardship System.

    In addition, the FY 2011 budget includes $83 million for 
complementary climate investments and infrastructure including:

  <bullet> $49.4 million to continue the acquisition of critical 
        climate sensors as recommended by the National Research Council 
        2007 Decadal Survey;

  <bullet> $30 million for the U.S. contribution to the Jason-3 
        partnership program to ensure continuity of measuring sea 
        surface height, a critical climate data record that has been 
        maintained for over 20 years;

  <bullet> $2.2 million to provide resources to help communities 
        prepare for climate hazards, such as increased flooding and 
        storm surge impacts due to sea-level rise;

  <bullet> $1 million to support the Gulf of Mexico Coastal and Marine 
        Elevation Pilot request in the National Ocean Service to model 
        climate impacts in this region.

    The investments described above, represent a systematic attempt to 
expand NOAA's capacity to provide information to support decisionmaking 
on a variety of issues (including infrastructure planning) and at a 
variety of scales from local to national. Although most decisions tend 
to have a local footprint (i.e., are made by an individual business or 
community) often local decisionmakers face challenges common to those 
of a broader community of stakeholders who collectively form a regional 
or even national footprint of decisionmaking. Given that many local 
infrastructure decisions, however unique, share a need for similar 
information (e.g., expected changes in frost free days, precipitation 
and runoff, persistence of drought, potential for coastal inundation 
due to sea-level rise, etc.). NOAA intends to focus resources on 
expanding capacity to develop and provide information of high value to 
the broadest segment of decisionmakers possible. For example NOAA's FY 
2011 Budget Request for:

  <bullet> Assessment Services activities include funding for a series 
        of regional and sector-focused workshops designed to: (1) help 
        document the vulnerability of state and local governments, 
        businesses and ecosystems in the face of climate variability 
        and change, and (2) to provide a opportunities for local and 
        regional decisionmakers to directly articulate and thus 
        contribute to NOAA's understanding of needs decisionmakers 
        face. This understanding of vulnerability and information needs 
        is part of the processes to help guide the research, modeling 
        and analysis investments which will contribute to a next 
        National Assessment report designed to help inform 
        decisionmaking.

  <bullet> The NOAA Climate Portal is designed to provide easy access 
        to and use of NOAA climate data products and information 
        services from across the agency. NOAA's programs in climate 
        science and services are already producing datasets, analytical 
        products and decision-support tools being used by businesses 
        and state and local agencies to respond to the challenges of 
        changing climate conditions today. For example, in the case of 
        civil infrastructure, construction, water and energy, 
        government and private sector customers are using NOAA climate 
        data to: (1) design and construct buildings to withstand 
        hurricane-force winds and coastal flooding hazards; (2) design 
        and build roads above potential flood levels using historic 
        precipitation data and trend analyses; (3) design appropriate 
        heating, cooling and refrigeration systems and inform energy 
        usage decisions by using temperature averages and frequency 
        distributions such as heating and cooling degree days; (4) 
        incorporating ice thickness considerations due to freezing rain 
        for structural design considerations; and (5) inform water 
        conservation and distribution decisions in the context of 
        changing rainfall patterns and dam/lake levels. The NOAA 
        Climate Portal is being designed to make it easier for users at 
        the national, state and local level to find, understand and use 
        these existing products, and the new products and services that 
        will be made possible by the investments in observations and 
        earth system modeling contained in the President's budget.

  <bullet> Climate observing (including enhancements to the Nation's 
        space-based observing system) contributes to a better 
        understanding of how climate is evolving at local to national 
        scales--observations collected hundreds of miles away from a 
        local community thus benefit that community.

  <bullet> Enhancements to Earth System Modeling provide NOAA greater 
        capacity to provide more useful and accurate projections of how 
        climate may evolve in the future, on time scales ranging from 
        months to decades or longer.

  <bullet> Enhanced data center operations make all this data more 
        readily available, allowing local decisionmakers to leverage 
        the significant national investment to address their needs.

    Question 6. As you well know from your past research, the threat of 
increased water temperatures will contribute to the degradation of our 
ocean resources and habitats. Ocean acidification alone may contribute 
to the deterioration of the strength of the shells of lobsters, clams, 
mussels, barnacles, sea urchins, corals, and some plankton. As a 
report, ``Impacts of ocean acidification on marine fauna and ecosystem 
processes'' stated, this can affect an animal's physical functioning 
and reproduction, causing it to stop eating, grow more slowly, and 
eventually die. As you may know, Senator Bingaman has legislation that 
would permanently authorize the Land and Water Conservation Fund, which 
receives funding from oil and gas leasing in Federal waters. Do you 
believe that a portion of the revenue raised from oil and gas leasing 
should also be provided to investments in our ocean ecosystems? Would 
you support a portion of the revenue being dedicated to an Ocean Trust 
fund, to be dedicated to improving our ocean resources and controlled 
by the Secretary of Commerce?
    Answer. As NOAA Administrator, one of my main priorities is for 
NOAA to be a leader in understanding the processes by which marine 
ecosystems provide services crucial for human survival on Earth, 
quantifying the values of those services, and helping to educate 
decisionmakers about the linkages. Our oceans and coasts demonstrate 
the important connection of human and economic health to the resilience 
of natural ecosystems. At the broadest level, NOAA seeks to advance 
more holistic approaches to understand and balance human use, 
sustainability, and preservation of ecosystem resources and 
functioning. Funding for NOAA's science and services is critical to 
improving management and protection of these ocean and coastal 
resources. The Administration supports investing in ocean ecosystems 
using discretionary appropriations. This approach provides the greatest 
amount of flexibility to respond to competing priorities, while 
ensuring adequate oversight and accountability.

    Question 7. In a 2009 Inspector General report on NOAA's Northeast 
Fishery Science Center, a number of recommendations were made to 
improve communications among fisheries managers, scientists, and 
industry members. The recently released I.G. report on NOAA's law 
enforcement practices referenced the 2009 report, stating: ``NOAA has 
not yet acted . . . to fully satisfy the intent of our recommendations 
to enhance . . . the participation of the northeast industry in the 
fisheries management process.'' How will you address the issues still 
outstanding from the 2009 report?
    Answer. NOAA has taken steps to address many of the issues outlined 
in the 2009 Inspector General's report. Specifically, and as outlined 
in the response to question 3, above, NOAA's Northeast Fishery Science 
Center has taken many actions to enhance the participation of the 
northeast groundfish industry in the fisheries management process by 
improving communication and education efforts with the groundfish 
industry. We will continue to build upon the work that has been 
completed thus far, to further improve communications among fisheries 
managers, scientists, and industry members to enhance the participation 
of each group in the fisheries management process.

    Question 8. The 2009 American Recovery and Reinvestment Act (ARRA) 
provided NOAA with a significant infusion of funds for large-scale 
habitat restoration projects. NOAA received more than 800 proposals 
from organizations across the country with funding requests totaling 
more than $3 billion. This overwhelming response demonstrates that the 
need and capacity to carry out restoration of our coasts and oceans far 
surpasses the $22-27 million in NOAA's annual budget for coastal 
habitat restoration projects or the $167 million made available by 
Congress in ARRA funding. The FY 2011 budget asks for a small increase 
in habitat restoration, with the following justification, ``. . . In 
order to effectively implement recovery efforts for listed species, 
improving habitat condition and ecosystem function through larger-scale 
habitat restoration in targeted areas, are required. With this increase 
NOAA will implement larger-scale ecological restoration to increase 
habitat to support such recovery of threatened and endangered 
species.'' Projects like the Penobscot River Project are essential to 
restoring the endangered Atlantic salmon and ten other sea-run fish. 
NOAA's investment to date in this project has been critical. How will 
this project and others of national scale benefit from increased 
funding? And what examples from around the country can you give of 
projects that reach restoration scale?
    Answer. The increased funding for habitat restoration in the FY 
2011 budget will allow NOAA to implement larger-scale ecological 
restoration projects to help recover threatened and endangered species. 
Project scale is based on multiple factors, including size and 
complexity of the project, ecosystem and watershed benefits, and cost. 
Often times a series of barriers (dams, dikes, etc.), not just one 
barrier, must be removed to benefit fish. Under these scenarios, it is 
more efficient for the public and beneficial for the resource to 
undertake actions such as feasibility studies, modeling, permitting, 
and removals in concert throughout a watershed. Projects around the 
country will compete for these additional funds and priority will be 
given to large-scale ecologically significant projects that increase 
habitat for threatened and endangered species.
    In addition to the Penobscot River project, NOAA is implementing 
large-scale projects in several locations. An abbreviated list of those 
actions follows:

  <bullet> Salt ponds in San Francisco Bay. More than $16 million of 
        American Recovery and Reinvestment Act (ARRA) funds were 
        awarded to two projects to restore more than 3,100 acres of 
        wetlands along the shores of San Francisco Bay. The salt pond 
        projects cumulatively represent the largest salt marsh 
        restoration project on the West Coast to date. Specifically, 
        there are multiple ponds being converted to wetlands, and each 
        pond has its own set of challenges such as, but not limited to, 
        invasive species eradication, construction windows, and permit 
        limitations. Projects also require the removal of levees, 
        contouring/excavating stream channels, regrading interior 
        areas, and supporting re-vegetation. In addition to supporting 
        the recovery of threatened and endangered species such as 
        steelhead trout and the California clapper rail, this work will 
        provide significant habitat for migratory birds and marine 
        mammals, and improve the productivity of the Bay's ecosystem. 
        These projects will also maintain or improve existing levels of 
        flood protection, and provide public access and recreational 
        opportunities in a large urban area. The salt ponds provide 
        important refuge for salmon to grow larger before they move to 
        the ocean. Nearly 10,000 additional acres of wetlands are 
        available for habitat restoration, so increased funding could 
        contribute to the recovery of local salmon populations.

  <bullet> Rogue River, Oregon. $5 million of ARRA funds were awarded 
        to remove Gold Ray dam--the last barrier on the Rogue River--to 
        open 333 miles of the river to threatened salmon, Chinook, 
        steelhead, and Southern Oregon/Northern California Coast Coho 
        salmon. Gold Ray Dam is a 38-foot high, 360-foot long defunct 
        hydropower dam located in Jackson County, Oregon. Its removal 
        represents one of the largest dam removals undertaken in the 
        United States to date. Removal of the Gold Ray Dam restores 
        full migratory fish passage on the Rogue River, the second 
        largest producer of salmon in Oregon outside of the Columbia 
        Basin and one of the few remaining salmon strongholds in the 
        Pacific Northwest. As a nationally designated Wild and Scenic 
        River, the Rogue River provides exceptional recreational 
        opportunities for anglers, whitewater rafters, and outdoor 
        enthusiasts. After removal of the Gold Ray Dam, the main stem 
        Rogue River will flow unimpeded to the Pacific Ocean. This will 
        be one of the longest free-flowing, boatable reaches of river 
        in the West. This should attract whitewater enthusiasts and 
        anglers from across the country, increasing the tourism economy 
        of the region. NOAA has been involved in a sustained effort on 
        the Rogue River, and previously funded the removal of the Gold 
        Hill and Savage Rapids dams. This example is similar to the 
        Penobscot in that NOAA pursued a sustained effort to open the 
        river to threatened salmon.

                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Dr. Jane Lubchenco

    Question 1. Administrator Lubchenco, can you site all Federal 
programs where scientific data, not models, but actual data surrounding 
gains or losses in shorelines, inland biomass, glacier location & flow, 
and other phenomena related to climate change, is currently being 
measured, monitored, verified and validated?
    Answer. The best summary of climate observing programs and data is 
provided in the ``State of the Climate Report,'' which is prepared by 
NOAA and is published annually in the Bulletin of the American 
Meteorological Society. This report describes climate-related 
observations that are collected and quality controlled by government 
agencies and academic and research institutions around the world. 
Scientific data sets described in the report include measurements of 
global surface temperatures, land surface properties, changes in the 
oceans, sea ice changes, and changes in the Greenland and Antarctic ice 
sheets. Source citations are provided for each set of observations, 
which are not dependent on models. The 2009 version of the report was 
released in July 2010 and is currently available (http://
www.ncdc.noaa.gov/bams-state-of-the-climate/2009.php).
    In addition to contributing data to the ``State of the Climate 
Report'' and other international publications, NOAA also makes a 
diverse array of climate-related observational datasets directly 
available to scientists, decision-makers, and other interested parties:

  <bullet> NOAA's National Ocean Service (NOS) is responsible for 
        mapping the mean high water line on nautical charts; this line 
        is the legal shoreline for the United States. Mean high water 
        lines are digitally available from nearly 7,000 historic NOS 
        shoreline manuscripts and over 235 contemporary shoreline-
        mapping projects. These historical shorelines are often 
        analyzed (by NOAA and other entities) to determine coastal 
        erosion or accretion rates, as well as assess net loss or gain 
        of coastal lands (surface area).

  <bullet> NOAA's Center for Operational Oceanographic Products and 
        Services provides long-term tide gauge data and relative sea-
        level trends around the United States.

  <bullet> NOAA's National Geodetic Survey develops and maintains the 
        national Continuously Operating Reference Station (CORS) 
        Network, which is used to measure crustal motion that is 
        essential for determining the land motion component of local 
        sea-level rise. CORS data are also used to measure changes in 
        precipitable water vapor in the atmosphere, observations that 
        are used both to improve weather forecasts and to detect 
        historical patterns that enhance our understanding of climate 
        change.

  <bullet> Through its Digital Coast website (http://www.csc.noaa.gov/
        digitalcoast), NOAA's Coastal Services Center (CSC) provides 
        high-resolution coastal bathymetric and topographic data 
        collected by NOAA and other entities (e.g., other Federal and 
        state agencies) using Light Detection and Ranging and other 
        remote-sensing technologies. CSC also manages the Coastal 
        Change Analysis Program, which provides a nationally 
        standardized database of land cover information (e.g., 
        inventories of coastal intertidal areas, wetlands, and adjacent 
        uplands) for the coastal regions of the United States.

  <bullet> Observations of Arctic and Antarctic sea-ice change are 
        available through the National Snow and Ice Data Center 
        (NSIDC), which is co-funded by NOAA, the National Aeronautics 
        and Space Administration, and the National Science Foundation. 
        NSIDC also contains the World Data Center for Glaciology, which 
        provides observational data and analyses of glaciers and snow 
        cover.

  <bullet> The Arctic Report Card is issued annually and is a timely 
        source for clear, reliable and concise environmental 
        information on the state of the Arctic, relative to historical 
        time series records. Material presented in the Report Card is 
        prepared by an international team of scientists and is peer-
        reviewed by topical experts of the Climate Experts Group of the 
        Arctic Council. The Conservation of Arctic Flora and Fauna 
        Circumpolar Biodiversity Monitoring Program provides 
        collaborative support through the delivery and editing of the 
        biological elements of the Report Card.

    Question 2. Administrator Lubchenco, a 2007 National Academies 
Report entitled, ``A Geospatial Framework for the Coastal Zone'' 
commented that ``Numerous agencies have identified the lack of a 
consistently defined national shoreline as a major barrier to informed 
decisionmaking in the coastal zone. While a consistent shoreline is 
certainly desirable, many different definitions of the shoreline remain 
embedded in local, state, and Federal laws . . .'' With the fact our 
Nation lacks a definition for what may be termed a ``National 
Shoreline,'' how credible are reports and studies which cite losses in 
shoreline? Did these studies take into account the numerous local, 
state and Federal laws that have different definitions of what 
constitutes a shoreline?
    Answer. The 2004 National Academies report cited above included a 
recommendation for adopting the National Oceanic and Atmospheric 
Administration's National Geodetic Survey (NGS) definition of 
``national shoreline.'' Specifically, the recommendation states, ``To 
achieve national consistency, all parties should define their 
shorelines in terms of a tidal datum, allowing vertical shifts to be 
calculated between and among the various shoreline definitions, while 
at the same time permitting different agencies and users to maintain 
their existing legal shoreline definitions. In situations where 
legislation or usage does not preclude it, the Committee recommends 
that the internationally recognized shoreline established by NOAA's 
National Geodetic Survey be adopted.''
    The shoreline NOAA produces is recommended by the study to be the 
National Shoreline used by different agencies and users. NOAA's NGS 
uses its national shoreline to support NOAA Nautical Charts and other 
products and services, and NOAA has the geodesy and surveying 
capability to fulfill the role in defining and maintaining a nationally 
consistent definition of ``national shoreline.'' NGS data are crucial 
to the management of coastal resources, and are a fundamental 
foundational layer required for Coastal and Marine Spatial Planning.
    As recommended in the National Academies report, the Federal 
Geographic Data Committee's (FGDC) Marine and Coastal Spatial Data 
Subcommittee, which NOAA chairs, is working to implement NOAA's 
National Geodetic Survey working definition as the standard across 
agency partners. NOAA's methods, 200 years of shoreline data holdings, 
and mandates under the Coast and Geodetic Survey Act of 1947 and 
Hydrographic Services Improvement Act of 1998 to acquire shoreline data 
and promulgate standards, clearly give NOAA's NGS the lead role in 
defining a National Shoreline.
    There are several reports and studies that cite losses in shoreline 
but NOAA cannot speak to the credibility of these reports without 
knowing their methods.

    Question 3. Details of NOAA's proposed climate service are slowly 
becoming known. What steps are you taking as NOAA Administrator to make 
sure geospatial measurements, services and data, and other activities 
necessary for this climate service program will be performed by the 
private sector, especially by small businesses in Louisiana?
    Answer. NOAA relies upon the private sector for many aspects of its 
geospatial measurements and services and data, including contracts for 
hydrographic surveying and shoreline mapping, water level station 
maintenance, and geodetic services. NOAA's ocean and coastal mapping 
contracting policy was submitted to Congress in December 2009 and 
published in the January 14, 2010 Federal Register Notice. This updated 
policy resulted from a requirement of the Ocean and Coastal Mapping 
Integration Act of 2009 (P.L. 111-11, 33 U.S.C. 3501 et seq.) and 
describes a strategy for expanding contracting with non-governmental 
entities in order to take advantage of private-sector mapping 
capabilities. NOAA recognizes that qualified commercial sources can 
provide competent, professional and cost-effective mapping services and 
by doing so they supplement NOAA's in-house expertise and operational 
capacity. As geospatial requirements evolve for the proposed climate 
service, NOAA will follow this policy and utilize its geospatial 
services contracts as appropriate and to the extent funding is 
available.

    Question 4. Administrator Lubchenco, reports have come out with 
examples detailing NOAA's spending millions using stimulus (ARRA) money 
to increase NOAA's in-house mapping, surveying and charting 
capabilities. This buildup lessens NOAA's reliance on the private 
sector, especially small businesses in Louisiana. Why is this the case, 
when NOAA, an agency within the Department of Commerce, is actively 
duplicating and competing with the private sector? Shouldn't NOAA be 
increasing its contracting out to help stimulate the economy, 
especially small businesses in Louisiana?
    Answer. The $40 million that NOAA received for hydrographic 
services from American Recovery and Reinvestment Act funds did not 
increase NOAA's in-house mapping, surveying and charting capabilities. 
Over $39 million of the funds were obligated to contracts by September 
2009 for a variety of hydrographic services, including $31.5 million 
for survey contracts and $2.0 million for contract shoreline 
compilation. The remaining funds were used to contract for services to 
support water level data processing, chart compilation, acceleration of 
the VDatum program and data archiving.
    NOAA also received $8.9 million for vessel maintenance and repair 
to improve reliability of NOAA ships and launches in order to 
accomplish scheduled science days at sea and maintain hydrographic 
expertise. NOAA used the funds for private sector contracts to 
accelerate the NOAA survey vessel Rainier's planned major repair 
period, reduce deferred maintenance on the NOAA hydrographic fleet, and 
replace NOAA Hydrographic Survey Launches that are beyond their service 
life in order to ensure safety and reliability.

    Question 5. The NOAA Budget provides a $36.6 million increase for 
catch share management programs and an additional 46 FTEs to assist 
regional councils in implementing catch share programs for commercial 
fisheries. However, NOAA's budget at the same time eliminates 13 FTEs 
and requests a $4.5 million reduction in cooperative research that 
would benefit recreational fisheries information, such as fishery 
catch, index of stock abundance from surveys, and biological 
characteristics of stocks. (NOAA 2011 Budget, pg. 209) NOAA's budget 
appears to ignore recreational fishery management at a time when the 
Agency is dealing with a crisis situation in numerous recreational 
fisheries, with the complete closure of the red snapper fishery from 
North Carolina to Florida, and closures of gag grouper and amberjack in 
the Gulf of Mexico. NOAA is charged with managing recreational 
fisheries, but it appears there is a complete management failure in 
numerous fisheries. There is an urgent need to improve recreational 
catch data collection and generally improve NOAA's management of 
Federal recreational fisheries. What does NOAA intend to do about the 
lack of data it has on important recreational fisheries, such as South 
Atlantic red snapper?
    Answer. Improving the quality of recreational fishing data is a 
priority for NOAA. The President's Budget Request for FY 2011 includes 
a total of $9 million for continued support of the Marine Recreational 
Information Program's (MRIP) ongoing development and implementation of 
improved recreational fishery surveys of catch and effort. This 
includes the development of a National Saltwater Angler Registry 
through implementation of an on-line Federal registration system and 
support for ongoing registration efforts by states whose anglers are 
exempted from the Federal registration. The MRIP has been conducting 
pilot studies to test the use of registry data in both mail and 
telephone surveys, and plans to implement registry-based surveys of 
fishing effort in all states of the South Atlantic in 2011. The MRIP is 
also conducting pilot studies in 2010 to test the utilization of 
electronic logbook reporting methods for charter boats and headboats, 
as well as improved sampling methods for shoreside surveys of angler 
catches. MRIP plans to start phased implementation of such survey 
improvements in 2011 and this should help to enhance the quality and 
timeliness of marine recreational fisheries catch statistics for red 
snapper.
    During FY 2010, funds are being used to establish a critical 
fishery-independent data collection program for South Atlantic red 
snapper. This program fills the data gap resulting from the loss of 
fishery-dependent data due to the closure of the directed South 
Atlantic red snapper fishery. The FY 2010 program involves the 
participation of the fishing industry, and also establishes the 
groundwork for the effective and continued monitoring of the red 
snapper stock--these are requirements for determining how the red 
snapper stock is responding to the closure. Specific FY 2010 activities 
include:

  <bullet> Fishery-independent sampling in the South Atlantic that 
        improves the precision and coverage of sampling, by increasing 
        sample size and spatial coverage of reef fish habitats 
        (particularly for biological data), and for implementing 
        fishing gear testing and comparisons.

  <bullet> Implementation of video survey methodologies that address 
        sampling concerns (e.g., selectivity of current Marine 
        Resources Monitoring, Assessment, and Prediction program survey 
        gear).

  <bullet> Implementation of the goals of South Atlantic Fishery 
        Management Council and NOAA Fisheries' Fishery Independent 
        Monitoring Program Workshop - November 2009. These goals 
        include: enabling evaluation of response(s) of fish populations 
        to management actions; providing useful spatial and temporal 
        indices of abundance, length frequencies, and age distributions 
        for as many species as possible within the snapper-grouper 
        complex; providing data that can be utilized in ecosystem 
        approaches to fisheries management; and continuing to improve 
        gear configurations.

  <bullet> Secure fishing industry participation (including via 
        contracts) in the design and implementation of fishery-
        independent data collection activities in the South Atlantic, 
        by relying on their vessels, knowledge of red snapper 
        locations, and habitats and expertise in fishing gear 
        methodologies.

    The FY 2011 Budget also funds NOAA's new high-tech vessel, Pisces, 
to map reef fish habitats in the South Atlantic and provide survey data 
on managed stocks.

    Question 5a. Does NOAA have a plan for dealing with numerous 
recreational fisheries being closed because of a lack of stock 
assessments and a lack of accurate data on recreational catch in many 
important fisheries?
    Answer. NOAA does not anticipate numerous recreational fisheries 
being closed due to lack of stock assessments and a lack of data on 
recreational catch. The decision to close a fishery is never made 
lightly. NOAA examines the best available data provided through a 
variety of sources. For the recreational fishery, catch statistics are 
provided by the current Federal and state recreational fishery survey 
programs in each region. If statistical estimates of landings produced 
by the regional surveys have exceeded, or are projected to reach or 
exceed specified harvest levels for a particular fish stock, a 
closure--specified through public notification in the Federal 
Register--is necessary to mitigate the magnitude of any recreational 
overage and its impact on the established mortality objective for that 
stock for the year.
    The Marine Recreational Information Program is identifying 
recreational fishery survey enhancements that support the new 
requirements in the Magnuson-Stevens Fishery Conservation and 
Management Act of 2006, as well as the estimated implementation costs 
for those enhancements. While there are practical constraints that 
limit the range of possible improvements, we continue to look for ways 
in which we can improve our processes.

    Question 5b. Do you believe that NOAA has the level of funding in 
its 2011 Budget request to meet its legal requirements to manage 
recreational fisheries?
    Answer. NOAA recognizes that successful implementation and 
effective monitoring of annual catch limits and accountability measures 
will require significant improvements in the quality, timeliness, and 
accessibility of marine recreational fishery catch and effort 
statistics. The President's Budget Request for FY 2011 includes a total 
of $9 million for continued support of the Marine Recreational 
Information Program's (MRIP) ongoing development and implementation of 
improved recreational fishery surveys of catch and effort. MRIP 
Operations Team is identifying recreational fishery survey enhancements 
that support the new requirements in the Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act of 2006, as well as the 
estimated implementation costs for those enhancements. While there are 
practical limits to the degree to which we can improve the timeliness 
of the collection, processing, and reporting of recreational fishery 
survey data and statistics, we continue to look for ways in which we 
can improve these processes.

    Question 5c. How can NOAA improve its management of recreational 
fisheries and avoid such large fisheries closures in the future?
    Answer. NOAA recognizes that recreational saltwater fishing is 
vitally important to our coastal areas as both a source of recreation 
and significant income and employment for many communities. The agency 
will continue to actively work with the regional fishery management 
council process and our constituents to explore ways to better manage 
recreational catch quotas. The decision to close a fishery is never 
made lightly. NOAA examines the best available data provided through a 
variety of sources. For the recreational fishery, catch statistics are 
provided by the current Federal and state recreational fishery survey 
programs in each region. If statistical estimates of landings produced 
by the regional surveys have exceeded, or are projected to reach or 
exceed specified harvest levels for a particular fish stock, a 
closure--specified through public notification in the Federal 
Register--is necessary to mitigate the magnitude of any recreational 
overage and its impact on the established mortality objective for that 
stock for the year.
    Assuring the agency is managing the needs of the recreational 
fisheries is a priority as announced in September 2009, as part of the 
Recreational Fishing Engagement Initiative. Since then, on March 23, 
2010 the Assistant Administrator for the National Marine Fisheries 
Service, Eric Schwaab, announced the appointment of Russell Dunn as the 
NOAA Fisheries National Policy Advisor for Recreational Fisheries. Also 
announced was the appointment of 22 members of the recreational fishing 
community from around the Nation to a Recreational Fisheries Working 
Group to provide expertise on saltwater recreational fishing to NOAA's 
Marine Fisheries Advisory Committee. In addition, on April 16 and 17, 
NOAA held a National Recreational Fishing Summit developed in 
collaboration with the recreational fishing community. This was a 
stakeholder driven discussion to identify issues of concern and 
possible solutions together.
    NOAA recognizes that successful implementation and effective 
monitoring of annual catch limits and accountability measures will 
require significant improvements in the quality, timeliness, and 
accessibility of marine recreational fishery catch and effort 
statistics. Through the Marine Recreational Information Program, NOAA 
is identifying recreational fishery survey enhancements that support 
the new requirements in the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act of 2006, as well as the estimated 
implementation costs for those enhancements.

    Question 6. The 2006 reauthorization of the Magnuson-Stevens Act 
put in place important conservation and management mandates intended to 
improve overall catch data which would allow NOAA to end overfishing 
and effectively manage sustainable, abundant fisheries. The law now 
requires annual catch limits, accountability measures to anticipate and 
correct overfishing, and hard deadlines of 2010 and 2011 to end all 
overfishing. The problem is that NOAA has failed to manage recreational 
fishing and has no accurate data on recreational catch. Without data 
NOAA will be forced to shut down recreational fisheries. Wide spread 
closures of recreational fisheries is not management by NOAA, rather it 
is proof that the Agency has failed to meet its legal requirement and 
Federal mission to manage these fishery resources. Faced with the hard 
deadline in the Magnuson-Stevens Act to end all overfishing by 2010 and 
2011, what is NOAA going to do to manage recreational fisheries that 
have either been mismanaged by the Agency or have retained historically 
poor data?
    Answer. NOAA will continue to actively work with the Regional 
Fishery Management Council process and our constituents to explore ways 
to better manage recreational catch quotas. Fish stock assessments 
conducted by NOAA use the most recent data from fishery catch and 
fishery-independent surveys, as well as a long time series of 
comparable data. The most recent data allows us to evaluate the current 
status of the stock and the long time series data provide indicators 
about trends and potential stock productivity. Both recent and long-
term data are important to determine appropriate catch levels that will 
meet our goal to rebuild and maintain stocks and fisheries at 
sustainable levels.
    NOAA recognizes that successful implementation and effective 
monitoring of annual catch limits and accountability measures will 
require significant improvements in the quality, timeliness, and 
accessibility of marine recreational fishery catch and effort 
statistics. NOAA is revising how it uses the data collected to produce 
more accurate bimonthly statistical estimates of total catch. As a 
result, improved catch statistics will be available for the Atlantic 
and Gulf coasts as soon as 2011. NOAA is working to meet this challenge 
through the continued funding ($9 million in FY 2011) for the Marine 
Recreational Information Program's (MRIP's) ongoing development and 
implementation of improved recreational fishery surveys of catch and 
effort. MRIP is identifying recreational fishery survey enhancements 
that support the new requirements in the Magnuson-Stevens Fishery 
Conservation and Management Reauthorization Act of 2006, as well as the 
estimated implementation costs for those enhancements. In FY 2011, MRIP 
will specifically be assessing what can be done to provide more 
frequent and accurate updates to statistical estimates of total catch 
during the fishing seasons. More frequent updates would allow for more 
timely assessments by fishery managers of any needed changes in fishing 
regulations that could prevent unwanted overages. This would also help 
to prevent the recreational fishing sector from exceeding stock-
specific ACLs and triggering potentially drastic accountability 
measures, such as subsequent season closures. While there are practical 
limits to the degree to which we can improve the timeliness of the 
collection, processing, and reporting of recreational fishery survey 
data and statistics, NOAA will continue to look for ways in which we 
can improve these processes.

    Question 6a. How will NOAA implement Annual Catch Limits for 
recreational fisheries that do not have real-time catch data?
    Answer. Some recreational fisheries have highly variable annual 
catches and lack reliable in-season or annual data on which to base 
accountability measures and annual catch limits. If there are 
insufficient data upon which to compare catch to annual catch limit, 
either in-season or on an annual basis, NOAA will work with the 
Regional Fishery Management Council to implement the necessary data 
collection system to support accountability measures and annual catch 
limits.

    Question 6b. Anticipating wide spread closures of fisheries in the 
recreational sector, does NOAA plan to adjust some of its funding 
priorities to more effectively manage these fisheries?
    Answer. NOAA does not anticipate wide spread closures of fisheries 
in the recreational sector. The FY 2011 President's budget includes $9 
million for the Marine Recreational Information Program (MRIP). The 
MRIP provides a national framework for developing, testing and 
implementing the components of an improved marine recreational fishery 
data collection program. NOAA has been building the needed funding 
incrementally, starting with a $3.5 million increase in FY 2008 and 
following with additional increases of $2.7 million in FY 2009 and $2.8 
million in FY 2010.
    The funding obtained in 2008 and 2009 for MRIP has been supporting 
an incremental redesign of NOAA's recreational fisheries surveys. The 
MRIP is also investing in expert evaluations of possible sampling and 
estimation improvements, well-designed pilot studies to test those 
improvements, and phased implementation of the new survey designs.

    Question 7. The 2006 reauthorization of the Magnuson-Stevens Act 
requires NOAA to implement a program to improve the quality and 
accuracy of information generated by the Marine Recreational Statistics 
Survey by January 1, 2009. (16 U.S.C. 1881(g)(3)), (MSA  401(g)(3)) To 
date, NOAA has not implemented this improved program for acquiring 
better data in recreational fisheries, which will improve management 
and prevent wide spread fisheries closures. Did NOAA provide an 
adequate funding level for this program that is now over a year late in 
being implemented? What amount of funding would NOAA need to 
effectively implement this program?
    Answer. The Marine Recreational Information Program (MRIP), which 
is included in the FY 2011 President's budget at the level of $9 
million, was established in October of 2008 to develop improved survey 
designs that could be utilized to provide more accurate total catch and 
effort statistics for marine recreational fishing. MRIP provides a 
national framework for developing, testing and implementing the 
components of an improved marine recreational fishery data collection 
program. NOAA's National Marine Fisheries Service has been building the 
needed funding incrementally, starting with a $3.5 million increase in 
FY 2008 and following with additional increases of $2.7 million in FY 
2009 and $2.8 million in FY 2010. MRIP funding increases in FY 2008 and 
2009 supported the incremental redesign of NOAA's recreational 
fisheries surveys. NOAA is also investing in expert evaluations of 
possible sampling and estimation improvements, well-designed pilot 
studies to test those improvements, and phased implementation of the 
new survey designs.
    NOAA recognizes that successful implementation and effective 
monitoring of annual catch limits and accountability measures will 
require significant improvements in the quality, timeliness, and 
accessibility of marine recreational fishery catch and effort 
statistics. In order to prevent the recreational fishing sector from 
exceeding stock-specific annual catch limits and triggering potentially 
drastic accountability measures, such as subsequent season closures, it 
will be important to provide more frequent and accurate updates to 
statistical estimates of total catch during the fishing seasons. This 
would allow for more timely assessments of any needed changes in 
fishing regulations that could prevent unwanted overages. NOAA is 
working to meet this challenge through the continued funding ($9 
million in FY 2011) for MRIP's ongoing development and implementation 
of improved recreational fishery surveys of catch and effort. MRIP is 
identifying recreational fishery survey enhancements that support the 
new requirements in the Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act of 2006, as well as the estimated 
implementation costs for those enhancements. While there are practical 
limits to the degree to which we can improve the timeliness of the 
collection, processing, and reporting of recreational fishery survey 
data and statistics, we continue to look for ways in which we can 
improve these processes. Our recently named National Recreational 
Fishing Advisor, Russ Dunn, will be tracking our progress on MRIP to 
ensure we improve our recreational fishing statistics as part of our 
broader efforts to strengthen our relationship with the recreational 
fishing community.

    Question 7a. Should another agency manage recreational fisheries, 
such as the Department of Interior, which actively promotes public 
access and fishing in our national parks? Should coastal states, which 
receive the most direct economic impact of recreational fisheries, 
manage these resources and activities?
    Answer. Another agency should not manage recreational fisheries. 
Coastal state authorities already manage recreational fisheries in 
their waters, typically out to three miles offshore. NOAA manages 
coastal fisheries from three to 200 miles offshore pursuant to the 
Magnuson-Stevens Fishery Conservation and Management Act, and should 
remain the agency responsible for managing these fisheries. Many 
recreational fish stocks occur in both state and Federal waters and are 
harvested by both commercial and recreational sectors. Fish stocks must 
be consistently managed throughout their range and the Regional Fishery 
Management Council (Council) process is the appropriate body to develop 
fishery management plans. The Councils already develop fishery 
management measures cooperatively with state authorities for 
recreational fisheries in the offshore area that is seaward from state 
waters out to 200 nautical miles. Each Council's voting members include 
a representative of each state fishery agency in the Council area and 
several representatives of both commercial and recreational sectors 
nominated by state Governors. It would be inefficient to have two 
separate processes, conducted by two separate agencies, for managing 
commercial and recreational fisheries.

    Question 8. The $36 million in additional money allocated toward 
catch shares is not broken out into specific use, nor is the amount 
already allocated for catch share implementation. Please provide 
detailed information how these funds will be used. Please be very 
specific when describing what are the purposes of the scientific and 
research programs and how much money will be allocated to these verses 
other aspects.
    Answer. NOAA has requested an increase of $36.6 million, for a 
total of $54 million, in FY 2011 to enhance the implementation of catch 
shares nationwide. The requested increase supports analysis and 
evaluation of fisheries for catch share programs, development of 
fishery management plans and regulations, observing and monitoring at 
sea and on shore, and enforcement activities. Of the $36.6 million 
increase:

  <bullet> $10.6 million will support activities and capabilities 
        common to many catch share programs that are more efficient to 
        implement at a regional or national level, rather than managing 
        each specific catch share program individually. Examples of 
        such activities includes overall program management, 
        improvements in fishery dependent data collection systems to 
        support future catch share programs, quality control on 
        historic catch data to support individual or group allocations, 
        fishery data management, social and economic data collection or 
        analysis, adjudication of administrative appeals by program 
        participants, and cost recovery. Funding requested under this 
        line item would also support electronic reporting, quota 
        accounting, and a lien registry. Some regions have implemented 
        catch share programs, and therefore have a base of expertise 
        and capability to add programs. Other regions need capacity 
        building to begin development of, and will eventually implement 
        and operate, catch share programs.

  <bullet> $2.0 million will support analysis and development of new 
        catch share programs that are requested through the Regional 
        Fishery Management Council (Council) process. Catch share 
        programs typically take several years of analysis, stakeholder 
        participation, and Council deliberation before being adopted. 
        Catch Share Plans are more complicated than many fishery 
        management plan amendments, and thus carry increased costs for 
        analysis of alternatives and their impacts. Special stakeholder 
        committees and workgroups, requiring funds for staff support 
        and meetings, are often established to advise the Council on 
        appropriate alternatives.

  <bullet> $24 million will support implementation and operation of 
        four new catch share programs: Gulf of Mexico grouper ($6.6 
        million), Mid-Atlantic tilefish ($0.5 million), Northeast 
        groundfish ($4.4 million), and Pacific groundfish ($12.7 
        million). Following Regional Council adoption and Secretarial 
        approval of a catch share program, an implementation period of 
        one to two years is common. Key implementation activities 
        include hiring management and enforcement staff, establishing 
        program specific share accounting data bases and reporting 
        systems, identifying eligible participants, issuing catch 
        shares, computing annual quota for each participant, and 
        adjudicating administrative appeals of the eligibility and 
        catch share decisions. These activities need to be completed 
        before fishermen begin fishing under the catch share program. 
        The operational costs include program administration, 
        monitoring, enforcement, and science evaluation. Some or all of 
        the incremental operational costs for the catch share programs 
        that meet the definition of a Limited Access Privilege Program 
        under the Magnuson-Stevens Fishery Conservation and Management 
        Reauthorization Act of 2006 (MSRA) can be recovered once the 
        catch share program is operational. Agency cost recovery is 
        capped at a maximum of 3 percent of the ex-vessel value of the 
        fishery.

    Question 9. Based on previous testimony during a hearing in the 
House of Representatives of Deputy Under Secretary for Oceans and 
Atmosphere, Ms. Mary Glackin, there will be a $4 million net reduction 
in cooperative research (and according to the budget, along with a loss 
of 13 full-time staff). Given that most stock assessments are already 
riddled with problems like insufficient data with which to make a 
knowledgeable conclusion regarding stock status, why would NOAA further 
reduce the ability for our Nation's scientists and fishermen to work 
together in assessing stock health? Is funding for stock assessments 
going to catch share implementation? Or ocean fish farming 
(aquaculture) administration?
    Answer. None of the $54 million in the National Catch Share Program 
will be used for aquaculture administration or directly for conducting 
stock assessments. However, of the $36.6 million increase, $25.6 
million is requested for data collection, including reporting and 
accounting systems and observing and monitoring. In many cases, the 
resulting data will be incorporated into current and future stock 
assessments. The $13.1 million FY 2011 funding proposed for cooperative 
research is closer to historical levels and above the FY 2009 enacted 
level. At the same time NOAA has sustained FY 2010 budget increases for 
stock assessment, data collection and other fishery research.

    Question 10. NOAA has repeatedly stated that catch shares are not a 
panacea, and that no one is required to adopt them, but then 
aggressively promotes their adoption through funding such programs with 
millions of dollars, running multiple catch share workshops at regional 
fishery management council meetings, instituting a catch share task 
force, drafting a policy statement on the issue, and pressing various 
regional fishery management councils to create new plans to implement 
them. Who in particular at NOAA is pushing for adoption and 
implementation of catch shares?
    Answer. The draft NOAA policy states that NOAA is not recommending 
catch shares be used in all fisheries. There is no mandate to adopt 
catch shares. Moreover, the draft NOAA policy repeatedly stresses that 
Regional Fishery Management Councils (Council) and stakeholders need to 
evaluate the range of fishery management programs available and choose 
the one that best fits their goals and objectives.
    Councils were already choosing to adopt catch shares for their 
fisheries well before NOAA's draft policy was conceived. Six of the 
eight Councils have already implemented fifteen catch share programs 
around the country. The first was in 1990, and nine additional programs 
have been introduced in just the last 6 years. The FY 2011 budget 
request reflects choices the Councils have already made to implement 
catch shares in many of their key fisheries. The New England, Mid 
Atlantic, Gulf of Mexico and Pacific Councils have been working on new 
catch share programs in their respective areas for several years, and 
now they require operational support for implementation in FY 2011. The 
balance of the request is focused on supporting the design and common 
infrastructure for additional fisheries that have been identified by 
the Councils as possible candidates for adoption of catch shares. We 
have established an effective and productive relationship between the 
Councils, our science centers, and our regional offices to plan and 
conduct the science and management necessary to carry out the Councils 
fishery management programs.

    Question 11. Who at NOAA decided to group scientific and research 
programs and shift them under catch share programs? Are these 
scientific and research programs independent and intended to accurately 
assess stock levels, or are they to be studied only in conjunction with 
the end goal of implementing a catch share program?
    Answer. When formulating the budget request for the National Catch 
Share Program NOAA shifted $17.4 million in funds that were utilized 
for catch share programs into this new budget line. These funds support 
the management of existing catch share programs, cooperative research 
specific to catch shares, and the transition of the NE Multispecies 
fishery to sector management. Much of the $54 million request in FY 
2011 to enhance the implementation of catch shares nationwide will be 
used to improve scientific data and management of our Nation's 
fisheries. Of the $36.6 million increase, $25.6 million is requested 
for data collection, including observing and monitoring. While the data 
collected will be used to manage the catch share program, in many cases 
the resulting data will be incorporated into current and future stock 
assessments which will benefit fisheries managed by catch share 
programs and traditional management approaches.

    Question 12. NOAA has requested an additional $2,352,000 and 1 FTE 
to support the joint NOAA/USDA Alternative Feeds Initiative. Is there 
any acknowledgment by NOAA that soy products in feed yield an even 
greater amount of waste from the farmed fish, and that allowing large 
amounts of soy into the marine environment could prove to be dangerous 
in terms of hormone fluctuation and disruption?
    Answer. Concerns that ``soy products in feed yield an even greater 
amount of waste from the farmed fish'' are unfounded. Waste from any 
farmed animal comes from undigested feed. Many studies comparing the 
digestibility of soy nutrients to fish meal nutrients generally show 
that both sources are well digested--typically with values in the 90 
percent or better range. This is especially true of the higher protein 
soy products that are more suited for diets for carnivorous fish.
    Concerns that feeding soy to fish will result in dangerous hormone 
fluctuation and disruption are also unfounded. The majority of studies 
do not support the idea that feeding farmed fish increased levels of 
soy will change hormone fluctuations or disrupt hormones, and soy meals 
used in animal diets have to meet U.S. Food and Drug Administration 
standards to ensure they are safe for the animal and for people 
consuming products from the animal. As with any new diet formulation, 
diets that rely on increased amounts of soy need to be evaluated for a 
range of factors, including how such diets may affect fish nutrition 
and health, health benefits to consumers, and any environmental impact 
that may result from their use. The Alternative Feeds Initiative is 
looking at precisely these questions. The increase funding in FY 2011 
will allow NOAA to take on a greater leadership role in developing 
alternative feeds, and NOAA is pleased to have the broad support of 
both environmental organizations and the aquaculture industry in this 
effort.

    Question 13. How much money is being devoted to ``filling the 
[four] gaps in knowledge'' on offshore aquaculture identified in the 
GAO report, namely: (1) alternative fish feeds, (2) best management 
practices to minimize environmental impacts, (3) data on how escaped 
aquaculture fish might impact wild fisheries, and (4) strategies to 
breed and raise fish while effectively managing disease? Please be 
specific about how monies are being used to address them.
    Answer. NOAA has requested an increase of $5.1 million for its 
marine aquaculture program in FY 2011, for a total of $12.7 million. 
NOAA National Marine Fisheries Service (NMFS) and National Sea Grant 
College Program will use the increase to jointly respond to each of the 
four research area gaps identified in the 2008 Government 
Accountability Office (GAO) Report. It is important to note that while 
the GAO study was initiated to focus on offshore aquaculture, the 
priorities identified by stakeholders in the study (feeds, best 
management practices, escapes, disease) transcend all types of marine 
aquaculture. Similarly, NOAA's research investments focus on all types 
of marine aquaculture--not just offshore.
    Nearly half of the requested increase, $2.4 million, will be used 
by NMFS to support GAO's first recommendation to develop aquaculture 
feeds that require less fish meal and fish oil. The remaining $2.7 
million will be used by NOAA's Sea Grant program to develop and 
transfer technologies and practices to support sustainable aquaculture 
consistent with GAO's remaining recommendations. NOAA will use this 
increase to support the Sea Grant Extension network and an extramural 
competitive grants program for aquaculture called the National Marine 
Aquaculture Initiative. The increase for Sea Grant will bring the 
Office of Oceanic and Atmospheric Research's aquaculture funding up to 
$4.3 million. About one third of these funds will be used for transfer 
of aquaculture technology and best management practices through 
extension; the remaining two thirds will support research to address 
GAO's recommendations. As research grant funds will be awarded on a 
competitive basis, it is not possible to predict how much funding will 
go toward addressing each specific recommendation in FY 2011.
    NOAA is already addressing GAO's recommendations with current 
resources. NOAA scientists continue to work on increasing scientific 
knowledge concerning the agency's environmental, stewardship, and 
regulatory responsibilities in the field of aquaculture.

    Question 14. How much money is being devoted to exploring 
alternatives to offshore aquaculture, such as land-based recirculating 
aquaculture systems or aquaponics? Given NMFS's mission of stewardship 
and protection, why is an unsustainable form of aquaculture still being 
promoted by NOAA? How does NOAA plan to prevent harm to the marine 
environment, wild stocks, and fishermen?
    Answer. The FY 2011 Budget request includes an increase of $2.7 
million for aquaculture efforts within the Office of Oceanic and 
Atmospheric Research, for a total of $4.3 million. About one third of 
these funds will be used for transfer of aquaculture technology and 
best management practices through Sea Grant extension; the remaining 
two thirds will support research under the National Marine Aquaculture 
Initiative (NMAI) competitive grants program. NMAI funding is competed 
biennially (e.g., using FY 2010 and 2011 funds) based on priority areas 
that are established for each funding cycle. Projects for the marine 
version of aquaponics and for land-based recirculating systems will be 
eligible to compete for FY 2010 and 2011 funding. As funding is awarded 
on a competitive basis, we cannot predict how much funding will go 
toward these specific areas.
    As aquaponics involves cultivating freshwater plant species, and 
NOAA's aquaculture efforts focus on marine species, aquaponic research 
has not been a priority for NOAA. However, one of the NMAI's three 
research priority areas for FY 2010 is ``smart design'' approaches to 
aquaculture, which includes exploring integrated multi-trophic 
aquaculture and ways to design aquaculture production in an ecosystem 
management context. Multi-trophic aquaculture involves growing marine 
plants  (i.e., algae) and/or shellfish in conjunction with finfish. 
Funding for other forms of cultivation of marine plants and research on 
land-based recirculating systems are also eligible for funding under 
NMAI.
    A second priority area for NMAI in FY 2010 and 2011 is to conduct 
research on the social and economic issues associated with current and 
new marine aquaculture. Such research will help NOAA to understand 
socio-economic considerations of fishermen and others in coastal 
communities. NOAA's goal for this line of research is not only to 
minimize potential negative socio-economic impacts, but also to allow 
fishing communities that are interested in pursuing sustainable marine 
aquaculture to receive the training and support they require to create 
jobs, generate income, and sustain working waterfronts. Most marine 
aquaculture operations in the United States are owned and operated by 
people from fishing and seafood business families and communities. 
Interest in using aquaculture as a tool to increase seafood production 
as a complement to commercial and recreational fishing already exists 
in some regions.

    Question 15. How much money is being pre-allocated to implement a 
national ocean fish farming program despite the lack of legislative 
action on any authorizing bill? What legislation has been passed into 
law authorizing NOAA to expend funds on fish farm programs?
    Answer. Funding has not been pre-allocated to implement a national 
ocean fish farming program. Of the $5.1 million requested increase in 
FY 2011, $2.4 million will be used to conduct research on alternative 
feeds, and $2.7 million will be awarded on a competitive basis for a 
range of research and extension activities that includes, but is not 
limited to: sustainable fish and shellfish farming practices, 
integrated multi-trophic aquaculture, disease and genetics management, 
technology development and transfer for a variety of sustainable marine 
aquaculture systems, marine spatial planning, and stock restoration. As 
funds will be awarded on a competitive basis, we cannot predict how 
much funding will go toward each of these specific areas.
    Most of NOAA's external aquaculture research is funded through NOAA 
Sea Grant's National Marine Aquaculture Initiative competitive grants 
program. This program's authority comes from the National Sea Grant 
College Program Act and subsequent amendments (33 U.S.C. 1121 et seq.). 
Some aquaculture grant funding is also issued under authority of the 
Saltonstall-Kennedy Act (15 U.S.C.  713c-3, as amended).

    Question 16. How much money is being pre-allocated to implement the 
Gulf of Mexico Fishery Management Plan for Offshore Aquaculture that is 
currently being challenged in court as illegal under existing Federal 
law?
    Answer. No funding has been pre-allocated to implement the Gulf of 
Mexico Fishery Management Plan (FMP). As NOAA develops its national 
aquaculture policy, it will examine whether the Gulf of Mexico 
aquaculture FMP aligns with the new policy. If the FMP is inconsistent 
with NOAA's national aquaculture policy, NOAA will consider appropriate 
action, which could include seeking amendment or withdrawal of the FMP 
pursuant to sections 303 and 304 of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA).

    Question 17. Given that NOAA has just created the Climate Program 
Office, will NOAA be testing the reliability and value of long range 
prediction models such the Seasonal Outlooks and Global Climate Models?
    Answer. [Note: The response below assumes this question is in 
reference to the announced plan to establish a NOAA Climate Service.]
    NOAA has been testing the reliability and value of its Seasonal 
Outlooks since they were first produced in 1987. NOAA tracks the 
performance of its 3-Month Outlooks by comparing the accuracy of the 
forecast with the accuracy of a similar forecast based only on the 
observed 30- year climate normals.\1\ Since 1987, the accuracy of the 
seasonal 3-Month Temperature Outlook has more than doubled--improvement 
over climate normals was 10 percent in 1987, and is about 20 percent 
today. Improvement of precipitation forecasts shows even greater 
progress from a 3 percent improvement over climate normals in 1987 to a 
10 percent improvement over climate normals today.
---------------------------------------------------------------------------
    \1\ A climate normal is defined, by convention, as the arithmetic 
mean of a climatological element computed over three consecutive 
decades (WMO, 1989). For example, the climatological normal temperature 
for the month of January would be the monthly average temperature for 
January averaged over 30 consecutive years.
    Reference: World Meteorological Organization, 1989: Calculation of 
Monthly and Annual 30-Year Standard Normals, WCDP--No. 10, WMO-TD/No. 
341, Geneva: World Meteorological Organization.
---------------------------------------------------------------------------
    NOAA has also been tracking the reliability and value of its Global 
Climate Models since 2000. The Global Climate Models are used in the 
production of the 3-Month Temperature Outlook, and have similarly 
improved over the 30-year climate normals. Global climate models, which 
have been used in producing the 3-Month Outlooks since 2000, are also 
tracked for performance, and have also performed better than the 30-
year climate normals.
    For longer-term climate models, the model's ability to simulate the 
past climate record (the last 150 years or so) is also tested and 
evaluated. This testing is an important part of developing the models. 
These tests will continue into the future. The evaluation of climate 
models over the historical climate period is an important component of 
the work that will be conducted by the NOAA Climate Service.

    Question 18. Can the Climate Program Office state for the record an 
acceptable statistical margin of error for all of the NOAA long range 
(90 day outlooks or longer) forecast products?
    Answer. [Note: The response below assumes this question is in 
reference to the announced plan to establish a NOAA Climate Service.]
    NOAA makes seasonal outlook forecasts for three categories (all 
percentages rounded):

  <bullet> 33 percent or greater chance to be above the climatological 
        normal;

  <bullet> 33 percent or greater chance to be below the climatological 
        normal; and

  <bullet> The area between the two, or ``equal'' chances of being 
        above, below or within normal.

    Forecast performance verification is based on the non-"equal'' 
chances forecasts compared to forecasts based on long term climate 
averages. NOAA uses observation points, and compares its forecast to 
what was actually observed. Correct forecasts are ``hits.'' The result 
is compared to forecasts made from climate averages. This gives NOAA 
the best measure of its added forecast value, or skill.
    For example, during the 3 month outlook period of January, 
February, and March of 2010, NOAA's non-``equal'' forecast area (areas 
with over 33 percent chance to be above or below normal) included 154 
points to be verified. A climatological forecast for those 154 points 
would be expected to be correct on 51 of them (33 percent). NOAA was 
correct on 102 of those points (66 percent), demonstrating significant 
skill and value added.
    A ``statistical margin of error'' is not calculated nor used as a 
metric for the performance for seasonal forecasts.

    Question 19. Can NOAA establish, for the public record, a minimum 
performance standard for all of the forecasts, outlooks and prediction 
models?
    Answer. A climatological forecast, developed using only the 
observed 30-year climate normals, represents the minimum performance 
standard. NOAA utilizes prediction models to produce enhanced 
forecasts, and constantly assesses the skill of its forecast products 
to ensure we are providing the most accurate and reliable information 
possible. Such assessment includes regularly comparing NOAA's enhanced 
climate forecasts against the climatological forecast, the minimum 
performance standard. NOAA also assesses its model forecasts against 
that minimum performance standard. All official NOAA climate forecasts 
exceed the accuracy of that standard.

    Question 20. Will NOAA submit for the record the quality control 
standards for meteorological, oceanographic, geophysical and climate 
data with respect to the Data Quality Act?
    Answer. NOAA published Information Quality Guidelines (NOAA, 2006) 
in response to the OMB directive to ``provide policy and procedural 
guidance to Federal agencies for ensuring and maximizing the quality, 
objectivity, utility, and integrity of information (including 
statistical information) disseminated by Federal agencies (OMB, 
2002).'' In establishing these guidelines, NOAA was responding to 
Section 515 of the Treasury and General Government Appropriations Act 
for Fiscal Year 2001 (Public Law 106-554) in regards to Information 
Quality for Federal agencies. Within the NOAA guidelines, NOAA 
categorized its data and information into seven broad categories and 
then issued specific and detailed Objectivity Standards for each 
category in terms of information quality.
References

    NOAA, 2006: National Oceanic and Atmospheric Administration 
Information Quality Guidelines, http://www.cio.noaa.gov/
Policy_Programs/IQ_Guidelines
_110606.html.
    OMB, 2002: OMB 515 Guidelines (Federal Register: February 22, 2002, 
Volume 67, Number 36, pp. 8452-8460 http://www.cio.noaa.gov/
Policy_Programs/docs/OMB_IQGuidelines_022202.pdf.

    Question 21. Given that NOAA awards grant funding to various 
research organizations; will NOAA insist that source data, derived from 
these grants, be made available for the public record?
    Answer. NOAA awards grants according to the regulations specified 
in OMB administrative requirements and cost principles and the 
Department of Commerce Grants Manual. NOAA encourages grantees to make 
all data derived as a result of a NOAA grant available to the public. 
NOAA believes strongly in the peer review process to help ensure the 
highest data and research quality.

    Question 22. Has NOAA ever engaged in selective publishing of 
Technical Memorandums, or other official scientific and technical 
publications, based on political policies or agendas?
    Answer. NOAA does not prevent scientists from releasing findings 
and reports. A 2007 GAO report (GAO-07-653) found that NOAA policies 
for dissemination through publications and presentations were generally 
clear and should facilitate dissemination.

    Question 23. Does NOAA have a policy in place to ensure that 
compiled data, reports and technical memorandums are not compromised by 
political agendas regardless of the conclusions contained within these 
reports?
    Answer. NOAA has a full and open data policy and is committed to 
scientific integrity. In the case of compiled data, for example, NOAA's 
National Climatic Data Center (NCDC), which is the primary organization 
responsible for NOAA's global surface temperature monitoring, maintains 
all original data used in deriving products in compliance with 44 
U.S.C. 3301, National Archives and Records Administration Records 
Retention Schedules and the NOAA Records Disposition Handbook. All of 
this data is available to the public. Any documents, such as peer-
reviewed scientific journal articles, are likewise available to the 
public.
    In response to the recommendations in the 2007 GAO report (GAO-07-
653), the Department of Commerce issued a new administrative order DAO 
219-1, which explicitly allows researchers to publicly discuss the 
results of basic or applied research in science or engineering--termed 
``Fundamental Research Communications''--without prior approval from 
NOAA's Office of Communications.

    Question 24. In response to questions you answered following the 
December 2, 2009 hearing on ``The Administration's View on the State of 
Climate Science'' before the Select Committee on Energy Independence 
and Global Warming, U.S. House of Representatives, you indicated that, 
consistent with the phenomenon known as ocean acidification, the pH of 
the oceans has been trending downward. What influence will such a 
decline have on marine organisms?
    Answer. Ocean acidification refers to the process of lowering the 
oceans' pH by dissolving additional carbon dioxide (CO<INF>2</INF>) in 
seawater from the atmosphere. It is now well established that the pH of 
our ocean surface waters has already fallen by about 0.1 units from an 
average of about 8.2 to 8.1 since the beginning of the industrial 
revolution, and that this reduction in pH is due to sequestration by 
the ocean of a portion of the CO<INF>2</INF> released by fossil fuel 
burning and land use practices. The interaction between CO<INF>2</INF> 
and other inorganic carbon species in seawater reduces the availability 
of carbonate ions, which play an important role in shell formation for 
a number of marine organisms such as corals, marine plankton, and 
shellfish. Increasing ocean acidification has been shown to 
significantly reduce the ability of reef-building corals to produce 
their skeletons in controlled studies, affecting growth of individual 
corals and making the reef more vulnerable to erosion (Fabry et al., 
2998; Doney et al., 2009).
    Changes in seawater pH can also create a more physiologically 
challenging environment for both calcifying and non-calcifying marine 
organisms. Ongoing research is showing that decreasing pH may have 
deleterious effects on commercially important fish. Silver seabream 
larvae exhibit very high mortality rates in CO<INF>2</INF>-enriched 
waters. The calcification rates of the edible mussel (Mytilus edulis) 
and Pacific oyster (Crassostrea gigas) decline linearly with increasing 
CO<INF>2</INF> levels. Squid are especially sensitive to ocean 
acidification because it directly impacts their blood oxygen transport 
and respiration (Portner et al., 2005). Scientists have also seen a 
reduced ability of marine algae and free-floating plants and animals to 
produce protective carbonate shells (Feely et al., 2004; Fabry et al., 
2008; Doney et al., 2009). These organisms are important food sources 
for other marine species. In particular, pteropods, a type of free-
swimming mollusk, are a major food source for North Pacific juvenile 
salmon, and also serve as food for mackerel, pollock, herring, and cod. 
It is important to recognize that while many species of heterotrophs--
animals--are likely to suffer under ocean acidification, many 
autotrophs--plants--may benefit because extra carbon dioxide could act 
as a fertilizer for photosynthesis. Some marine food webs could become 
unbalanced because of ocean acidification due to the collection of 
positive, negative, and neutral responses of their constituent species.

    Question 25. Is there a scientific consensus that increasing carbon 
dioxide concentrations are causing ocean acidification, and that this 
phenomenon will harm marine organisms?
    Answer. On the basis of global ocean carbon dioxide 
(CO<INF>2</INF>) surveys and time-series studies over the past two 
decades, there are very clear results from oceanic measurements that 
ocean acidification is a predictable consequence of rising atmospheric 
CO<INF>2</INF> (Feely et al., 2004; Bates and Peters, 2007; Santana-
Casiano et al., 2007; Dore et al., 2009; Feely et al., 2009; Takahashi 
et al., 2009; Byrne et al., 2010) that is independent of the 
uncertainties and outcomes of climate change (for example, see Figure 
1). Based on changing the atmospheric CO<INF>2</INF> levels and 
numerical models, the pH of ocean surface waters is believed to have 
decreased by about 0.1 since the industrial era began (Caldeira and 
Wickett, 2003; Orr et al., 2005), with a measured decrease of 0.018 
units per decade observed over the last quarter century at several 
open-ocean time-series sites (Bates, 2007; Bates and Peters, 2007; 
Santana-Casiano et al., 2007; Dore et al., 2009). By the middle of this 
century, atmospheric CO<INF>2</INF> levels could reach more than 500 
parts per million (ppm), and exceed 800 ppm by the end of the century 
(Friedlingstein et al., 2006). These CO<INF>2</INF> levels would result 
in an additional decrease in surface water pH of 0.3 units from current 
conditions by 2100, which represents an increase in the ocean's 
hydrogen ion (H+) concentration by 2.5 times relative to the beginning 
of the industrial era.
    Since ocean acidification research is still in its infancy, it is 
impossible to predict exactly how the individual species responses will 
cascade throughout the marine food chain and impact the overall 
structure of marine ecosystems. It does appear, however, from the 
existing data and from the geologic record that some coral and other 
calcifying species will be reduced in a high-CO<INF>2</INF> ocean. The 
disappearance of many calcifying species in past extinction events has 
been attributed, in large part, to ocean acidification events (Zachos 
et al., 2005).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Time series of atmospheric CO<INF>2</INF> at Mauna Loa 
(ppm) and surface ocean pH and pCO<INF>2</INF> (matm) at Ocean Station 
Aloha in the subtropical North Pacific Ocean. Note that the increase in 
oceanic CO<INF>2</INF> over the period of observations is consistent 
with the atmospheric increase within the statistical limits of the 
measurements. The lines are placed to guide the eye rather then to 
imply a linear trend. Mauna Loa data: Pieter Tans, NOAA/ESRL, http://
www.esrl.noaa.gov/gmd/ccgg/trends. HOT/ALOHA data: David Karl, 
University of Hawaii, http://hahana.soest. (Figure modified from Feely 
2008).

    Question 26. How strong is that consensus? And are the impacts of 
ocean acidification expected to have serious consequences for marine 
life? And do you agree with that assessment?
    Answer. There is no question about the changes in carbon dioxide 
concentrations and decreased pH in the global oceans that occur as a 
result of the uptake of anthropogenic carbon dioxide by the oceans (see 
response to Question 25, above). Further, the global CO<INF>2</INF> 
surveys of the World Ocean Circulation Experiment/Joint Global Ocean 
Flux Study World Ocean Survey in the 1990s, and the CLIVAR/
CO<INF>2</INF> Repeat Hydrography Program clearly document these 
changes (Sabine et al., 2004; 2008; Sabine and Tanhua, 2009; Feely et 
al., 2009; Byrne et al., 2010). With respect to the impacts of ocean 
acidification on marine organisms, please see the responses to Question 
24 and 25 above.

    Question 27. Given your prior testimony, I am a little troubled 
that the Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
Administrator, National Oceanic and Atmospheric Administration, U.S. 
Department of Commerce would take so rigid a stance on this issue when 
numerous articles continue to be published in the peer-reviewed 
scientific literature that indicate ocean acidification is not as 
serious a threat as you claim it to be. Are you aware of any peer-
reviewed journal articles that do not support the alarmist position on 
ocean acidification?
    Answer. Some studies have shown that some species of non-calcifying 
and calcifying marine organisms exhibit a positive response to 
increasing carbon dioxide in the ocean. As in any changing environment, 
there will always be organisms that thrive when conditions shift--and 
organisms that are not as capable of adapting to the new conditions. 
However, our concerns are about ocean acidification on the ecosystem as 
a whole, and in particular the impacts to commercially important 
species that appear particularly susceptible. Furthermore, there have 
been several highly-respected review articles by NOAA scientists and 
their academic colleagues that have summarized much of the peer-
reviewed scientific literature on ocean acidification and its impacts 
on marine organisms, that show some positive, but predominantly 
negative response of calcifying organisms (see, for example, Feely et 
al., 2004; Kleypas et al., 2006; Fabry et al., 2008a, b; Guinotte and 
Fabry 2008; Doney et al., 2009a,b). These papers are considered to be 
among the most authoritative papers on this topic, and they clearly 
indicate that there is substantial evidence that decreased 
calcification of corals (Cohen and Holocomb, 2009; Kleypas and Yates, 
2009) and other pelagic and benthic calcifiers (Fabry et al., 2008; 
2009; Balch and Utgoff, 2009) generally slows the overall calcification 
process by mechanisms that are just beginning to be understood (Cohen 
and Holocomb, 2009). Because decreased calcification alone could have 
negative impacts on marine ecosystems as well as commercially important 
shellfish species (i.e., clams, oysters, sea urchins), I am very 
concerned about the health of our marine ecosystems and the associated 
economic and societal impacts.

    Question 28. Let me share with you the results of some papers that 
do not support your cause for alarm with regard to ocean acidification. 
For starters, are you aware of the study by Peiter Tans, published in 
the December 2009 issue of Oceanography (Vol. 22, N. 4, pp. 26-35)? 
According to data published by Dr. Tans, as shown in this figure, the 
IPCC is overstating the decline in oceanic pH by more than a factor of 
two. Instead of a pH decline on the order of 0.6 units, Dr. Tans' 
research suggests a more modest 0.2 to 0.28 decline followed by an 
abrupt turn-around and a fairly rapid recovery toward present-day 
values. In light of this new research it would seem, Dr. Lubchenco, 
that concerns about a 0.4, a 0.5 or even a 0.6 pH unit decline in the 
world's oceans is overblown, as are concerns about its impact on marine 
organisms. Please discuss what your thoughts are on how these findings 
are accurate or inaccurate and why the findings would be published in 
Oceanography if they were inaccurate. Does this journal have a 
reputation for publishing findings that are below NOAA standards for 
peer-reviewed research?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Answer. The special issue on ocean acidification in Oceanography 
magazine focused on drawing attention to the comprehensive and multi-
faceted research in this rapidly evolving field. The work by Dr. Tans 
on the impact of different carbon dioxide (CO<INF>2</INF>) emission 
projections on surface pH levels is one example of the thoughtful and 
unbiased work that was performed by the scientists that contributed to 
this special volume.
    In the Oceanography article quoted by you, Dr. Tans showed that 
until now the ultimate rise of CO<INF>2</INF> depends primarily on the 
total cumulative amounts emitted. Then, when it came to making future 
prognoses he made it very clear on which assumptions they were built. 
He assumed that emissions from fossil fuel burning would peak in the 
first half of this century, and go toward zero fairly rapidly after the 
peak. In other words, he assumed that aggressive policies would be put 
in place, and/or that the price of fossil fuel extraction would 
increase on its own very substantially as a result of increasing 
depletion of the reserves. Second, he also assumed that there would not 
be large uncontrolled emissions from the Arctic as a result of Arctic 
warming. He made the latter assumption only because the course of such 
potential emissions cannot be reliably predicted at this time, not 
because he thought they were unlikely. The A2 scenario in the graph you 
provide is only one of a large range of scenarios discussed by the 
IPCC. In fact, it is at the high end of the range, and it applies to a 
world in which little attention is paid to the environmental risks of 
burning fossil fuels. In the same Oceanography article, Dr. Tans showed 
how one can estimate the atmospheric CO<INF>2</INF> increase that has 
to accompany the pH drop of ocean surface waters. In the graph you 
provide of the A2 scenario in the year 2270, atmospheric CO<INF>2</INF> 
would have to be about 1090 ppm, almost a quadrupling of pre-industrial 
CO<INF>2</INF>. Dr. Tans argued that the probability of catastrophic 
climate change, because of plausible feedbacks in the climate system, 
would be unacceptably large if CO<INF>2</INF> is allowed to rise to 
such a high level.

    Question 29. To further illustrate the point that so-called ocean 
acidification will have little negative impact on marine life, I would 
like to introduce you to a study published earlier this year by 
Hendriks and colleagues in the journal Estuarine, Coastal and Shelf 
Science (Vol. 86, pp. 157-164). Are you aware of this article? This 
peer-reviewed scientific paper represents the most recent and most 
comprehensive analysis conducted to date on experimental studies that 
have explored the effects of rising atmospheric CO<INF>2</INF> 
concentrations on marine biota. Upon assembling and analyzing a 
database of 372 experimentally-evaluated responses of 44 different 
marine species to ocean acidification, the authors concluded that 
``marine biota [are] more resistant to ocean acidification than 
suggested by pessimistic predictions identifying ocean acidification as 
a major threat to marine biodiversity, which may not be the widespread 
problem conjured into the 21st century.'' Now those are their words, 
not mine. Please explain your thoughts on why these findings are 
accurate or inaccurate and why the findings would be published in 
Estuarine, Coastal and Shelf Science if they were inaccurate. Does this 
journal have a reputation for publishing findings that are below NOAA 
standards for peer-reviewed research?

    Question 30. There are several other important findings from 
Hendriks et al. Study, again quoting the authors.

        1. ``There was no consistent effect of experimental 
        acidification on calcification of corals, considered one of the 
        most vulnerable groups to ocean acidification.''

        2. ``[Ocean acidification] effects are likely to be minor along 
        the range of pCO<INF>2</INF> predicted for the 21st century, 
        and feedbacks between positive responses of autotrophs and pH 
        may further buffer the impacts.''

        3. ``The attention that ocean acidification as a sole threat to 
        marine biodiversity has drawn recently might not be fully 
        justified concerning the limited impact of experimental 
        acidification on organism processes as shown by the meta-
        analysis presented here.''

        4. ``The effects of ocean acidification on biological processes 
        may therefore not be biologically significant, even for 
        calcification rates, the process most sensitive to ocean 
        acidification. This conclusion is in contrast with previous 
        claims of ocean acidification as a major threat to marine 
        diversity. This difference may be explained by a suite of at 
        least three features that have not as yet been considered in 
        models predicting the impacts of future ocean pH: existing 
        gradients in concentrations, boundary layer effects and 
        intracellular regulation of concentrations.''

    Please discuss how each of the above statements is accurate or 
inaccurate based on the most recent peer-reviewed science. Considering 
the implications of the many real-world observations presented in the 
Hendriks et al. Study, I am deeply troubled by the fact that your prior 
testimony before Congress on the expected impacts of ocean 
acidification significantly contradicts what has been observed by 
numerous researchers in the real world. In addition, upon a review of 
several NOAA-related websites on the topic of ocean acidification, I am 
further troubled by the fact that a government agency such as NOAA 
presents a similarly flawed and alarmist view on ocean acidification 
and makes no mention of the good news (or non-negative effects) found 
among the 342 peer-reviewed journal papers examined by Hendriks et al.. 
How do you explain that? Why is NOAA cherry-picking studies? How come 
you have failed to include discussion on at least some of the papers 
analyzed by Hendriks et al.?
    Answer (29 and 30): In the Hendriks et al. (2010) paper, the 
authors conducted a meta-analysis of a small subset of the older 
published literature on the ocean acidification impacts on marine biota 
with the purpose of providing a broad view of the present and future 
biological effects. While the Hendricks et al. database contains a 
total of 372 experimentally evaluated responses of 44 species and three 
types of communities (sand, phytoplankton and coral) to ocean 
acidification, they review only 42 peer-reviewed journal papers (see 
Hendriks et al. 2010 appendix) with the most recent manuscripts 
published in 2008. The peer-reviewed literature on ocean acidification 
is growing exponentially, and a current database of published studies 
that explore the biological implication of ocean acidification includes 
over 130 papers. Thus, the scope of the Hendriks et al. (2010) review 
is limited compared to the current state of understanding in the field.
    Hendricks et al. (2010) determined effect size (ratio of treatment 
impact over the control response) for five different processes (e.g., 
calcification, fertility, growth, metabolism, and survival). Their 
results show both positive and negative results for different groups of 
organisms and for different metabolic processes within those groups, 
but no significant impacts when the data are grouped together and 
averaged, . . .``When all biological responses were pooled the 
extracted data in the database showed no general consistent effect of 
ocean acidification, as the general effect size across species and 
processes did not differ significantly from the null value of 1 
indicative of no effect.'' Consistent with these results, the recent 
review articles of Fabry et al. (2008) and Doney et al. (2009) showed 
very similar kinds of positive and negative responses for individual 
groups and individual metabolic processes. However, all of these 
studies show that when individual processes are studied in detail 
significant impacts did occur. For example, on page 161 Hendriks et al. 
states that ``The data do suggest that calcification rate, the most 
sensitive process responding directly to ocean acidification, will 
decline by, on average, 25 percent at elevated pCO<INF>2</INF> values 
of 731-759 ppm.'' In another study, Ries et al. (2009) determined the 
response of 18 benthic marine calcifiers to aragonite also found a wide 
range of responses. The underlying controlling factor of these variable 
responses may be the energetic costs of manipulating carbon dioxide 
(CO<INF>2</INF>) within the calcifying fluid in order to maintain 
calcification under conditions that are thermodynamically less 
favorable for calcification. No simple statistical analysis is capable 
of delineating the complex mechanisms that an organism may employ at 
different life stages to adapt to the stress of higher CO<INF>2</INF> 
levels in the oceans. Nor will it address the combined impacts of 
increased acidification, increased warming, and decreased oxygen levels 
over the next century. Doing so will require careful studies of the 
multiple responses organisms at different life stages to the increasing 
levels of CO<INF>2</INF> and temperature and decreased dissolved oxygen 
caused by humankind that also simulates the natural variability found 
in the environment. Since calcifying marine organisms play a major role 
(nearly 50 percent) in the U.S. fishing industry, these studies are 
absolutely necessary for understanding the long-term impacts of ocean 
acidification on this critical component of our Nation's long-term 
strategy for food security, jobs and the economy.
    With respect to the coral reefs, Hendriks et al. (2010) state in 
the discussion that ``There was no consistent effect of experimental 
acidification on calcification of corals, considered one of the most 
vulnerable groups to ocean acidification.'' However, this seems 
unsupported, even opposite to what they show in Figure 1 and Table 1 
for calcification of corals. They do go on to qualify their statement 
in the following paragraph, but they suggest that a 25 percent 
reduction in coral calcification will be less because, ``these gradual 
changes [in atmospheric CO<INF>2</INF>] take place on the scale of 
decades, permitting adaptation of organisms even including genetic 
selection.'' I should point out that, the debate remains open on this 
issue because there is no direct evidence that adaptation and 
acclimation of corals could occur on decadal time scales. [See also the 
answer to question 27 above.]
    Hendriks et al. (2010) statement that ``effects are likely to be 
minor along the range of pCO<INF>2</INF> predicted for the 21st 
century, and feedbacks between positive responses of autotrophs and pH 
may further buffer the impacts'' is inconsistent with their own results 
in Table 1 for calcification. Their rather arbitrary limits of 
appropriate thresholds are not well justified, and their assertion that 
positive responses of autotrophs and pH may further buffer the impacts 
has yet to be proven.
    Hendriks et al. (2010) statement that ``The attention that ocean 
acidification as a sole threat to marine biodiversity has drawn 
recently might not be fully justified concerning the limited impact of 
experimental acidification on organism processes as shown by the meta-
analysis presented here'' is not consistent with the recent scientific 
literature. Several authors have stressed that the combined stressors 
of acidification and warming may lead to lower thermal bleaching 
thresholds, and decreased calcification and benthic food resources for 
higher level organisms (Metzger et al., 2007; Anthony et al., 2008; 
Fabry et al., 2008; 2009; Cooley et al., 2009; Silverman et al., 2009).
    Hendriks et al. (2010) statement that ``The effects of ocean 
acidification on biological processes may therefore not be biologically 
significant, even for calcification rates, the process most sensitive 
to ocean acidification. This conclusion is in contrast with previous 
claims of ocean acidification as a major threat to marine diversity. 
This difference may be explained by a suite of at least three features 
that have not as yet been considered in models predicting the impacts 
of future ocean pH: existing gradients in concentrations, boundary 
layer effects and intracellular regulation of concentration.'' is not 
consistent with all of the responses, references and reviews discussed 
previously [see also the response to question 27 above]. In addition, 
with respect to the models, apparently Hendriks et al. (2010) were not 
aware that already large-scale ocean model simulations of future 
changes due to ocean acidification do indeed include seasonal and 
interannual variability as well as changes due to climate change (e.g., 
Orr et al., 2005). It is a fair criticism to say that most global-scale 
models do not include diurnal variability, but that does not matter if 
new thresholds are indeed crossed, as has recently been the case for 
coral bleaching.

References

    Anthony, K. R. N., D. I. Kline, G. Diaz-Pulido, S. Dove, and O. 
Hoegh-Guldberg. 2008. Ocean acidification causes bleaching and 
productivity loss in coral reef builders. Proceedings of the National 
Academy of Sciences of the United States of America 105 (45):17442-
17446.
    Balch, W. M., and P. E. Utgoff. 2009. Potential interactions among 
ocean acidification, coccolithophores, and the optical properties of 
seawater. Oceanography 22(4):146-159.
    Bates, N. R. 2007. Interannual variability of the oceanic 
CO<INF>2</INF> sink in the subtropical gyre of the North Atlantic Ocean 
over the last 2 decades. Journal of Geophysical Research-Oceans 112 
(C9).
    Bates, N. R., and A. J. Peters. 2007. The contribution of 
atmospheric acid deposition to ocean acidification in the subtropical 
North Atlantic Ocean. Marine Chemistry 107 (4):547-558.
    Byrne, Robert H., Sabine Mecking, Richard A. Feely, and Xuewu Liu. 
2010. Direct observations of basin-wide acidification of the North 
Pacific Ocean. Geophys. Res. Lett. 37.
    Caldeira, K., and M. E. Wickett. 2003. Anthropogenic carbon and 
ocean pH. Nature 425 (6956):365-365.
    Cohen, A. L., and M. Holcomb. 2009. Why corals care about ocean 
acidification: Uncovering the mechanism. Oceanography 22(4):118-127.
    Cooley, S. R. and S. C. Doney. 2009. Anticipating ocean 
acidification's economic consequences for commercial fisheries. 
Environmental Research Letters (2):024007.
    Doney, Scott C., Victoria J. Fabry, Richard A. Feely, and Joan A. 
Kleypas. 2009a. Ocean Acidification: The Other CO<INF>2</INF> Problem. 
Annual Review of Marine Science 1 (1):169.
    Doney, S. C., W. M. Balch, V. J. Fabry, and R. A. Feely. 2009b. 
Ocean Acidification: A Critical Emerging Problem for the Ocean 
Sciences. Oceanography 22(4): 16-25.
    Dore, John E., Roger Lukas, Daniel W. Sadler, Matthew J. Church, 
and David M. Karl. 2009. Physical and biogeochemical modulation of 
ocean acidification in the central North Pacific. Proceedings of the 
National Academy of Sciences 106 (30):12235-12240.
    Fabry, V. J., C. Langdon, W. M. Balch, A. G. Dickson, R. A. Feely, 
B. Hales, D. A. Hutchins, J. A. Kleypas, and C. L. Sabine. 2008. 
Present and Future Impacts of Ocean Acidification on Marine Ecosystems 
and Biogeochemical Cycles. Paper read at Ocean Carbon and 
Biogeochemistry Scoping Workshop on Ocean Acidification Research held 
9-11 October 2007, at La Jolla, CA.
    Fabry, Victoria J. 2008. OCEAN SCIENCE: Marine Calcifiers in a 
High-CO<INF>2</INF> Ocean. Science 320 (5879):1020-1022.
    Fabry, Victoria J., Brad A. Seibel, Richard A. Feely, and James C. 
Orr. 2008. Impacts of ocean acidification on marine fauna and ecosystem 
processes. ICES J. Mar. Sci. 65 (3):414-432.
    Feely, R., S. C. Doney, and S. Cooley. 2009. Ocean acidification: 
present conditions and future changes in a High-CO<INF>2</INF> World. 
Oceanography 22 (4):36-47.
    Feely, Richard A., Christopher L. Sabine, Kitack Lee, Will 
Berelson, Joanie Kleypas, Victoria J. Fabry, and Frank J. Millero. 
2004. Impact of Anthropogenic CO<INF>2</INF> on the 
C<INF>a</INF>CO<INF>3</INF> System in the Oceans. Science 305 
(5682):362-366.
    Friedlingstein, P., P. Cox, R. Betts, L. Bopp, W. von Bloh, V. 
Brovkin, P. Cadule, S. Doney, M. Eby, I. Fung, G. Bala, J. John, C. 
Jones, F. Joos, T. Kato, Ml Kawamiya, W. Knorr, K. Lindsay, H. D. 
Matthews, t. Raddatz, P. Ravner, C. Reick, E. Roeckner, K.-G. 
Schnitzler, R. Schnur, K. Strassmann, A.J. Weaver, C. Yoshikawa, and N. 
Zeng. 2006. Climate-carbon cycle feedback analysis: Results from the 
C*MIP model intercomparison. J. Climate 19 (14):3337-3353.
    Guinotte, J. M., and V. J. Fabry. 2008. Ocean acidification and its 
potential effects on marine ecosystems. In Year in Ecology and 
Conservation Biology 2008.
    Kleypas, J. A., and K. K. Yates. 2009. Coral reefs and ocean 
acidification. Oceanography 22(4):108-117.
    Kleypas, J. A., R. A. Feely, V. J. Fabry, C. Langdon, C. L. Sabine, 
and L. L. Robbins. 2006. Impacts of Ocean Acidification on Coral Reefs 
and Other Marine Calcifiers: A Guide for Future Research. In report of 
a workshop held 18-20 April 2005. St. Petersburg, FL: sponsored by NSF, 
NOAA, and the U.S. Geological Survey.
    Orr, James C., Victoria J. Fabry, Olivier Aumont, Laurent Bopp, 
Scott C. Doney, Richard A. Feely, Anand Gnanadesikan, Nicolas Gruber, 
Akio Ishida, Fortunat Joos, Robert M. Key, Keith Lindsay, Ernst Maier-
Reimer, Richard Matear, Patrick Monfray, Anne Mouchet, Raymond G. 
Najjar, Gian-Kasper Plattner, Keith B. Rodgers, Christopher L. Sabine, 
Jorge L. Sarmiento, Reiner Schlitzer, Richard D. Slater, Ian J. 
Totterdell, Marie-France Weirig, Yasuhiro Yamanaka, and Andrew Yool. 
2005. Anthropogenic ocean acidification over the twenty-first century 
and its impact on calcifying organisms. Nature 437 (7059):681-686.
    Portner, Hans O., and Anthony P. Farrell. 2008. ECOLOGY: Physiology 
and Climate Change. Science 322 (5902):690-692.
    Ries, Justin B., Anne L. Cohen, and Daniel C. McCorkle. 2009. 
Marine calcifiers exhibit mixed responses to CO<INF>2</INF>-induced 
ocean acidification. Geology 37 (12):1131-1134.
    Sabine, C. L., R. A. Feely, F. J. Millero, A. G. Dickson, C. 
Langdon, S. Mecking, and D. Greeley. 2008. Decadal changes in Pacific 
carbon. Journal of Geophysical Research-Oceans 113 (C7).
    Sabine, Christopher L., Richard A. Feely, Nicolas Gruber, Robert M. 
Key, Kitack Lee, John L. Bullister, Rik Wanninkhof, C. S. Wong, Douglas 
W. R. Wallace, Bronte Tilbrook, Frank J. Millero, Tsung-Hung Peng, 
Alexander Kozyr, Tsueno Ono, and Aida F. Rios. 2004. The Oceanic Sink 
for Anthropogenic CO<INF>2</INF>. Science 305 (5682):367-371.
    Sabine, Christopher L., and Toste Tanhua. 2010. Estimation of 
Anthropogenic CO<INF>2</INF> Inventories in the Ocean. Annual Review of 
Marine Science 2 (1):175-198.
    Santana-Casiano, J. Magdalena, Melchor Gonzalez-Davila, Maria-Jose 
Rueda, Octavio Llinas, and Enrique-Francisco Gonzalez-Davila. 2007. The 
interannual variability of oceanic CO<INF>2</INF> parameters in the 
northeast Atlantic subtropical gyre at the ESTOC site. Global 
Biogeochem. Cycles 21 (1):GB1015.
    Silverman, Jacob, Boaz Lazar, Long Cao, Ken Caldeira, and Jonathan 
Erez. 2009. Coral reefs may start dissolving when atmospheric 
CO<INF>2</INF> doubles. Geophys. Res. Lett. 36.
    Takahashi, Taro, Stewart C. Sutherland, Rik Wanninkhof, Colm 
Sweeney, Richard A. Feely, David W. Chipman, Burke Hales, Gernot 
Friederich, Francisco Chavez, Christopher Sabine, Andrew Watson, 
Dorothee C. E. Bakker, Ute Schuster, Nicolas Metzl, Hisayuki Yoshikawa-
Inoue, Masao Ishii, Takashi Midorikawa, Yukihiro Nojiri, Arne 
Kortzinger, Tobias Steinhoff, Mario Hoppema, Jon Olafsson, Thorarinn S. 
Arnarson, Bronte Tilbrook, Truls Johannessen, Are Olsen, Richard 
Bellerby, C. S. Wong, Bruno Delille, N. R. Bates, and Hein J. W. de 
Baar. 2009. Climatological mean and decadal change in surface ocean 
pCO<INF>2</INF>, and net sea-air CO<INF>2</INF> flux over the global 
oceans. Deep Sea Research Part II: Topical Studies in Oceanography 56 
(8-10):554-577.
    Zachos, James C., Ursula Rohl, Stephen A. Schellenberg, Appy 
Sluijs, David A. Hodell, Daniel C. Kelly, Ellen Thomas, Micah Nicolo, 
Isabella Raffi, Lucas J. Lourens, Heather McCarren, and Dick Kroon. 
2005. Rapid Acidification of the Ocean During the Paleocene-Eocene 
Thermal Maximum. Science 308 (5728):1611-1615.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
